<html>
<title> - SOCIAL SECURITY NOTICES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
                        SOCIAL SECURITY NOTICES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2000

                               __________

                             Serial 106-65

                               __________

         Printed for the use of the Committee on Ways and Means


                    U.S. GOVERNMENT PRINTING OFFICE
67-603 CC                   WASHINGTON : 2000



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Social Security

                  E. CLAY SHAW, Jr., Florida, Chairman

SAM JOHNSON, Texas                   ROBERT T. MATSUI, California
MAC COLLINS, Georgia                 SANDER M. LEVIN, Michigan
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
J.D. HAYWORTH, Arizona               LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               BENJAMIN L. CARDIN, Maryland
KENNY HULSHOF, Missouri
JIM McCRERY, Louisiana


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.





                            C O N T E N T S

                               __________

                                                                   Page

Advisory of September 19, 2000, announcing the hearing...........     2

                               WITNESSES

Social Security Administration, Hon. William A. Halter, Deputy 
  Commissioner...................................................     6
U.S. General Accounting Office, Barbara D. Bovbjerg, Associate 
  Director, Education, Workforce, and Income Security Issues; 
  Health, Education, and Human Services Division, accompanied by 
  Kay Brown, Assistant Director..................................    13

                       SUBMISSIONS FOR THE RECORD

Bilingual Services Working Group: Disability Law Center, Inc., 
  Boston, MA, Linda L. Landry; National Senior Citizens Law 
  Center, Los Angeles, CA, Gerald McIntyre; Northwest Justice 
  Project, Seattle, WA, Gillian Dutton; Greater Upstate Law 
  Project, Rochester, NY, Edwin Soto-Lopez; and Cedar, New York, 
  NY, Christopher Bowes; joint letter............................    50
Center for Disability Advocacy Rights, Inc., New York, NY, 
  Christopher James Bowes, letter and attachment.................    52
Matsui, Hon. Robert T., a Representative in Congress from the 
  State of California, statement.................................     4
National Alliance for the Mentally Ill, Arlington, VA, Gerald R. 
  Tarutis, statement.............................................    54
Robert, Charles, Robert, Lerner & Robert, New York, NY, statement 
  and attachments................................................    56
Tyler, Johnson M., South Brooklyn Legal Services, Brooklyn, NY, 
  letter and attachments.........................................    62
Vollmer, Peter, Vollmer & Tanck, Uniondale, NY, letter...........    66


                        SOCIAL SECURITY NOTICES

                              ----------                              


                           SEPTEMBER 26, 2000

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
room B-318, Rayburn House Office Building, Hon. E. Clay Shaw, 
Jr. (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                CONTACT: (202) 225-9263
FOR IMMEDIATE RELEASE

September 19, 2000

No. SS-23

           Shaw Announces Hearing on Social Security Notices

    Congressman E. Clay Shaw, Jr., (R-FL), Chairman, Subcommittee on 
Social Security of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on Social Security notices. 
The hearing will take place on Tuesday, September 26, 2000, in room B-
318 Rayburn House Office Building, beginning at 10:00 a.m.
      
    Oral testimony at this hearing will be heard from invited witnesses 
only. Witnesses will include representatives from the U.S. General 
Accounting Office (GAO) and the Social Security Administration (SSA). 
However, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    Social Security programs (Old-Age, Survivors, and Disability 
Insurance and Supplemental Security Income) provide monthly cash 
benefits to about 50 million beneficiaries. SSA mails millions of 
letters each year to applicants and recipients about its decisions to 
award, change, or deny benefits. In many cases these letters contain 
vital information needed by recipients and their families to make 
important medical, financial, and personal decisions.
      
    Yet, in 1994, GAO found that SSA's letters were often difficult to 
understand, lacked essential details, presented information in an 
illogical order, and required complex analysis to understand how 
benefit adjustments had been made. Chairman Shaw has asked GAO to 
assess SSA's progress in improving its letters. These findings will be 
presented at the hearing.
      
    In announcing the hearing, Chairman Shaw stated: ``One of SSA's 
goals is to deliver customer-responsive world-class service. Such 
service must ensure that these life-changing notices are accurate and 
easy to understand. We need to know if agency notices provide 
intelligible information for today's customers and if not, how this can 
be corrected before workloads at the agency substantially increase with 
the upcoming retirement wave of the baby boomers. Providing quality 
notices should be one of the agency's top priorities.
      

FOCUS OF THE HEARING:

      
    The hearing will focus on the quality of SSA's notices and the 
status of SSA's actions to address notice improvement.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect or MS Word format, with their name, address, 
and hearing date noted on alabel, by the close of business, Tuesday, 
October 10, 2000, to A.L. Singleton, Chief of Staff, Committee on Ways 
and Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to thepress and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Social Security office, room B-316 
Rayburn House Office Building, by close of business the day before the 
hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette in WordPerfect or 
MS Word format, typed in single space and may not exceed a total of 10 
pages including attachments. Witnesses are advised that the Committee 
will rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations onwhose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://waysandmeans.house.gov''.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs ingeneral (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>


    Chairman Shaw. Good morning.
    Each year the Social Security Administration mails out 
millions of letters to Social Security and SSI beneficiaries. 
The purpose of these letters is to notify people about changes 
in their eligibility status or inthe amount of monthly benefits 
that they receive.
    These letters represent the official communication between 
the Social Security Administration and the public. Millions of 
elderly Americans, especially those with low income, rely on 
Social Security as their only source of incomes. Any changes in 
benefits or eligibility has an extremely important impact on 
these people's lives. The amount of their Social Security or 
SSI check may be the difference between paying the monthly 
bills or not paying the monthly bills.
    Social Security rules are complicated enough. If someone 
does not understand what a letter says, they may not understand 
that their monthly income will change, or in some cases, even 
be discontinued. And they may not understand what steps they 
can take to address the situation if a mistake was indeed made. 
As a result, it is vital that SSA's letters to the public are 
as clear and easy to understand as possible.
    Yet, SSA letters are not clear. They are confusing, 
sometimes illogical, contradictory, and oftentimes frightening, 
especially when a senior on a fixed income is told that they 
owe $4,435 in 30 days. A recent court case ruled that certain 
letters are even constitutionally defective because they 
violate the principles of due process.
    For many years GAO has criticized these letters and has 
recommended that improvements be made, and for many years SSA 
has agreed that a real problem does in fact exist, and they 
have vowed to make improvements.
    Last year I asked the General Accounting Office to report 
on the progress SSA has made in improving their letters to the 
public. I am extremely disappointed to learn that the answer is 
little to none. GAO will testify today that improving these 
notices has not been a priority for SSA. The agency has taken 
very little action to fix the problem, and the letters remain 
as confusing today as they were several years ago when the 
problem was identified.
    For an agency that prides itself on delivering world-class 
customer service--and it does--it is beyond me how a problem of 
this magnitude fails to be addressed. SSA has recognized this 
problem and has pledged to fix it. Yet time and time again, 
plans to address the problems have been rescheduled, delayed or 
simply put off.
    In a few years millions of baby-boomers will reach their 
peak disability years and then their peak retirement years. As 
a result SSA's workload will increase substantially. Indeed, 
SSA has testified before the Subcommittee about the daunting 
challenges ahead as the agency prepares for the 
increasedworkload. It seems to me that SSA's ability to 
effectively communicate with the public is paramount in 
providing quality customer service, and this is a problem that 
needs to be fixed before the baby boomers become SSA customers.
    I look forward to hearing from our witnesses today and to 
learn what SSA plans to do to address these problems, and I 
would now yield to Mr. Cardin for such time as you may want to 
consume.
    Mr. Cardin. Thank you, Mr. Chairman, and let me express Mr. 
Matsui's sorrow for not being able to be present today, and I 
would ask that his statement be made part of our record.
    Chairman Shaw. Without objection.
    [The statement of Hon. Robert T. Matsui follows:]

Statement of Hon. Robert T. Matsui, a Representative in Congress from 
the State of California

    The Social Security program serves millions of people. This 
year, over 150 million people will work in Social-Security-
covered employment, and the Social Security and SSI programs 
will pay benefits to 50 million. Most of the time, we don't 
stop to think about all the information that the Social 
SecurityAdministration (SSA) provides. SSA communicates to the 
American people through its toll-free telephone number, its 
branch offices, and its website.
    One of the most important ways that SSA provides 
information is through written notices. This year alone, SSA 
expects to send out approximately 390 million notices to 
claimants, beneficiaries, workers, employers, and government 
agencies. Over the past several years, SSA has worked to 
improve the clarity and readability of the vast majority of its 
notices. The Commissioner of Social Security, Ken Apfel, 
testified before the Subcommittee earlier this year about the 
agency's initiatives.
    At today's hearing, our witnesses will talk more 
specifically about a small subset of the agency's notices. The 
General Accounting Office (GAO) is here to tell us about their 
latest study, in which GAO examined four types of notices the 
SSA issues. These notices tell people whether they have 
beenawarded or denied benefits, or that their benefit payments 
will be adjusted because of a change in their personal 
circumstances.
    The people who receive these notices rely on the 
information contained in them to make vitally important 
financial and legal decisions. Whether it is the mother 
receiving a notice about SSI benefits for her disabled child, 
or the elderly widow whose benefits are changing after the 
death of her husband,people count on these notices to be clear 
and thorough.
    Today, GAO will report that these four types of notices 
need significant improvement. The notices are often hard to 
follow, and the recipient may have difficulty figuring out what 
action SSA is taking. The notices may not explain why SSA is 
taking a particular action. And the notices may be missing 
critical facts that the recipient needs in order to make an 
informed decision about what to do next.
    I recognize that SSA faces a monumental task in revising 
these four types of notices. Making the changes that GAO 
recommends will involve reprogramming dozens of software 
programs and hundreds of lines of computer code. Since these 
notices convey decisions about programs with very complex rules 
such as SSI it will always be a challenge to present this 
information in an easily understandable manner. Finally, 
because a relatively small percentage of people receive these 
types of notices, the large amount of resources required to 
improve them may not make this project very attractive.
    However, these notices are sent to some of the most 
vulnerable members of our society the young, the sick, and the 
old. These people look to Social Security in times of need. To 
leave them, or the people who care for them, bewildered over a 
change in benefits or feeling as though they simply have 
norecourse in responding to a decision is simply unacceptable.
    I am very proud of our nation's Social Security program, 
and I know SSA is committed to providing its clients with the 
best possible service. Although these changes may be difficult, 
I know that the agency can and will make them in a timely 
manner. I look forward to hearing from Ms. Bovbjerg about 
GAO'srecommendations for improving SSA's notices and from Mr. 
Halter about the steps the agency is taking to implement them.
      

                                <F-dash>


    Mr. Cardin. We join you on this side of the aisle in 
welcoming this hearing. We very much welcome the deputy 
commissioner and the testimony from GAO as to the notices being 
sent out by the Social Security Administration. We think this 
is an extremely important subject. 150 million will work 
inSocial Security covered employment this year, and Social 
Security and SSI combined will pay benefits to about 50 million 
people in 2000.
    I don't think we quite understand the enormity of the task 
that faces SSA in communicating with the American public about 
these programs. Indeed, for 2000, SSA expects to send out 
approximately 390 million customized notices to claimants, 
beneficiaries, workers, employers and government agencies, 
390million customized notices. That is quite a task.
    As you point out, we have had hearings before this 
Subcommittee, and we know that Commissioner Apfel has made 
great strides in improving the annual Social Security statement 
that is now sent to every American worker over the age of 25. 
These annual statements now comprise approximately one-third 
ofthe automated notices SSA issues. About 133 million such 
statements will be issued for 2000.
    We join the Chair in recognizing that improvements need to 
be made, and we must continue to conduct oversight and make 
sure that we improve the notices that are being sent to the 
beneficiaries particularly, because they rely on that 
information. It is extremely important they get accurate 
informationand timely information.
    But, Mr. Chair, if I might, on a personal note, make a plug 
for the bill that you have been working on, and that I hope to 
work with you on, and that is to remove the SSA's 
administrative budget from the discretionary spending caps, 
because I do think part of the problem is that we need to take 
a look at what is the right amount of administrative support 
for the agency, not just in personnel, but in systematic 
improvements. And competing today in Labor-HHS-Education on the 
discretionary caps makes little sense, and I would hope that 
legislation would help us in providing the necessary tools and 
holding SSAaccountable to perform the way that our constituents 
expect them to perform.
    So I look forward to the witnesses today and I look forward 
to working with you in making sure that we get the best 
possible service to the people of his nation under the Social 
Security Administration.
    Chairman Shaw. Thank you, Ben. The budgetary problems that 
you mention, perhaps we can work together to develop an 
argument during this hearing with regard to that.
    We have here just two panels, each comprised of one person. 
From the Social Security Administration we have the Honorable 
William A. Halter, who is the Deputy Commissioner of Social 
Security.
    Then we have, from the U.S. General Accounting Office, 
Barbara Bovbjerg, who is the Associate Director of Education, 
Workforce and Income Security Issues, Health, Education and 
Human Services Division.
    If neither of the witnesses has any objection, I think it 
would be to our advantage to be able to handle this as one 
panel so that we can go from question to question and people 
have an opportunity, particularly you, Mr. Halter, to reply to 
any problems that Ms. Bovbjerg may point out to us.
    So, Ms. Bovbjerg, if you would please, if you have no 
objection to sitting here at the table together, I think it 
would be very helpful to us and to this hearing.
    I thank you. Mr. Halter.

   STATEMENT OF HON. WILLIAM A. HALTER, DEPUTY COMMISSIONER, 
                 SOCIAL SECURITY ADMINISTRATION

    Mr. Halter. Thank you, Mr. Chairman, Congressman Cardin, 
Congressman Levin.
    It is my pleasure to be here today to discuss the GAO's 
report and our continuing efforts to ensure that the notices 
the Social Security Administration sends to the public are 
clear and informative. Improving the notices targeted by the 
GAO requires diverting resources from other priorities. We have 
committed those resources. Furthermore, we will put in place 
mechanisms necessary to measure our performance for improving 
the notices.
    Mr. Chairman, as you know and as Congressman Cardin alluded 
to, Social Security processes large workloads each and every 
day. Fifty million beneficiaries receive the right payment on 
time each month. On average, each work day, about 100,000 
people visit one of our 1,300 field offices, and over 240,000 
people call our 800 telephone number.
    Our goal at the Social Security Administration is to 
provide the best in business service, which includes making 
written notices easy to read, accurately communicating all 
necessary information and clearly indicating any actions or 
information that we expect from the recipient of the notice.
    The most formidable challenge in improving our notices 
results from the complexity of our programs and the sheer 
volume of the notices we must produce. As Congressman Cardin 
noted, each year we send out about 390 million forms and 
notices to the public. This number has grown dramatically in 
thepast year, primarily because we are now sending Social 
Security statements to 133 million people annually. About 95 
percent of the notices are produced from automated systems. 
These systems use more than 10,000 different paragraphs of text 
to compose letters to respond to the multitude of combinations 
of circumstances that apply to different beneficiaries. The 
notices cited by GAO, the Social Security Benefit Adjustment 
Notices and SSI Notices, are especially complex. An average 
benefit adjustment notice will contain eight pages, 40 
paragraphs and 225 fill-in-the-blank spots. A complicated 
notice can contain up to 15 pages, 100 paragraphs and 800 fill-
ins. In SSI notices, each paragraph can have from 2 to 122 
fill-in choices. Each of these fill-ins also has multiple 
variations.
    All of Social Security's notices must meet certain legal 
requirements, especially if they involve a customer's rights 
and responsibilities. It is sometime very difficult to 
construct notice language that accomplishes this while making 
the notice simple. Producing millions of personalized notices 
where many different fact situations are present is one of our 
greatest challenges.
    I would like to review with you today our progress so far 
in improving our notices and our plans for further 
improvements, including those steps recommended by GAO. In 
1993, Mr. Chairman, 30 percent of our notices needed to be 
improved. Over the years we have improved our notices so that 
only 8 percent remain to be addressed.
    Improvements made in the last few years include making 56 
million more notices a year available in Spanish, improving the 
language in debt collection or billing notices that we sent to 
approximately 3 million a year, improving the language of 3\1/
2\ million health insurance notices, and revising all of our 
hearing-level notices.
    In its review GAO focused on four types of notices that go 
to 14.2 million people each year and convey important 
information about their eligibility for benefits or changes in 
their benefit amount. Importantly, in two months, that is to 
say, November 2000, we will have in place corrections for 
nearly 7million of these 14.2 million notices. In addition, 
because of the retirement earnings test elimination legislation 
that was passed this past year, the 14.2 million figure will 
decrease by another 1.4 million in the next year as certain 
notices will no longer need to be sent.
    The Social Security Administration has committed the 
resources and has a project plan that describes the steps 
necessary to fix the remaining 6 million notices from the GAO 
report. To complete the notice improvement project our plan 
will allow us to make steady progress on improving these, our 
mostchallenging notices.
    Now, as I noted, we have already made progress in 
addressing the problems identified for two of the four notice 
types identified in the GAO report. For example, the remaining 
problems with the Social Security Award Notice will be resolved 
within the next two months. The remaining problems with the 
Social Security Benefit Adjustment Notice will be corrected by 
July of 2002.
    We recognize that we still need to improve notices that 
explain the effects of the retirement test on benefits. 
However, thanks to the elimination of the retirement test at 
full retirement age earlier this year, about two-thirds fewer 
beneficiaries are subject to that retirement test. The number 
of complicated retirement notices, currently around 3\1/2\ 
million, will drop by approximately 40 percent.
    We face our most difficult task in improving SSI Awards and 
Benefit Adjustment Notices. Because the SSI program is complex, 
explanations of the effect of income, resources and living 
arrangement changes will always, by their nature, be difficult 
to present in an easy, understandable manner. There is 
virtually no limit on how many variations can apply to a single 
beneficiary, meaning that the SSI notices must be able to 
handle an almost unlimited array of possibilities with a large 
number of variables. In addition, improvements to these notices 
will require an investment of information technology resources 
to change the SSI computational and notices systems.
    Although, as noted in the GAO report, there are no quick 
fixes for making improvements in this area, we are committed to 
making the improvements needed as quickly as possible, and we 
have started work on these changes. For example, in February of 
this year we drafted and tested a prototype worksheet to be 
added to the SSI Award and Benefit Adjustment letters, showing 
how SSI benefits are computed. This worksheet shows how SSI 
benefits are computed in relatively uncomplicated cases. That 
is 90 percent of the cases in which SSI recipients have no 
income or only unearned income such as SocialSecurity benefits. 
This worksheet will be added to the SSI letters for this 
population as part of the major notice system changes that will 
be implemented by July of 2002.
    We agree with GAO's recommendation to develop performance 
measures for notice clarity and beneficiary understanding of 
the most complex notices. In this coming fiscal year we will 
conduct a customer satisfaction survey to secure reliable 
baseline data on customer satisfaction with the notices that we 
have targeted for improvement. Using the feedback obtained from 
this survey, we will pursue the development of performance 
measures that address GAO's concerns.
    Regardless of how much improvement is made in our most 
problematic notices, there are complex issues in which many of 
our customers will need to discuss the information received. 
Therefore, in addition to improving the majority of our 
notices, we have provided our public contact personnel with 
additional tools for responding to concerns or questions about 
notices. For example, as a result of the Online Notice 
Retrieval System, which was implemented nationally in November 
of 1998, public contact personnel in our field offices and 
teleservice centers now have direct online access to the 
specific notice information and language contained in the vast 
majority of notices received by the public. The next release of 
this system planned for later this year will provide online 
access to virtually all remaining notices and will further 
enhance our ability to communicate effectively with our 
customers.
    In addition to making internal improvements to our process, 
we are firmly committed to involving the public in the 
evaluation of products and services that affect them. This year 
alone we have conducted over 24 focus group tests to get the 
public's reaction to this worksheet that we plan to add to our 
SSInotices. In our annual customer satisfaction survey we ask 
respondents to rate the clarity of information we mail to them. 
Our most recent survey results indicate that 86 percent are 
satisfied or very satisfied with their mail from the Social 
Security Administration. Importantly, Mr. Chairman, this is 
animprovement over prior years, where the results were 65 
percent satisfaction rating in FY 1993.
    In conclusion, Mr. Chairman, we agree with the 
recommendations of the GAO report. We have already improved the 
language and format of about 92 percent of our notices. In 
fact, GAO acknowledged in its report that in spite of 
increasing workloads and efforts to address agency priorities 
such as maintaining program integrity, the Social Security 
Administration has made major notice enhancements. And we have 
recently committed resources to improving the remaining 
problematic notices.
    Mr. Chairman, I would be happy to answer any questions you 
may have.
    [The prepared statement follows:]

Statement of Hon. William A. Halter, Deputy Commissioner, Social 
Security Administration

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss the General 
Accounting Office (GAO) report and our continuing efforts to 
ensure that the notices the Social Security Administration 
(SSA) sends to the public are clear and informative. Effective 
communication between the Social Security Administration and 
theAmerican public is very important. We appreciate the 
opportunity to discuss the progress that we have made in 
improving our notices and our plans for future improvements. 
While improving the notices targeted in the GAO report within 
the timeframes we have set will require diverting resources 
from otherpriorities, we have committed those resources. 
Furthermore, we will put in place mechanisms necessary to 
measure our performance for improving the notices, as 
recommended by GAO.
    Our goal at the Social Security Administration is to 
provide the best in business service which includes making 
written notices easy to read, accurately communicating all 
necessary information, and clearly indicating any actions or 
information that we expect from the recipient of the notice. 
Not surprisingly, our customers tell us that a key aspect of 
the service we provide is the clarity of our notices. In 
numerous customer satisfaction surveys, notice recipients have 
stated that it is important for them to readily understand what 
we are writing to them about. Clear notices not only help the 
customer but also lead to a much more efficient delivery of 
services for the Social Security Administration.
    Mr. Chairman, let me give you some examples of the 
magnitude of the Social Security's service responsibilities. We 
are committed to providing the right benefit payment to the 
right person on time, and we do so over 600 million times a 
year. This represents 50 million monthly payments to Old-Age, 
Survivors and Disability Insurance (OASDI) and Supplemental 
Security Income (SSI) recipients. On average, each workday 
about 100,000 people visit one of our 1,300 field offices and 
over 240,000 people call our 800 telephone number. Each workday 
we process an average of 20,000 initial claims for retirement, 
survivors, disability or SSI benefits, and hold 2,400 hearings 
before Administrative Law Judges (ALJs). Each year, we make 
certain that over 250 million earnings items are correctly 
credited to workers' accounts to ensure that future benefit 
payments are accurate. We take these responsibilitiesvery 
seriously, because millions of Americans rely on us as they 
have for the past 65 years.
    The most formidable challenge in improving our notices 
results from the complexity of our programs and the sheer 
volume of notices we must produce. Each year, we send about 390 
million forms and notices to the public. This number has grown 
dramatically in the past year, primarily because we are 
nowsending Social Security Statements to 133 million people 
annually. Our notices are produced from 15 separate computer 
software systems and from countless manual processes. About 95 
percent of the notices are produced from automated systems. 
These systems use more than 10,000 different paragraphs of text 
to compose letters to respond to the multitude of combinations 
of circumstances that apply to different beneficiaries.
    All of Social Security's notices must meet certain legal 
requirements, especially if they involve a customer's rights 
and responsibilities. It is sometimes very difficult to 
construct notice language that accomplishes this, while the 
notice simple. Many of these notices require customized text 
where the result of a Social Security Administration action 
must be explained by computer insertion of relevant paragraphs. 
These insertions must also be organized in a logical manner. 
Producing millions of personalized notices where many different 
fact situations are present is one of our most challenging 
duties.
    I would like to review with you today the process we are 
using to improve our notices, including our actions taken so 
far, and our plans for further improvements including those 
recommended by GAO.
    We have improved the clarity of the vast majority of our 
notices, provided additional capabilities for staff responding 
to notice inquiries, and we have modernized and streamlined the 
way we produce notices. We have improved letters to retirement, 
survivors and disability beneficiaries, SSI overpaymentletters, 
notices announcing cost-of-living adjustments, notices to 
employers and employees and the Social Security Statement.
    Since 1985 the agency has been seeking to improve its most 
problematic notices and high visibility form letters. We 
focused our initial efforts on notices that affected the 
greatest number of customers and that were less complex notices 
to generate. This allowed us to improve 92 percent of the 
notices we issue each year. In 1993, the agency convened a 
steering committee composed of representatives of all parts of 
Social Security to guide these efforts. As a result of this 
initiative, the agency has made many major enhancements in the 
quality of our notices and improved the service to notice 
recipients. We have modernized and streamlined the notice 
production environment.

Improvements made in the last few years include:

    <bullet> Improving the language of 3.5 million health 
insurance notices,
    <bullet> Eliminating the use of confusing multi-use form 
letters that were sent to 9 million people each year,
    <bullet> Improving the language in debt-collection or 
billing notices that we send to approximately 3 million people 
a year,
    <bullet> Improving letters that we send to approximately 4 
million people each year to confirm appointments,
    <bullet> Revising all of our hearing level notices, which 
amount to .5 million that we send annually,
    <bullet> Making 56 million more notices a year available in 
Spanish, and
    <bullet> Consolidating duplicate notice language databases.
    In 1993, 30 percent of our notices needed to be improved; 
over the years, we have improved our notices so that only 8 
percent remain to be addressed. We have already begun to 
improve the remaining 8 percent, which were cited in the GAO 
report.

The most challenging notices to improve are:

    <bullet> The Social Security benefit adjustment notices, 
including overpayments and underpayments, and
    <bullet> SSI award notices and notices of action to be 
taken by the Social Security Administration regarding the 
recipient's SSI eligibility or benefit amount.
    In its review GAO focused on 4 types of notices that 
together total 14.2 million pieces of correspondence each year 
which convey important information about eligibility for 
benefits or changes in benefit amount. In two months, we will 
have in place corrections for nearly 7 million of these 
notices. In addition, because of the Retirement Earnings test 
legislation, the 14.2 million figure will decrease by another 
1.4 million in the next year, as certain notices will no longer 
be sent. The Social Security Administration has committed the 
resources and has a project plan necessary to fix the remaining 
6 million notices. To complete the notice improvement project, 
our plan will allow us to make steady progress on improving 
these most challenging notices over the next four years.
    With regard to the notices that were the focus of the GAO 
report, we are pleased to report that we have already made 
progress in addressing the problems identified in the report 
regarding the Social Security Award Notice and the Social 
Security Benefit Adjustment Notice. The remaining problems 
withthe Award Notice will be resolved within the next two 
months. With regard to remaining problems with the Social 
Security Benefit Adjustment Notice, we have a team working to 
complete all improvements in these notices by July 2002. The 
complexity with the current Social Security Benefit Adjustment 
Notices occurs because the notices are generated from 46 
separate software programs and are composed by selecting from 
146 different paragraphs. An average Benefit Adjustment Notice 
will contain 8 pages, 40 paragraphs, and 225 fill-ins. A 
complicated notice can contain up to 15 pages, 100 paragraphs, 
and 800fill-ins.
    Notices that explain the effects of the retirement test on 
benefits will be improved as part of the effort that will be 
completed in July 2002. However, thanks to the elimination of 
the retirement test at full retirement age earlier this year, 
about two-thirds fewer beneficiaries are subject to the 
retirement test. The number of complicated retirement test 
notices and subsequent notices dealing with the resulting 
overpayments and underpayments, currently approximately 3.5 
million, will drop by approximately 40 percent.
    We face our most difficult task and greatest challenge in 
improving SSI Awards and Benefit Adjustments Notices. Because 
the SSI program is complex, explanations of the effect of 
income, resources, and living arrangement changes will always, 
by their nature, be difficult to present in an easy, 
understandable manner. In addition, improvements to these 
notices will require an investment of information technology 
resources to change the SSI computational and notices systems.
    As an example of the complexity of the task we face, the 
SSI notices computer program selects from approximately 700 
paragraphs, which are tailored to the characteristics of an 
individual's case. Each paragraph can have from 2 to 122 fill-
in choices. Each of these fill-ins also has multiple 
variations. The Social Security Administration produces an 
average of 1.4 million SSI notices each month, not including 
the 7.5 million cost-of-living adjustment (COLA) notices 
generated each November. A SSI recipient can have different 
income, resources, and living arrangements from month to month, 
coupled with overpayments and/or underpayments. Notices reflect 
past or present changes and the consequences of those changes. 
There is virtually no limit on how many variations can apply to 
a single beneficiary, meaning that the SSI notices must be able 
to handle an almost unlimited array of possibilities with a 
large number of variables.
    Although, as noted in the GAO report, there are no quick 
fixes for making improvements in this area, we are committed to 
making the improvements needed as quickly as possible. The 
Social Security Administration has started work on these 
changes. In February 2000, we drafted and tested a prototype 
worksheet to be added to SSI award and benefit adjustment 
letters showing how SSI benefits are computed. The worksheet 
that we tested was intended to show how SSI benefits are 
computed in relatively uncomplicated cases--that is, the 90 
percent of cases in which SSI recipients have no income or only 
unearned income, such as Social Security benefits. This 
worksheet will be added to the SSI letters for this population 
as part of the major notice systems changes that will be 
implemented by July 2002.
    In July 2000 we tested the worksheet with SSI recipients 
who have a combination of earned and unearned income because we 
wanted to make sure that our worksheet would take care of more 
complicated eligibility situations. Through incremental 
improvements to these types of notices, by September 2004 we 
plan to incorporate the more complex earned and unearned 
situations, such as a child receiving benefits based on 
parents' income, into the worksheet.
    We have dedicated the resources necessary to fix almost all 
of the Social Security notices cited by GAO by July 2002 and 
almost all of the SSI notices by September 2004. This will 
include the addition of a worksheet detailing the computation 
for SSI notice recipients. Furthermore, we will put in place 
the mechanisms necessary to measure our performance for 
improving the notices as recommended by GAO.
    As we implement these improvements, we will not lose sight 
of the needs of the public for notices that are complete, 
clear, and accurate, and we will continue to consult with the 
public as to how well we are meeting their needs. Improvement 
to our notices continues to be a central element to our overall 
plan to provide high-level service to the public.
    Regardless of how much improvement is made in our most 
problematic notices, there are complex issues and/or unique 
situations in which many of our customers will need or want to 
discuss the information received. Therefore, in addition to 
improving the majority of our notices, we have provided our 
public contact personnel with additional capabilities to use 
when responding to concerns or questions about notices. As a 
result of the Online Notice Retrieval System (ONRS), 
implemented nationally in November 1998, public contact 
personnel in our field offices and teleservice centers now have 
direct online access to the specific notice information and 
language contained in the vast majority of notices received by 
the public. The next release of Online Notice Retrieval System, 
planned for later this year, will provide online access to 
virtually all remaining notices by our public contact personnel 
and will further enhance our ability to communicate effectively 
with our customers. The Social Security Administration's field 
offices and 800 number service provide additional assistance to 
people with questions about their notices.
    In addition to making internal improvements to our process, 
we are firmly committed to involving the public in the 
evaluation of products and services that affect them. In FY 
2001 we will conduct a customer satisfaction survey to secure 
reliable baseline data on customer satisfaction with notices 
targeted for improvement.
    As early as 1987, the Social Security Administration tested 
notice language by obtaining public feedback, and we continue 
to rely on similar methods of involving the public in notice 
improvement activities. In 1997, we conducted a series of focus 
groups to test reactions to new notice formats to see if these 
new formats might help with notice comprehension. This year 
alone, we have conducted over 24 focus group tests to get the 
public's reaction to a computational worksheet that we plan to 
add to SSI notices and another 6 focus group tests to get 
public reaction to a work-related notice. Public input improves 
the final product by focusing our improvements on public needs 
and expectations.
    Two prime examples of the Social Security Administration's 
use of public input to improve our notices are the Cost of 
Living Adjustment (COLA) notice and the Social Security 
Statement. The Social Security Administration used comments 
from in-depth interviews and focus group sessions with 
disability and retirement beneficiaries to improve the COLA 
notice by revising the language and improving its appearance 
through format and overall style changes. The readability of 
the notice also was improved by enlarging the type size and 
changing the order of the information. The Social Security 
Statement reflects our customers' requests to have the earnings 
and benefit information presented in an easy to read and 
understandable format. We simplified the explanations, reduced 
the number of pages from 6 to 4, enlarged the type size, 
increased the amount of white space on the form, and reordered 
the information to make it flow better.
    The GAO report recommended that the ``Commissioner of 
Social Security direct SSA officials to develop performance 
measures to hold the agency accountable for making the needed 
comprehensive changes to its Social Security benefit adjustment 
letters and SSI award and benefit adjustment letters. These 
measures should include indicators that clearly articulate the 
timetables and basis against which progress to complete 
improvements can be tracked and, as further progress is made, 
the effectiveness of the improvements.''
    Regarding this recommendation on performance measures, we 
looked to our annual customer satisfaction survey as the basis 
for a performance measure. In our annual customer satisfaction 
survey, we ask respondents to rate the clarity of information 
we mail to them. Our most recent survey results indicate that 
86 percent are satisfied or very satisfied with their mail from 
the Social Security Administration. This is an improvement over 
prior years when the results were 65 percent in FY 93.
    Many of these respondents received very simple notices, and 
we are not able to break out results for recipients of our more 
complex notices. Therefore, to develop performance measures for 
notice clarity and beneficiary understanding of the most 
complex notices, we need to secure benchmark information about 
how well our beneficiaries understand the current version of 
these notices. We will conduct a customer satisfaction survey 
for these complex notices in fiscal year 2001 to obtain this 
information. Using the feedback obtained from the benchmark 
survey, we will pursue the development of performance measures 
that address GAO's concerns. As revised notice language is 
developed, we will conduct follow up customer surveys targeted 
to measure the level of customer understanding of the revised 
notices and the degree to which the desired performance has 
been achieved.
    Mr. Chairman, the Social Security Administration has been 
known for some time as a Government-wide leader in management, 
planning, and service to the American public. Customer service 
has always been the hallmark of the Social Security 
Administration. The University of Michigan gave the Social 
Security Administration an 82 for customer satisfaction in the 
1999 American Customer Satisfaction Index Survey--That is 8 
points higher than the comparable private sector index. The 
1999 Government Performance Project conducted jointly by 
Syracuse University's Maxwell School of Citizenship and 
Government Executive Magazine ranked the Social Security 
Administration at the top of 15 Federal Government agencies in 
one of the most comprehensive studies of management performance 
ever conducted. We have also won a prestigious award from CIO 
Magazine--a ``2000 CIO-100 Honoree.'' CIO Magazine presents 
this award annually to the top 100 organizations that exemplify 
the ``best of the best'' in various business practices. This 
year, the 100 honorees are organizations that excel in customer 
service and customer relationship management.
    We understand how vital our customers are, and we are 
excited about this special recognition. But, in spite of these 
accolades, we, like all other public institutions, face 
significant demands, changes and challenges. We recognize the 
problems with some of our notices and appreciate the importance 
of correcting those problems. We will maintain our focus on our 
customers and clearly explain our decisions so that they can 
understand why and how we made them and what to do if they 
disagree.
    We agree with the recommendation in the GAO report. We have 
already improved the language and format of about ninety-two 
percent of all our notices that the public receives. In fact, 
GAO acknowledged in its report that, in spite of increasing 
workloads and efforts to address Agency priorities, such as 
maintaining program integrity, the Social Security 
Administration has made major notice enhancements. We have 
committed resources to improve the problematic notices.
    As we implement these improvements, we will not lose sight 
of the needs of the public for notices that are complete, 
clear, and accurate, and we will continue to consult with the 
public as to how well we are meeting their needs. Improvement 
to our notices continues to be a central element to our overall 
plan to provide high-level service to the public.
      

                                <F-dash>


    Chairman Shaw. Thank you very much.
    There is a general vote on the floor. We should be gone 
only about 15 minutes, so we will stand in recess until we 
return. Thank you. [Recess.]
    Chairman Shaw. Ms. Bovbjerg.

     STATEMENT OF BARBARA D. BOVBJERG, ASSOCIATE DIRECTOR, 
   EDUCATION, WORKFORCE, AND INCOME SECURITY ISSUES; HEALTH, 
EDUCATION, AND HUMAN SERVICES DIVISION, U.S. GENERAL ACCOUNTING 
      OFFICE, ACCOMPANIED BY KAY BROWN, ASSISTANT DIRECTOR

    Ms. Bovbjerg. Thank you, Mr. Chairman. Before I start, I 
want to introduce my colleague, Kay Brown, Assistant Director 
in our office, who is a customer service expert.
    Chairman Shaw. Okay, thank you.
    Ms. Bovbjerg. I am pleased to be here to discuss the 
letters that Social Security sends to the public. Each year SSA 
sends millions of letters to applicants for and recipients of 
Social Security and Supplemental Security Income benefits. 
These letters tell people if they are eligible to receive 
benefits or if their benefits are changing. Because they 
provide such important information, the letters must be written 
in a way that can be clearly understood.
    We have long been critical of SSA's letters and have 
reported on this topic twice in the past. We have now completed 
our most recent assessment of SSA's progress in improving 
letters, and my testimony today summarizes these findings. We 
are also issuing a report to you today that provides a more 
detailed description of our work. I would like to focus my 
remarks today on two areas: the problems that make some letters 
hard to understand, and the status of SSA's actions to fix 
them.
    First the letters' problems. We looked at four types of 
automated high-volume letters, two each for Social Security and 
for SSI. In each program we focused on benefit award letters 
and benefit adjustment letters because of their potential 
significance to the people receiving them. We used writing 
consultants to help us assess the clarity of communication and 
identify the types of deficiencies.
    What we found was problematic. The majority of letters in 
each of the four categories we reviewed did not clearly 
communicate on at least one of four dimensions. The letters 
either failed to explain SSA's decision itself, the basis for 
the decision, the financial effects of the decision on the 
individual's benefits, or the recourse available to the 
individual. Our report details the frequency and specifics of 
the letters' shortcomings and reproduces several actual letters 
as examples. While time doesn't permit me to discuss all of 
these in detail, I have brought one letter that by itself 
illustrates several of the problems we have seen.
    Chairman Shaw. Is the letter in the testimony?
    Ms. Bovbjerg. You have one in your package in color, Mr. 
Chairman, but there is also a more elaborate one in the 
testimony itself.
    You can see on the board, excerpts from an actual SSI Award 
Letter. Such letters are sent to applicants who have been 
awarded benefits for previous months but not for future months. 
We have color-coded it by the type of information provided. Let 
me run through these problems quickly.
    As you can see in the yellow areas, which describe SSA's 
decision, the letter first tells the recipient she is eligible 
for benefits, then subsequently states that she is ineligible, 
which might seem confusing to the average person.
    The first blue area down by letter ``C'' explains that she 
is ineligible for disability benefits because, first, she is 
disabled, and second, she lives in Massachusetts. Neither seems 
to support the ineligibility decision. It is only later in the 
letter, in the blue area by letter ``D'', that she can see that 
in fact it is her income that makes her ineligible.
    The pink area suggests that she is now going to receive 8 
months of benefits and a check for more than $3,000, but the 
letter later states that only one month of benefits will be 
provided. At this point the recipient may have no idea what 
amount of money to expect.
    And then finally, the green area at the bottom incorrectly 
states that if she thinks she might be eligible in the future, 
she must reapply before benefits can resume. This is misleading 
because, under SSI rules, monthly benefits can resume without 
reapplying if the individual becomes eligible again within a 
year.
    I am not sure what the recipient of this letter would 
think, even after reading it carefully. Letters like these 
upset and confuse people and waste everyone's time as the 
recipients seek and SSA staff have to provide additional 
explanation. SSA sends over 100,000 award letters like this 
oneevery year.
    Let me now turn to SSA's plans for fixing these letters. 
SSA has indeed specifically targeted these problematic letters 
for improvement, yet little has been done, despite the 
longstanding nature of the problems. Since we began examining 
letters in 1994, the agency has completed only one minor 
improvement to one of the four types of letters we reviewed, 
and has announced plans to add clarifying language to other 
letters sometime this fall.
    This small amount of progress stems from the relatively low 
priority SSA has placed on fixing these letters. Many of the 
needed fixes, particularly for SSI letters, are complex. They 
require changes to SSA's computer systems, and systems staff 
has simply not been made available to do this work. Even if SSA 
adheres to its current plans, comprehensive improvements will 
take years to achieve. If SSA is to make these improvements 
within a reasonable period of time, it needs to place a higher 
priority on its letters.
    In addition, we are recommending that the agency develop 
performance measures to hold itself accountable for achieving 
these improvements. These measures should help foster greater 
urgency to complete this project, and will help SSA and others 
both monitor its progress and assess the effectiveness of 
changes made.
    Failure to give more attention to this problem will allow 
poor communications to continue and will detract from the 
quality of SSA's customer service.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer any questions you have.
    [The prepared statement follows:]

Statement of Barbara D. Bovbjerg, Associate Director, Education, 
Workforce, and Income Security Issues; Health, Education, and Human 
Services Division, U.S. General Accounting Office

    Mr. Chairman and Members of the Subcommittee:
    We are pleased to be here today to discuss the letters the 
Social Security Administration (SSA) sends to the public. Each 
year SSA mails millions of letters to applicants and recipients 
of the Old Age and Survivors Insurance and Disability Insurance 
programs, commonly referred to as Social Security, and the 
Supplemental Security Income (SSI) program. These letters tell 
the public whether they are eligible to receive monthly cash 
benefits or whether their benefit amounts are changing. Because 
the letters contain important information affecting people's 
everyday lives, they need to be clearly written and easy to 
understand. Recognizing this, SSA has pledged to the public 
that its letters will clearly explain the agency's decisions so 
that the public can understand how and why SSA made the 
decisions and what to do if it disagrees.
    We have long been critical of SSA's letters. In 1994, we 
testified before this Subcommittee that many SSA letters, 
particularly those dealing with Social Security overpayments, 
were difficult to understand.\1\ We found letters that left out 
information necessary to understand SSA's decisions, presented 
information in an illogical order, or failed to clearly explain 
how SSA had adjusted benefits. More recently, you asked us to 
assess SSA's progress in improving its letters. We have just 
completed that assessment and are issuing our report on this 
subject to you today.\2\ My testimony, which summarizes the key 
findings of our report, focuses on (1) the problems that make 
SSA's letters difficult to understand and (2) the status of 
SSA's actions to fix them.
---------------------------------------------------------------------------
    \1\ Social Security Administration: Many Letters Difficult to 
Understand (GAO/T-HEHS-94-126, Mar. 22, 1994)
    \2\ Social Security Administration: Longstanding Problems in SSA's 
Letters to the Public Need to Be Fixed (GAO/HEHS-00-179, September 26, 
2000).
---------------------------------------------------------------------------
    We focused our review on four categories of automated, 
high-volume letters to the public: (1) letters awarding Social 
Security benefits, (2) letters adjusting Social Security 
benefits, (3) letters awarding SSI benefits, and (4) letters 
adjusting SSI benefits.\3\ SSA mails about 14.2 million of 
these letters each year.\4\ We focused on these letters because 
they reach a large number of people and convey important 
information on their eligibility for benefits or changes in the 
amount of their benefits issues that can significantly affect 
their lives. We used writing consultants to help us develop the 
criteria to assess whether the letters communicated clearly and 
to verify our assessment of the types of problems that occur in 
them. We also interviewed SSA officials responsible for 
improving the agency's letters and reviewed documents on past 
and current evaluations of the letters and its initiatives to 
improve them.
---------------------------------------------------------------------------
    \3\ SSA characterizes its letters as automated or manual. SSA 
considers a letter automated if its personnel input transaction data, 
such as a death or earnings report, and SSA's systems generate the 
letter without any other human intervention. If SSA personnel were 
involved in selecting paragraphs or providing individualized data, then 
SSA considers the letter to have been manually prepared.
    \4\ SSA estimates that it mails about 250 million letters and forms 
annually to the public, including claimants, workers, employers, and 
government agencies, on a wide variety of issues.
---------------------------------------------------------------------------
    In summary, our work showed that the majority of letters in 
each of the four categories we reviewed did not clearly 
communicate at least one of the following key points: (1) SSA's 
decision (that is, the action SSA was taking on a claim that 
prompted the agency to send the letter), (2) the basis for 
SSA's decision, (3) the financial effect of SSA's decision on 
payments to the individual, or (4) the recourse the individual 
could take in response to SSA's decision. The lack of clarity 
was caused by one or more problems, such as illogically 
sequenced information, incomplete or missing explanations, 
contradictory information, and confusing numerical information. 
An unclear explanation of the basis for SSA's decision that is, 
not clearly explaining the program rules or facts on which 
SSA's decision was based was the most widespread problem among 
the four categories of letters. We also found one particular 
group of SSI award letters in which none of the four key points 
was clear.
    SSA acknowledges that these letters contain the problems we 
identified and agreed the problems have existed for years; 
however, for many of the problems, the agency has not taken any 
corrective action and, overall, the agency has not placed a 
high priority on improving its letters. Many of the problems we 
identified are not amenable to quick fixes but, rather, will 
require a comprehensive revision of the language in the letters 
and rewriting the agency's software applications that generate 
them. Competing demands for computer systems resources have led 
SSA to repeatedly reschedule improvements to the Social 
Security benefit adjustment letters, and a pending nationwide 
court case has led SSA to delay improvements to the SSI award 
and benefit adjustment letters. SSA recently announced plans to 
improve its Social Security benefit adjustment letters and has 
begun a major initiative to improve its SSI award and benefit 
adjustment letters. But it will be years before the 
improvements are completed for most of these letters, even if 
there are no more delays and SSA adheres to its current plans.

                               Background

    The Social Security program and the SSI program provide 
monthly cash benefits to individuals who meet the programs' 
eligibility requirements. In fiscal year 1999, 44.5 million 
persons received a total of $382.8 billion in Social Security 
benefits, and 6.6 million persons received $28.1 billion in SSI 
benefits. The rules affecting eligibility and benefit amounts 
in these programs can be complex. Once individuals are 
determined to be eligible for Social Security or SSI benefits, 
changes in their circumstances, such as changes in the amount 
of their income, disability or marital status, can affect their 
continuing eligibility for benefits or the amount of their 
benefits.\5\ When SSA learns of these changes either through 
its own review processes or from individuals reporting changes 
in their circumstances to the agency SSA adjusts individuals' 
eligibility status or benefit amounts accordingly.
---------------------------------------------------------------------------
    \5\ Our review did not include letters sent to individuals whose 
benefits were terminated because they had been determined to be no 
longer disabled.
---------------------------------------------------------------------------
    The process for improving SSA's letters is complex as well. 
The responsibility for improving letters is shared among 
various SSA offices, including the office responsible for 
customer service, which helps identify problems, and the 
program offices, which are responsible for further analyzing 
the problems and drafting revised language. The Office of 
Systems, however, plays a key role because implementing changes 
often requires systems programmers to rewrite one of the 
multiple software applications that SSA uses to generate 
letters. Each software application has its own programmed logic 
to generate letters and its own language database. Depending on 
the particulars of a transaction, each application is 
programmed to select appropriate paragraphs from among the 
numerous paragraphs in its language database, many of which 
were written for use in multiple situations. Once the 
paragraphs are selected, the software is programmed to complete 
paragraphs by filling in case-specific information from SSA's 
master records and to sequence paragraphs to assemble letters. 
These master records contain account data for every 
beneficiary.

Problems in SSA's Letters Limit Their Understandability

    Many of SSA's letters in our review do not meet the 
agency's own communication standard, and do not meet generally 
accepted principles of good communication. Social Security 
award letters, Social Security benefit adjustment letters, SSI 
award letters, and SSI benefit adjustment letters do not 
clearly communicate one or more of the following key points: 
SSA's decision (that is, the action SSA is taking on a claim 
that necessitated the letter), the basis for its decision (that 
is, the program rules and facts on which SSA based its 
decision), the financial effect of its decision on payments to 
the individual, and the recourse the individual has in response 
to SSA's decision. The unclear communication was caused by many 
of the same problems we identified in SSA's letters in 1994, 
such as illogically sequenced information, incomplete or 
missing explanations, contradictory information, and confusing 
numerical information.
    Table 1 presents what we consider to be the most 
significant problems, because of either their frequency or 
their potential to adversely affect the individuals receiving 
the letters.

     Table 1--The Most Significant Problems in Four Categories of SSA Letters and Their Estimated Frequency
----------------------------------------------------------------------------------------------------------------
                              Social Security letter                                SSI letter
    Key point    -----------------------------------------------------------------------------------------------
                           Award            Benefit adjustment             Award            Benefit adjustment
----------------------------------------------------------------------------------------------------------------
     Decision                             80% of cover letters
                                           do not include all
                                          decisions that affect
                                                     payments
----------------------------------------------------------------------------------------------------------------
    Basis for                                100% illogically     100% do not explain      86% do not clearly
      decision                            sequence explanations   relationship between    explain relationship
                                           of SSA's decisions       program rules and     between program rules
                                                                      benefit amounts     and changes in benefit
                                                                                                      amounts
----------------------------------------------------------------------------------------------------------------
Financial effect                               86% lack clear                                  55% lack clear
                                              explanations of                             statement of timing or
                                                  adjustments                             amount of change in
                                                                                                  benefits or
                                                                                                otherproblems
----------------------------------------------------------------------------------------------------------------
     Recourse     95% do not state how    24% do not fully state
                            to appeal     options for repaying
                                          overpayments or how to
                                                       appeal
----------------------------------------------------------------------------------------------------------------
----------------------------------------------------------------------------------------------------------------

    Note: We used two different approaches to quantify the 
frequency of problems in these letters. For the letters 
awarding Social Security and SSI benefits, we identified 
specific problems and obtained information from SSA about the 
number or percentage of letters that included these problems. 
For the letters adjusting the amount of Social Security and SSI 
benefits, we reviewed a statistical sample of 1 day's 
production of letters.
    As the table indicates, we found a variety of problems in 
the four categories of letters.
    <bullet> SSA's decision was difficult to understand in 
Social Security benefit adjustment letters because important 
information was not explained in the cover letters but, rather, 
was buried in the attachments or not explained at all. For 
example, a cover letter informed a claimant that she had been 
overpaid about $600 but it requested that she repay about 
$2,200. The explanation for the different amounts SSA's 
decision to also recover a prior overpayment was buried in the 
attachment.
    <bullet> Another letter mentioned three different 
overpayment amounts without explaining the differences.
    <bullet> The basis for SSA's decisions were often difficult 
to understand because the program rules or facts on which the 
decisions were based were explained in complex language that 
was difficult to follow, were presented in illogical order 
scattered throughout letters, or were not fully explained. For 
example, no SSI award letter explained the relationship between 
program rules and the amount of the SSI benefit. An SSI award 
letter informed a claimant that she was awarded benefits for 
July 1999 through November 1999 but that she would receive a 
benefit for October and November lower than for the earlier 
months. The letter did not explain why her benefit was reduced.
    <bullet> The financial effect of SSA's decision on payments 
to claimants was difficult to understand in most Social 
Security and SSI benefit adjustment letters because of 
conflicting information about when adjustments would occur or 
whether benefits were increasing or decreasing and because of 
unexplained numerical information used to support SSA's 
computation of benefit adjustments. For example, a worksheet 
attached to a Social Security benefit adjustment letter 
included computations showing that, on the basis of the 
claimant's earnings, SSA should have withheld about $2,700 in 
benefits. But on the very next line, the worksheet states that 
SSA should have withheld about $2,000 in benefits. The letter 
did not explain the $2,000 figure or the difference in the two 
amounts.
    <bullet> The recourse available to claimants in response to 
SSA's decisions on their claims was difficult to understand in 
Social Security award and benefit adjustment letters because of 
incomplete information. For example, the cover letters for some 
of the benefit adjustment letters instructed individuals to 
immediately repay the full Social Security overpayment without 
informing them of other repayment options discussed in the 
letters' attachments. The Social Security award letters failed 
to inform claimants that if they choose to appeal SSA's 
decision, they have to do so in writing.
    Our report discusses these problems in detail, with 
examples of actual letters.
    Now to illustrate problems in SSA's letters, I would like 
to discuss one particular type of SSI award letter ones sent to 
applicants who have been awarded benefits for previous but not 
future months. I have chosen an example of this type of letter 
not because it is representative of all SSA award andbenefit 
adjustment letters which, given the huge number and types of 
letters SSA issues, no one example could be but because it 
illustrates in one letter problems in clearly communicating all 
four key points. Also, although SSA has long been aware of 
problems in its SSI award letters, the agency did not know 
about the particular problems in this type of letter until we 
brought them to its attention.
    Figure 1 shows key excerpts from a typical letter, sent on 
October 13, 1999, to a disabled adult who was awarded benefits 
for previous months but not future months.\6\ This example 
illustrates the numerous contradictions, illogically sequenced 
explanations, and incorrect statements common to these letters. 
In 1998 and 1999, more than 100,000 individuals, or about 13 to 
15 percent of all SSI awardees, received benefits only for 
previous months and thus would have gotten a similar letter.
---------------------------------------------------------------------------
    \6\ This situation occurs when individuals' circumstances change 
while they are waiting for SSA's eligibility decision on their 
application for benefits. Their circumstances make them eligible to 
receive benefits for 1 or more months after they applied for SSI, but a 
change in their circumstances makes them ineligible for SSI benefits in 
the current month. A common scenario involves disabled individuals who 
meet the SSI program's income limit only until they receive Social 
Security Disability Insurance benefits. Their SSI payments stop once 
these benefits cause them to exceed the SSI program's income limit.
---------------------------------------------------------------------------
Figure 1: Confusing Statements From an Actual SSA Letter

[GRAPHIC] [TIFF OMITTED] T7603.001

    Note: Bold typeface added by GAO.
    SSA's decision is unclear because the letter shown in 
figure 1 goes back and forth about whether the applicant is 
eligible or ineligible for SSI. For example, the first sentence 
in the letter (``A'') informs the applicant that she is 
eligible for SSI benefits, as does the first sentence on the 
second page of the letter (``E''). She is also told on a 
subsequent page that her benefits will continue if she is still 
disabled in the future (``H''). But elsewhere in the letter, 
she is told that she is not eligible for SSI (``F'' and ``G'') 
and that she will not be receiving any more payments (``C,'' 
``D,'' and ``E'').
    The basis for SSA's decision is unclear as well, because 
the letter illogically tells the applicant that she cannot 
receive any more payments because she is disabled and living in 
Massachusetts (``E''). Also, this illogical reason for 
nonpayment is listed before the actual reason for nonpayment 
namely, her income (``F'').
    The financial effect of SSA's decision is unclear, because 
the letter makes contradictory statements about the months for 
which benefits are payable. First, the letter informs the 
applicant that she will receive $3,367.36 in benefits for March 
through October 1999 (``B'' and ``D''), but later it 
incorrectly states that SSA can pay benefits only for 1 month 
March 1999 (``E'').\7\
---------------------------------------------------------------------------
    \7\ This incorrect statement occurs in these letters only when 
individuals receive more than 1 month's past due benefits--a common 
scenario, according to SSA.
---------------------------------------------------------------------------
    Finally, the recourse available to the claimant is unclear, 
because the letter incorrectly informs her that she must file a 
new application before she can receive any more benefits 
(``I''). The letter does not explain that under SSI program 
rules, monthly benefits can resume without the need to file a 
newapplication if she becomes eligible again within 12 months.

                Needed Improvements are Still Years Away

    SSA has been aware for several years of the more serious 
problems we found with three of the four categories of letters 
we reviewed those adjusting Social Security benefits, those 
adjusting SSI benefits, and those awarding SSI benefits. The 
agency considers sending clear letters an important element 
ofcustomer service, and it specifically targeted these letters 
for improvement, yet it has taken only limited actions to 
improve them. Its efforts have focused primarily on the changes 
that are the easiest to complete. The more serious problems we 
found require more comprehensive revision of language 
andrewriting of software applications. Planned changes have 
been repeatedly rescheduled because SSA did not have the 
computer systems resources available to implement them because 
of other priorities. SSA has recently announced plans to make 
the needed improvements to these three categories of letters. 
However, SSA has not established meaningful performance 
measures to monitor its progress in improving the letters.

SSA Has Made Little Progress in Improving These Letters

    Since at least the early 1990s, SSA has known about 
problems with the Social Security benefit adjustment letters, 
the SSI award letters, and the SSI benefit adjustment letters 
that we identified as being the most problematic. The agency 
agrees that these letters are among the least understandable 
and most sensitive of the agency's high-volume mailings. 
Annually, SSA sends out about 3.5 million Social Security 
benefit adjustment letters, 0.6 million SSI award letters, and 
3.3 million SSI benefit adjustment letters.\8\ In various 
strategic and performance plans, SSA has identified sending 
customers clear letters as an element of good service. 
Beginning with its fiscal year 2000 performance plan, SSA 
specifically targets improving these three letters as a 
strategy that would increase customers' overall satisfaction 
with the agency. Improving its letters is listed as one of the 
agency's key initiatives.
---------------------------------------------------------------------------
    \8\ Because of recently enacted legislation, Public Law 106-182, 
that eliminated earnings-related reductions in benefits for 
beneficiaries who have reached full retirement age, the volume of 
Social Security benefit adjustment letters sent to individuals will 
decrease in the future, but SSA has not determined exactly by how much.
---------------------------------------------------------------------------
    Despite acknowledging numerous problems with the three 
categories of letters, SSA has completed only one minor 
improvement to one letter the Social Security benefit 
adjustment letter. As noted in table 1, we found that 86 
percent of these letters lacked a clear explanation of 
adjustments to benefits. In July 1999, SSA added a worksheet to 
this letter to show how the agency computed the amount it 
underpaid or overpaid individuals on the basis of their 
earnings. However, SSA officials view the worksheet as an 
interim improvement because SSA did not rewrite the master 
record. The master record holds data on each individual and 
would have to be expanded to hold additional data so that it 
could provide the appropriate information to support the 
worksheet. We drew our sample of Social Security benefit 
adjustment letters after SSA began including worksheets with 
these letters. We found the worksheets helpful to some extent 
in explaining how individuals' earnings contributed to SSA's 
decision that it had underpaid or overpaid them. However, the 
worksheets sometimes did not adequately explain some of the 
adjustments SSA made when computing underpayments or 
overpayments, in part because doing so would require rewriting 
the master records.
    In addition to the completed change described above, SSA 
recently began to address two of the problems we identified 
during the course of our present work. First, the agency has 
taken steps to include language that had been omitted from 
Social Security award letters informing individuals of the form 
to use to appeal the agency's decisions. After we brought this 
problem to SSA's attention, SSA officials told us that the 
responsible program office has developed revised language that 
the Office of Systems plans to implement in November 2000. SSA 
has also initiated action to correct the error in SSI award 
letters sent to individuals eligible for benefits in previous 
months but not current benefits, shown at ``I'' in figure 1. 
SSA officials told us that when the agency releases its next 
set of SSI systems changes in October 2000,they plan to add 
language to the letters to correct this problem.
    Office of Systems officials told us that from a systems 
standpoint, these types of problems are the easiest to correct 
because they involve a straight substitution of language one 
paragraph replaces another paragraph that had been used for the 
same situation. This type of revision is relatively 
straightforward because the software logic for selecting the 
paragraph for insertion into a letter does not have to be 
revised. SSA could therefore act relatively quickly to correct 
these two problems.
It Will Take Years for SSA to Make Comprehensive Improvements 
to Letters

    SSA has made less progress in correcting problems that are 
more difficult to fix. As shown in table 2, the other problems 
we found would require significant work to revise the language 
of the letters and to rewrite the master records and software 
applications.


                    Table 2:--The Comprehensive Improvements Needed for Selected SSA Letters
----------------------------------------------------------------------------------------------------------------
                  Letter                                                Improvement
----------------------------------------------------------------------------------------------------------------
Social Security benefit adjustment          Revise language, rewrite program's master record, and rewrite
                                           softwareapplication so that Cover letter discloses all decisions
                                                                                  discussed in attachment
                                           <bullet> Work-related earnings rules are co-located and logically
                                                                                                sequenced
                                                                                                <bullet> Letter
                                                                                          individual, and
                                                                                                <bullet> Letter
----------------------------------------------------------------------------------------------------------------
                         SSI award          Revise language, rewrite program's master record, and rewrite
                                                                              softwareapplication so that
                                                                                                <bullet> Letter
                                                                                                <bullet> Letter
                                                                                           benefit amount
----------------------------------------------------------------------------------------------------------------
            SSI benefit adjustment          Revise language, rewrite program's master record, and rewrite
                                                                              softwareapplication so that
                                                                                                <bullet> Letter
                                           particularly how and when adjustments will be made for past months'
                                                                            overpayments or underpayments
----------------------------------------------------------------------------------------------------------------
----------------------------------------------------------------------------------------------------------------


    Office of Systems officials told us that the actions the 
agency would need to take to make the comprehensive changes 
that the three letters need are the most complicated from a 
systems perspective because they involve extensive work to 
revise or develop new paragraph language, to rewrite the 
software application including the selection and sequencing 
criteria for using the language and to rewrite the programs' 
master records to hold additional data that may be necessary to 
support proposed language changes.
    SSA's ability to make these comprehensive improvements to 
the three letters depends on the agency's allocating 
significant systems resources. When allocating systems 
resources, SSA appropriately gives highest priority to projects 
that help the agency maintain operations essential to its 
mission or that it needs to undertake in order to implement 
legislative changes to the Social Security and SSI programs. 
Resources not committed to these efforts are available for SSA 
to use for discretionary projects, and senior officials 
collectively determine which discretionary projects the 
agency's systems staff will work on, based on each project's 
ranking and expected contribution to SSA's strategic 
objectives. However, the relative priority SSA gives projects 
can change. For example, SSA may decide to shift priorities and 
discontinue, delay, or deemphasize a specific project to 
undertake others in cases in which SSA does not have systems 
staff available.

Social Security Benefit Adjustment Letters

    SSA has long had plans to make comprehensive improvements 
to one of the categories of letters the Social Security benefit 
adjustment letter. According to SSA documents, by 1996, SSA had 
developed and tested in focus groups comprehensive language 
changes for this letter. However, SSA's documents showed that 
since developing the language, the agency has repeatedly 
rescheduled the systems work required to implement the new 
language. Officials from SSA's Office of Systems told us that 
their computer systems staff did not work on projects at the 
scheduled times because the agency had had to divert computer 
programmers to other more pressing projects, such as those 
required to implement significant program changes resulting 
from legislation and to ensure that SSA's computer systems were 
year 2000 compliant.\9\ They told us that the agency, with the 
emergence of workloads arising from legislative changes, had to 
shift priorities away from working on improvements to letters.
---------------------------------------------------------------------------
    \9\ For example, the Personal Responsibility and Work Opportunity 
Reconciliation Act of 1996 (Public Law No. 104-193) made major changes 
to the SSI program. Among other things, it revised the criteria under 
which children and noncitizens are eligible for benefits and added 
restrictions governing the payment and use of certain large retroactive 
benefit amounts.
---------------------------------------------------------------------------
    In July 2000, an SSA official told us that the responsible 
program office had recently requested that SSA senior officials 
designate the project to improve Social Security benefit 
adjustment letters as Customer Targeted Work. This is a 
relatively new category for the use of discretionary resources 
andwould give the project a higher priority than it has had 
before.\10\ Although SSA is in the early planning stage of this 
effort, the Office of Systems has established a plan for 
completing the more comprehensive improvements by July 2002. 
However, because SSA's decision is recent, we did not evaluate 
the revised approach.
---------------------------------------------------------------------------
    \10\ Key initiatives requiring systems work and Customer Targeted 
Work must provide a significant return on investment or help meet 
agency strategic goals. However, to be given the higher priority of 
Customer Targeted Work, a sponsoring component is required to 
substantiate the need for extra attention and prioritization.

---------------------------------------------------------------------------
SSI Letters

    SSA has not made comprehensive improvements to either type 
of SSI letter and has only recently begun developing action 
plans for improving them. SSA officials told us that they 
postponed plans to improve SSI award and benefit adjustment 
letters pending the outcome of the recently decided court 
case,a class action law suit that an SSI recipient initiated. 
In that case, the court upheld the plaintiffs' claim that SSA's 
letters denied recipients due process because the letters did 
not adequately explain the basis for SSA's decisions. The court 
ordered SSA to revise its automated SSI financial eligibility 
letters including its SSI award and benefit adjustment letters 
to more clearly communicate essential information to their 
readers.\11\ SSA established a workgroup to review its SSI 
letters and to determine the changes that were needed to 
improve them. In December 1999, the SSA Commissioner signed a 
decision paper in which he approved the workgroup's 
recommendations to make comprehensive changes to SSI letters.
---------------------------------------------------------------------------
    \11\ Ford et al. v. Apfel, No. CV-94-2736 (E.D.N.Y., Jan. 13, 
2000).
---------------------------------------------------------------------------
    Improving SSI letters will take time. The workgroup 
recommended that SSA implement the recommendations in phases, 
concentrating first on better explaining how benefit amounts 
are determined. SSA has begun work on some of these changes. In 
February 2000, SSA drafted and tested with some SSI recipients 
a prototype worksheet to be added to SSI award and benefit 
adjustment letters that shows how SSI benefits are computed in 
the least complex cases that is, the 90 percent of cases in 
which SSI recipients have no income or only unearned income, 
such as Social Security benefits. SSA plans to add the 
worksheet to the SSI letters by July 2002. SSA officials 
estimated that it could take 10 years to implement the full 
range of planned improvements.

SSA Does Not Have a Means to Measure Progress in Improving 
Letters

    Despite acknowledging problems with its letters, SSA 
currently has no performance measures for monitoring its 
progress toward improving them. In the past, SSA surveyed 
customers about their overall satisfaction with the agency's 
letters and monitored the percentage of customers rating the 
clarity of SSA's notices as excellent, very good, or good. The 
agency, however, found that the information it collected, which 
was a measure of general satisfaction with the letters, was not 
useful in identifying ways to improve letters, so SSA 
discontinued these surveys. Instead, SSA now relies on a 
relatively newprogram to help it target a few specific types of 
letters each year and develop action plans for improving them. 
This program the Market Measurement Program uses a variety of 
initiatives, such as special studies and focus groups, to 
gather information on the full range of services SSA provides 
to help the agency improve customer service overall. According 
to SSA's fiscal year 2001 performance plan, the agency plans to 
establish a new indicator to monitor improvements to its 
letters at a later point.

                               Conclusion

    Although SSA has been aware for many years of some of the 
more serious problems with its letters, it has not corrected 
them. The agency's recently announced plans to improve the 
Social Security benefit adjustment letter and its SSI award and 
benefit adjustment letters will require significant 
computersystems resources and will take years to complete. If 
SSA is to improve its letters within a reasonable period of 
time, it needs to allocate the necessary systems resources for 
these improvements. To do this, the agency will need to better 
anticipate and plan for the varied demands on its computer 
systems'resources and place a higher priority on improving its 
letters.
    The agency will also need to develop appropriate 
performance measures with which to hold itself accountable to 
the public for achieving these improvements. These measures 
should help SSA monitor its progress in adhering to the 
proposed timetables to help the agency stay on track. In 
addition, because past changes to letters have not always 
significantly improved clarity, SSA should develop other 
measures to assess whether changes to the letters have achieved 
the intended results.
    Because failure to implement the needed improvements will 
mean continued poor service to the public in this area, we 
recommend that SSA develop performance measures to hold itself 
accountable for making the needed comprehensive changes to its 
letters. These measures should include indicators to allow SSA 
to track its progress in making improvements and to assess the 
improvements' effectiveness. In commenting on our report, SSA 
agreed with our recommendation and expressed its commitment to 
making the needed improvements in these letters as quickly as 
possible. SSA also outlined its plan for developing performance 
measures for assessing beneficiaries' understanding of its 
problematic letters.
    Mr. Chairman, this concludes my prepared statement. I would 
be pleased to respond to any questions you or other Members of 
the Subcommittee may have.

           *         *         *         *         *

    For further contacts regarding this testimony, please call Barbara 
D. Bovbjerg at (202) 512-7215. Others who made key contributions to 
this testimony include Kay Brown, Jacquelyn Stewart, Ellen Habenicht, 
Valerie Melvin, James Wright, Michael Alexander, Jay Smale, Ann 
McDermott, and Patrickdi Battista.

                          Related GAO Products

    Social Security Administration: Longstanding Problems in 
SSA's Letters to the Public Need to Be Fixed (GAO/HEHS-00-179, 
September 26, 2000). [Attached report is being retained in the 
Committee files.]
    Social Security Administration: Many Letters Difficult to 
Understand (GAO/HEHS-94-126, Mar. 22, 1994)
      

                                <F-dash>


    Chairman Shaw. Mr. Halter, you listened to the testimony 
from the General Accounting Office. What is the problem of 
correcting these letters? I mean, it just doesn't make any 
sense that all of these statements would be----
    And I assume, Ms. Bovbjerg, these were all in the same 
letter?
    Ms. Bovbjerg. All of this in one letter, yes.
    Chairman Shaw. Do you have an explanation for any of that? 
Is this is the first time you have seen it? It is not fair to 
ask you the question.
    Mr. Halter. Well, actually, it is the first time I have 
seen it in a readable fashion, here, arriving at the hearing 
today. But let me try to address your more general point, Mr. 
Chairman, which is, how did we get here?
    The fact is that for the last eight years we have been 
working on improving some extraordinarily complicated notices. 
Thirty percent of our notices needed improvement in FY 1993, 
and customer satisfaction with those notices was at about a 65 
percent rate. Over the least 7 years, the Social Security 
Administration has corrected problems with 22 percent out of 
that 30 percent, leaving 8 percent of our notices still to be 
addressed. The GAO, very appropriately, focused on letters 
which in our universe of notices are the most complicated and 
the ones that are most prone to being very complicated for the 
reader to understand. This particular letter, with respect to 
SSI, is probably the category that is the most difficult to 
understand.
    The complications arise from two different levels. The 
first is the SSI program itself is extraordinarily complicated, 
and as I noted in my testimony, the range of individual 
circumstances that could apply to any individual beneficiary is 
virtually infinite when you take all of the different variables 
and how many different possibilities for each variable there 
are. When you put together a notice in an automated fashion to 
deal with that, you have one that is, by its nature, going to 
be complex.
    Now, I will say that we have focused on this over time. We 
are focused on it now and have applied the resources that will 
be necessary to fix this. However, when you have a program with 
so many variables in it and you are trying to send something 
out dealing with a complicated program, it is going to be 
complicated to deal with.
    Chairman Shaw. I understand that. But let me ask maybe a 
simpler question. What is this letter trying to tell somebody?
    Mr. Halter. Well, in this case, it is trying to tell the 
individual recipient what SSI benefit they are entitled to and 
how much that benefit is, when the payment is going to start, 
and when, in this case, it is going to stop.
    Chairman Shaw. Why don't you just do that?
    Mr. Halter. Well, we do that, as you know, Mr. Chairman, 
millions of times a year, and when you put together an 
automated
    Chairman Shaw. It worries me that we are getting so 
automated that somebody just sits at a computer, picks out 
paragraphs and tries to put them together that does not really 
communicate.
    Mr. Halter. Well, in fact, the way this works is they don't 
pick out those paragraphs personally. They type in the data 
that is necessary, and then the system produces a response.
    Now, to correct that, Mr. Chairman, what we have to do is 
go in and put together revisions to that program, and that is, 
in fact, what we have under way now.
    Chairman Shaw. You know, each of us in Congress, we get 
asked the same question over and over again, and we all put 
together--I imagine every member of Congress does that--you put 
together paragraphs explaining your position, and those 
paragraphs are selected in order to answer questions thatcome 
into the office. Why don't you all just do it that way?
    Mr. Halter. Well, what I will do for you, Mr. Chairman, is 
give you for the record the list of variables that can change 
each of these letters, and you will see that we are talking 
about literally hundreds of data items. I understand the 
letters that you are talking about, Mr. Chairman, because 
Iworked on Capitol Hill and I helped put together those 
letters, and I understand what you are talking about. They are 
very straightforward and they provide your position on a 
particular issue, but your position on a particular issue 
probably does not have 10,000 different variants. You probably 
have apretty straightforward position on the issue that someone 
is writing you about.
    [The following was subsequently received:]

SSI Notice Variables

    This is a highly complex process because notices reflect 
past or present changes and reflect the results of those 
changes. There is virtually no limit on how these items can be 
mixed and matched, meaning that the SSI notices must be able to 
handle an almost unlimited array of possibilities with a large 
number of variables. For example, a case can have different 
income, resources, and living arrangements from month to month, 
coupled with resulting newly identified overpayments and/or 
underpayments. Variables that affect SSI notices are as 
follows:

I. Computational Variants--31

    <bullet> Quarterly Accounting applies prior to 4/1982
    <bullet> Retrospective Monthly Accounting applies effective 
4/1982
    <bullet> New computation rules for Spouse-to-Spouse deeming 
effective 4/1982
    <bullet> New computation rules for Parent-to-Child deeming 
effective 4/1982 with three formula
    <bullet> Different rules for needs-based assistance prior 
to 8/1988
    <bullet> Computation rules for Impairment-Related Work 
Expense prior to 12/90
    <bullet> Different rules for treating needs-based 
assistance depending on which person it is
    <bullet> To compute any month, may need eligibility, 
payment, windfall eligibility, windfall payment computation
    <bullet> Two eligibility, payment, windfall eligibility, 
windfall payment computations needed for individuals with 
ineligible spouses
    <bullet> Computation for COLA-Coordination of Title II, 
Value-of-the One-third Reduction, and In-Kind-Support
    <bullet> Special computations when one member of a couple 
is eligible and the other is not
    <bullet> Rules when one member of a couple is in one 
eligibility category and the other in a different category
    <bullet> Special rules when a claimant is in multiple 
eligibility categories (aged, blind, disabled)
    <bullet> Optional Supplementation default processes that 
apply when one member of a couple is dead or when an ineligible 
spouse has left a household
    <bullet> Exception computation of State supplementation for 
Essential Persons
    <bullet> Different computation rules for in-kind support 
based on SSI type of claim
    <bullet> Payment rounding rules
    <bullet> Special computation rules under Section 
1611(e)(1)(e)
    <bullet> Special computation rules under Section 
1611(e)(1)(g)
    <bullet> Optional supplementation considerations in 
1611(e)(1)(g) default periods
    <bullet> State supplementation rules when 1619(a) applies
    <bullet> Application of the Livermore Court decision
    <bullet> Special rules for Maine's disregards (and when a 
couple)
    <bullet> Rules that apply when a State has terminated 
Federal supplementation
    <bullet> Computation of Vermont's State Countable Income
    <bullet> Computation rules for Presumptive Disability
    <bullet> Rules for application of Blind Countable Income
    <bullet> Computation of payment amount based on windfall 
offset
    <bullet> Mandatory computations and specifically 
adjustments for payment computation
    <bullet> Computation rules under trial work periods
    <bullet> 2/3 rule for Child Support

II. Income Types, Disregards and Exclusions

                         Income Types (Partial)

    <bullet> State or Local Assistance Based on Need
    <bullet> Refugee Cash Assistance
    <bullet>  AFDC
    <bullet> General Assistance From Bureau Of Indian Affairs
    <bullet> Disaster Relief
    <bullet> Veterans Benefits Based on Need (Paid Directly or 
Indirectly as a Dependent)
    <bullet> Veterans Payments Not Based on Need (Paid Directly 
or Indirectly as a Dependent)
    <bullet> Social Security
    <bullet> Black Lung
    <bullet> Railroad Board Benefits
    <bullet> Office of Personnel Management
    <bullet> Pension
    <bullet> Unemployment Compensation
    <bullet>  Workers' Compensation
    <bullet> Interest
    <bullet> Dividends
    <bullet> Royalties/Honoraria (Unearned)
    <bullet> Rental/Lease Income Not From a Trade or Business
    <bullet> Alimony
    <bullet> Child Support
    <bullet> Other Bureau of Indian Affairs Income
    <bullet> Sick Pay (Earned)
    <bullet> Sick Pay (Unearned)
    <bullet> Wages
    <bullet> Self-employment Income
    <bullet> Other Income Based on Need
    <bullet> Other Income or Support Not Previously Mentioned

                           Income Disregards

    <bullet> $65 per month plus \1/2\ remainder earned income 
disregard
    <bullet> $20 per month general income disregard

                           Income Exclusions

    <bullet> Student Child Earned Income Exclusion
    <bullet> Blind Work Expense
    <bullet> Income excluded under approved plan for self 
support
    <bullet> Net loss from self-employment
    <bullet> Income Related Work Expenses

                             Resource Types

    <bullet> Vehicles
    <bullet> Life Insurance
    <bullet> Household Goods and Personal Effects (Cash)
    <bullet> Financial Institution Accounts
    <bullet> Stocks and Bonds
    <bullet> Promissory Notes/Loans/Property Agreements
    <bullet> Real Property/Business Property or Equipment

                          Resource Exclusions

    <bullet> Principal place of residence
    <bullet> Auto used for medical/other approved needs
    <bullet> Set aside for burial expenses
    <bullet> Excluded under a Plan for Achieving Self Support

                   Federal/State Living Arrangements

    <bullet> A Federal Living Arrangement (FLA) of A is used 
primarily when a person is considered to be living in his /her 
own household or when no other FLA code applies.
    <bullet> An FLA of B is used when an individual lives in 
the household of another and receives food and shelter from 
inside the household.
    <bullet> An FLA-C is used for a child under age 18 or under 
or a ``protected'' student/child under age who lives in the 
same household as an ineligible parent and who is not subject 
to the value of the one-third reduction.
    <bullet> An FLA-D applies to an individual who lives in a 
public or private medical institution throughout a month and 
Medicaid is paying more than 50 percent of the cost of the 
individual's care or, effective
    <bullet> 12/96, a child under 18 subject to the $30 payment 
limit while in a medical care facility in which
    <bullet> private insurance (or a combination of private 
insurance and Medicaid) pays over half the cost of care.
    <bullet> The following States have at least 1 State living 
arrangement: California , Delaware, District of Columbia , 
Hawaii, Iowa, Maine (prior to 4/96), Massachusetts, Michigan, 
Montana, Nevada, New
    <bullet> Jersey, New York, Pennsylvania, Rhode Island, 
Utah, Vermont, Washington, Wisconsin (prior to 1/96).
III. Payment Status Codes (Partial list)

    <bullet> Non-pay Codes: Many of these are initial claim 
denial codes--both medical and non-medical denials, such as an 
aged claim denied for failure to prove age or claimant is not a 
citizen or lawfully admitted to the US.
    <bullet> Suspense codes: These indicate a recipient was 
eligible to receive payment, but has since become ineligible, 
often temporarily, because of some reason (e.g. whereabouts 
unknown.) Once resolved, SSI payments can usually resume.
    <bullet> Termination codes: These codes indicate the record 
has been terminated (e.g. death).

                        Eligible but not payable

    E01 Eligible but nothing is payable
    E02 Eligible for benefits but not due a payment (applies to 
first month of eligibility only)

                          Benefits not payable

    N01 Claimant has excess income or Section 1619(b) 
eligible--no payment due.
    N02 Claimant is a resident of public institution.
    N03 Claimant is absent from the U.S.
    N04 Claimant's nonexcludable resources exceed title XVI 
limitations.
    N05 FO is unable to determine eligibility for some month(s) 
of a period of nonpayment OR failure to provide information for 
children overseas.
    N06 Claimant failed to file for other benefits.
    N07 Cessation of recipient's disability.
    N08 Cessation of recipient's blindness.
    N09 Claimant refuses to accept vocational rehabilitation.
    N10 Claimant failed to comply with treatment (DAA). 
(Obsolete)
    N11 Sanction Suspense month (DAA). (Obsolete)
    N12 Claimant voluntarily withdrew from SSI program.
    N13 Not a citizen of the U.S. or not an alien lawfully 
admitted to the U.S.
    N14 Aged claim denied for age.
    N15 Blind claim denied, applicant not blind.
    N16 Disabled claim denied, applicant not blind.
    N17 Failure to pursue.
    N18 Failure to cooperate.
    N19 Claimant has voluntarily terminated participation in 
SSI program.
    N20 Claimant failed to furnish a required report or 
required evidence.
    N22 Claimant is an inmate of a penal institution.
    N23 Claimant is not a resident of the U.S.
    N24 Claimant has been convicted of a felony of fraudulently 
misrepresenting residence in order to receive benefits/services 
(SSI, Medicaid, AFDC, foodstamps) simultaneously in two or more 
States.
    N25 Claimant is fleeing to avoid prosecution for, or 
custody or confinement after conviction for, a crime which is a 
felony (or in New Jersey, a high misdemeanor) under the laws of 
the place from which he/she flees, or is violating a condition 
of probation or parole imposed under Federal or State law.
    N27 Termination due to SGA--1619(a) or 1619(b) no longer 
involved.
    N30-N51 Medical Denials. (various)
    P01 Potentially Eligible--SGA involved. (Obsolete)

                    Benefits payable, but suspended

    S05 Prerequisite payment month development pending to 
determine eligibility for special 1619(a) payments to a 
disabled individual. S06 Claimant's whereabouts unknown.
    S07 Check(s) returned for miscellaneous reasons.
    S08 Representative payee development pending.
    S09 Temporary institutionalization (TI) systems default.
    S10 Claimant has refused to receive payments through direct 
deposit.
    S20 Potential Rollback case or disability decision made 
prior to July, 1973.
    S21 The recipient is presumptively disabled and has 
received 6 months' payments.

                     Benefit eligibility terminated

    T01 Death of claimant.
    T20 Received duplicate payment based on two different 
numbers.
    T22 Received duplicate payment based on more than one SSR 
established with the same number or different numbers.
    T30 Manual termination (payment previously made).
    T31 Systems termination (payment previously made).
    T50 Manual termination (no payment made).
    T51 Systems termination (no payment made).

IV. Payment Variants

    <bullet> Different rules prior to 4/1982
    <bullet> Goldberg v Kelly: temporary & permanent payment 
protection
    <bullet> Different rules for collection of overpayments
    <bullet> Payment of windfall offset due amounts in Current 
Computation Month
    <bullet> Collection of emergency advance payments/immediate 
payments
    <bullet> Underpayments to survivors
    <bullet> Dedicated accounts & installments underpayments
      

                                <F-dash>


    Chairman Shaw. I would like to think so.
    Mr. Halter. But this program, and the law, the law that we 
are talking about here with respect to SSI, is complicated in 
its very nature, and we would agree with you, Mr. Chairman, 
that we need to work on these notices. That is what we are 
doing.
    Chairman Shaw. Now, I want to--we are getting to the nut of 
what I really want to talk about, and I want you and Ms. 
Bovbjerg both to address the law. Is the law the problem? 
Anyone who has gone to get a loan for a home within the last 
few years, I don't care if you are an attorney, an accountant, 
or a realtor or who you are, by the time you sign all those 
papers, you have no idea what is going on, that you just get to 
be where you are signing because we require so many 
disclosures, and we over-disclose to thepoint that I think the 
borrower is just totally confused and just wants to just get 
out of the closing office, so that they can go on with their 
life. Is the law the problem here? Is the law so complex that 
we should really go back and take a look at it?
    Mr. Halter. Mr. Chairman, I would argue to you that the law 
is a part of the problem, absolutely.
    I would not wish to come before you and absolve our 
administration from all culpability in creating complicated 
notices. We are going to work on this.
    I would say to you that the fact is that we have limited 
resources as an organization, as you very well know, and we 
have focused our resources particularly in the systems area on 
matters that have been higher priority.
    Chairman Shaw. Don't you have people in-house that can redo 
the system as far as that is concerned, without spending a 
whole bunch of money? Now, if money is the problem, then we 
have to address that. But I don't see where putting together 
the right kind of program, computer program to respond, should 
be all that complicated that we can't do that.
    Mr. Halter. I would argue, Mr. Chairman, that it is more 
complicated than even I initially realized when I first sat 
down to prepare for this hearing, that in fact, doing the types 
of systems changes that we are talking about are going to 
require a great deal of time and effort.
    To your question, your very direct question about is it a 
resource issue or just putting people up against it, I would 
argue to you that it is both and that they are related, that 
the budgets that we have been provided, at least that I have 
looked at in the last six years, if additional resources had 
been available to Social Security, we would have been 
addressing this long before this point. The fact is----
    Chairman Shaw. Have you come to us and asked for additional 
funds in order to do this with specific requests?
    Mr. Halter. Mr. Chairman, we have asked for, in the 
President's budget----
    Chairman Shaw. I think I have been very forthcoming in this 
Committee in working with the Social Security Administration.
    Mr. Halter. Absolutely, yes, sir. I absolutely agree with 
that. But let me just point out that over the last six years, 
the President's budget request, relative to what has been 
appropriated, we are talking about a billion dollar difference 
in our administrative budget over that six-year period. And I 
would argue to you, just very straightforwardly, that if those 
monies had been put in place, that this problem would have been 
addressed much earlier. We have limited systems resources. The 
Congress, just this past year,passed the retirement earnings 
test elimination, and we, as you know, took resources, diverted 
them to implementing that legislation, as we should. Every time 
we come up with a new priority to implement, we have to divert 
resources away from the work that we had scheduled.
    Chairman Shaw. The return of the money on the earnings 
penalty, this Committee reacted to that in getting more money 
because we understood that was necessary, and we knew that was 
very important.
    Ms. Bovbjerg, could you comment on some of the things that 
Mr. Halter has just talked about as to what is your thought 
with regard to what has to be done? I can tell you everybody in 
here under 40 knows more about computers than I do. So, speak 
in terms that I can understand, please.
    Ms. Bovbjerg. That should be easy for me because I am not a 
systems expert either.
    I want to start off by saying that we do recognize and 
acknowledge the progress that the Social Security 
Administration has made with other notices. Indeed, they say 92 
percent of 300,000 letters have been fixed; a lot of that is 
the Social Security statement, and we like to think that our 
recommendations had some bearing on the improvements in that 
statement that took place in the past year.
    What we are saying about these notices is that just because 
it is a small percentage left to fix, and they are hard to fix, 
doesn't mean they shouldn't be fixed and shouldn't be taken 
more seriously. There are 14 million of these going out a year, 
and these notices really affect people very directly. 
Thesenotices can be reducing peoples' benefits, and if they 
can't understand the letter, it is difficult for them to 
understand what is going to happen to their income. It is a 
whole different level of stress for people than receiving the 
Social Security statement, for example. So we think these 
letters are very important to focus on.
    We are concerned because SSA has recognized problems with 
these particular letters, and has been talking about doing 
something with them for years now, and there has been no 
timetable for doing this.
    The letters keep being pushed back further down the 
priority list. Our concern is that there are complicated fixes 
that have to be made. We don't disagree at all that this is a 
complex program, and it is difficult to explain some of the 
decisions that are made in the SSI program, but we believe it 
is really important to start making these fixes.
    I also want to say that it is my understanding that it is 
not entirely a systems problem; program staff need to figure 
out what the problem is, write the language--the actual 
language in the paragraph that would address it--figure out how 
the paragraphs might need to be reordered, and then test it, 
you know,road test it, to see if these actually do address the 
problem of improving peoples' understanding. And then after all 
this is done it goes to systems. So it is really an issue that 
goes beyond just the systems staff.
    Chairman Shaw. And would that require more administrative 
funding?
    Ms. Bovbjerg. I am not in a position to say that. It is not 
clear that there aren't efficiencies or shifting that could be 
done within SSA to achieve this.
    Chairman Shaw. Making those assessments though, coming up 
with those opinions, would be within the framework of what you 
all do though, wouldn't it?
    Ms. Bovbjerg. It would be, but we would have to know what 
exactly needed to be done and what the timetable was for doing 
that. I know that in talking about SSI letters as part of the 
court case, SSA said that it would take ten years to fix these 
letters, and I understand from Mr. Halter's statement today, 
that they are now saying it will take four years. We don't know 
exactly how long it would take and what resources it would take 
to do that.
    Chairman Shaw. Why would it take four years?
    Mr. Halter. Mr. Chairman, for SSI, what we are doing is 
trying to address most of the letters as quickly as we can with 
this worksheet that I described in my testimony, which we plan 
to have out by July of 2002. The issue as to why it would take 
that long is one that I would be happy to share with you by 
providing a schedule of the project which lays it out month by 
month. But as you go through this process of crafting the 
language, developing the software, testing the software, 
validating it, installing it, it takestime. We also have very 
few people with the capabilities and the background and the 
expertise to do this.
    This is not going to be done by your standard journeyman 
claims representative. This takes somebody with real systems 
expertise within the program.
    [The following was subsequently received:]

The time frame to complete the fixes to SSA's notices.

    The accompanying schedules describe the steps necessary to 
achieve our goals for the Social Security Adjustment notices 
and Phase I for the SSI award/adjustment notices. Phase I 
focuses on approximately 90 percent of the SSI notices by 
supplying a detailed worksheet that describes the computations 
that were used to compute the final benefit amount. Phase II 
for SSI notice improvements is scheduled for completion in 
August, 2003 and Phase III is scheduled for completion in 
September, 2004. We expect to have our notice changes fully 
implemented by September 2004.

            Project Plan for Improving SSI Notices--Phase 1

Finalize Language--02/00-11/30/00

    Policy, Office of Systems Requirements (OSR), and Office of 
Systems Design and Development (OSDD) are all participating in 
the finalization of the language. We have used focus groups for 
input in designing the computation worksheet.

Translate Notices into Spanish--Complete by 12/30/00


Develop Requirements--12/01/00--05/01/01

    OSR will provide a ``template'' of the new computations 
worksheet as soon as possible to allow OSDD to begin discussing 
design options. Thus, requirements development and program 
development times will overlap.

Design New Process--Complete by 07/01

    OSDD will begin design based upon the requirements.

Development--Complete by 11/01/01

    The development for this project requires extensive 
specialized experience because the SSI program is extremely 
complex. SSI processes the whole master record going back in 
time a number of years. This includes multiple actions, thereby 
causing complex explanations in the notices. Since this is a 
new computations and notices process, much of the required data 
needs to be defined, records formatted and other programs in 
the SSI integrated system need to make modifications to define 
and/or process the new record. Extensive knowledge of the 
existing SSI data elements and program logic flow is mandatory. 
The new format, language and selection logic will need to be 
developed and entered into the program and language data 
facility.

Testing--Complete by 12/28/01

    This testing is done in OSDD to ensure test scenarios 
process as expected. In addition, the testing ensures the 
programs run to job completion and builds the job control 
language (JCL) that allows the programs to be validated and 
moved to the production environment.

Validation--Complete by 05/31/02

    The validation will be an iterative process. Since SSI can 
process multiple actions that may be very complex, different 
paragraph combinations will occur based on the types of 
actions. Also, there are any number of different types of 
transactions processed in SSI. Each of these must be validated 
to ensure consistency and accuracy.

Mainframe Integration Testing--06/03/02--07/12/02

    The software must be fully tested in the production arena 
to ensure there are no adverse affects on the scheduling of 
production runs.

Release Notice Language Procedures--Complete by 07/02


Implementation--Complete by 07/02

    Project Plan for Improving Automated Benefit Adjustment Notices

Finalize Language--07/17/00--10/17/00

    Policy, Office of Systems Requirements (OSR), and Office of 
Systems Design and Development (OSDD) are all participating in 
the finalization of the language. We are using ``Policy Net'' 
to help speed up the process by getting ``outside'' input from 
other areas of SSA.

Develop Requirements--09/15/00--03/01/01

    We've overlapped our requirements with the previous life 
cycle to allow us to get to development quicker. OSR will 
provide a ``template'' of the new benefit adjustment (AJS3) 
notices as soon as possible to allow OSDD to begin the design.

Translate Notices into Spanish--Complete by 11/00


Design New Process--11/15/00--12/26/00

    Again, we've overlapped the design phase with the 
requirements phase to allow us to get to development quicker. 
OSDD will begin the design based on the ``template'' from OSR. 
This will allow us to set up a ``shell'' of our notice program.

Development--12/28/00--10/05/01

    The development for this project requires extensive 
specialized experience because the AJS3 program is extremely 
complex. Unlike the other object programs under Title 2, AJS3 
processes the entire master record going back in time up to 5 
years. This includes multiple actions, thereby causing complex 
explanations in the notices. Since virtually all of the 
existing notice language is being changed, we need to remove 
the old and then install the new generation criteria, paragraph 
identifiers, and fill-ins. Extensive knowledge of the existing 
AJS3 data elements and program logic flow is mandatory. While 
in the development phase, we expect to encounter additional 
needs for updated language or better sequencing of paragraphs, 
so this will be an iterative process.

Testing--10/08/01--12/28/01

    This testing is done in OSDD to ensure test scenarios 
process as expected. In addition, the testing ensures the 
programs run to job completion, build job control language 
(JCL) that allows the programs to be validated and eventually 
moved to the production environment, and provide for a review 
of the output.

Validation--12/31/01--05/31/02

    The validation will be an iterative process. Since AJS3 can 
process multiple actions that may be very complex, different 
paragraph combinations will occur based on the types of 
actions. Also, there are 16 different types of transactions 
processed in AJS3. Each of these must be validated to ensure 
consistency.

Mainframe Integration Testing--06/03/02--07/12/02

    The software must be fully tested in the production arena 
to ensure there are no adverse affects on the scheduling of 
production runs.

Implementation--07/15/02--07/15/02

     Project Plan for Improving SSI Notices--Phase II and Phase III

     Benefit Computation Worksheet--Unearned Income Not Previously 
                               Considered

Focus Group Testing--04/03

    Upon review of the focus group results from 03/02, language 
will be revised and tested again at this time.

Phase 2 Scheduled Completion--08/03

    This phase will provide computational worksheets for 
recipients with earned income or a combination of earned and 
unearned income. Notice language describing living arrangement 
classifications will also be in this release. Additional 
modifications for language and/or restructuring will be 
included as defined and agreed to by the workgroup.

Phase 3 Scheduled Completion--09/04

    This phase provides computational worksheets for recipients 
with more complicated income situations (e.g. parent to child 
deeming). Additional modifications for language and/or 
restructuring will be included as defined and agreed to by the 
workgroup.
      

                                <F-dash>


    And the reason that this has been deferred in the past is 
because other priority projects like the ones I mentioned came 
in, and we had to move the very people that would be doing this 
work off of that work and onto some of the other priorities.
    Chairman Shaw. Did they get the benefit from this letter? 
How did it end up?
    Mr. Halter. Oh, absolutely. I mean I have no indication 
from anyone at GAO that anybody is not getting the benefit they 
are actually entitled to.
    Chairman Shaw. Then why did you ask them if they think they 
qualify, to contact us if they have been qualified?
    Mr. Halter. I am sorry, Mr. Chairman. Say that again?
    Chairman Shaw. I am reading the line at ``F'', and I am 
comparing it with the line at ``B'' that says ``We're sending 
you a check'' on line ``B'' for $3,367. Then you go down to 
line ``F'' and it says, ``If at any time in the future you 
think you are qualified for the payment, please contact us.'' 
Then at line ``E'' it says, ``Since you are not eligible for 
SSI.'' What are we sending them?
    Mr. Halter. This is what we are saying to folks, as I 
understand it, and again, I have just seen this letter today, 
but my understanding is that these folks were eligible over a 
certain period of time. They qualified for a benefit. We were 
sending them a check for that amount. They are now currently 
not eligible for a benefit, and paragraph ``E'' is telling them 
that if in the future they think that they become eligible 
again, that they should contact us and file a new application.
    You can ask GAO though, since they have had the benefit of 
actually picking this letter out, as to whether that is in fact 
what happened.
    Chairman Shaw. I will.
    Ms. Bovbjerg. I have no idea whether this person was paid. 
That wasnot something we reviewed. We assume that she was. 
There are 100,000 of these kinds of letters. And we asked our 
consultants--this is not just GAO's opinion as to whether the 
letters can be understood we asked our writing consultants what 
they thought about these. They said that one of the single most 
important things in clear writing is to have the most important 
information right up front all in one place and not to have it 
scattered throughout a lengthy letter, because people don't 
always read the whole thing. And I think that that is a 
particularly important issue for this letter. It is hard--it 
will be hard for a recipient to know that what is being said 
is: ``You were eligible in the past, here is your check, but 
you are not eligible right now, and that if you are eligible in 
the future, there is recourse.''
    Chairman Shaw. Then are you required, Mr. Halter, by law, 
to put that paragraph ``F'' in there telling them that they can 
reapply?
    Mr. Halter. We certainly--whether we were required to do so 
by law or not, Mr. Chairman, we would want to do it. I will 
check and see whether or not in fact we are required to do it, 
but we would want to whether it is a requirement or not.
    [The following was subsequently received:]

    There is no requirement in the law for the paragraph Mr. 
Shaw refers to which states, ``If at any time in the future you 
think you qualify for payment, please contact us immediately 
about filing a new application. The earliest month for which we 
can pay you is the month after you file a new application.'' 
SSA includes this paragraph as a part of SSI notices for 
customer service purposes.
    A corrected version of the paragraph will be implemented 
effective October 2, 2000.
      

                                <F-dash>


    Chairman Shaw. Well, wouldn't you assume that the person 
applied now. I guess they know they are better, they don't need 
the assistance any more. But if they get in trouble again, 
wouldn't they know to come back? Is that something we have to 
tell them? What I am trying to do, I mean, brevity is really so 
important in dealing--particularly in SSI. You are dealing with 
low-income people, of probably a low level of education, easily 
confused.
    Mr. Halter. Right.
    Chairman Shaw. Your people also deal with the elderly, and 
you know, I think every member of Congress has had people 
coming into their office almost in tears, and say, ``What is 
happening?''
    Mr. Halter. Right. Mr. Chairman, to answer your question on 
that, as to whether or not that is required by law, we will 
check on that, but in terms of whether we should do it, I would 
argue that we should err on the side of actually telling folks 
that if their circumstances change, they should in fact come 
back and reapply. That would be the predisposition I think I 
would have, rather than leaving it vague or unknown to them.
    Ms. Bovbjerg. Mr. Chairman, could I jump in for a minute?
    Chairman Shaw. Yes, please.
    Ms. Bovbjerg. It is my understanding that that particular 
language is being changed this fall because it is actually 
incorrect. It tells people they have to reapply, and what it 
should say is that you don't have to reapply within the first 
year, but after 12 months you would have to submit a whole new 
application, so that I believe----
    Chairman Shaw. So what we should be telling them is that 
they have a special circumstance, there is a special 
circumstance here, that they would have to jump back in.
    Mr. Portman?
    Mr. Portman. Thank you, Mr. Chairman, and I am sorry I 
couldn't have been here for all the testimony. I did, Mr. 
Halter, get the benefit of hearing your testimony earlier at 
the beginning of the hearing, and got a chance to look over the 
testimony as well from GAO.
    I have two questions. The first is what SSA knows about in 
terms of the impact of this problem on your bottom line. With 
the IRS, we spent a lot of time looking at the impact of both 
the poorly written and many of the misleading notices, as well 
as incorrect notices, and we found a tremendous downstream 
cost. I know there is a case pending in the courts which has 
indicated that for every 1 percent problem in terms of a letter 
misstating something, there is roughly a $100,000 cost. They 
came up with that.
    My question to you is: what are the downstream costs? What 
are the costs of these poorly written and sometimes in accurate 
notices to SSA? We talked earlier about your need for more 
funding, and you in essence said, ``If Congress would give us 
more money, we would solve these.'' I think we have heard some 
other testimony in that regard about priorities and planning 
and timetables, and maybe shifting some focus. But my question 
to you is what are the cost savings? Have we looked into that? 
Do you have any information?
    Mr. Halter. It is a good question, Congressman. In fact, we 
know that if our notices are not as clear as they could be, 
that that does generate telephone calls to us----
    Mr. Portman. I would guess your 800 number is probably tied 
up sometimes when it doesn't need to be, but also people 
probably--in my district, they walk into the SSA office with 
these notices in their hands sometimes.
    Mr. Halter. That is absolutely correct. Now, we do know, 
Congressman, about the frequency of calls to our 800 number, 
because we do surveys on that, and of course we know broad 
topics as to percentages as to who is calling and why. A fairly 
low number of phone calls to our 800 number is about notices.
    In addition to focusing on streamlining the notices 
themselves, we have also focused some energy and resources on 
making sure that our personnel have a system available so that 
they can pull up the notice in question when somebody calls in, 
so that they can in fact pull up a copy of that notice and then 
help the person understand it. This is, of course, not the best 
outcome. It is not the one that we are shooting for. What we 
are shooting for is to solve these problems right there on the 
front end.
    Mr. Portman. Prevention is always the best policy.
    Mr. Halter. Absolutely.
    Mr. Portman. My only point is, in terms of making this 
higher priority, because we do have testimony indicating that--
at least from GAO--that this has not been as high a priority as 
it should have been, despite having been aware of this problem 
for several years, that it would be helpful to have some data 
to know what the impact is, not just on our constituents, 
because we do hear about it and we get the case work, but also 
on the system. And if you are talking about money, here is a 
way to save money. It sometimes requires a little more 
planning. You said you put some time into preparing for this 
hearing and now you realize the problem is more complex than 
you thought they were.
    I guess that is a good reason, Mr. Chairman, to have had 
the hearing, and I am glad we had it.
    I would ask you whether the four-year period is realistic 
now that you have spent more time on this, or is it ten years, 
or is it six years, as we have heard from GAO? And what can we 
expect in terms of a timetable and what specifically are you 
asking for from Congress? You indicated earlier, again, that, 
gee, if we just had more money, this wouldn't be a problem, 
which again, seems to be counter to the GAO testimony.
    Mr. Halter. Actually, Congressman, I didn't say that 
precisely. What I did say was that if resources had been 
forthcoming in the past, this issue would have been dealt with. 
But let me go back to----
    Mr. Portman. That sounds like my paraphrasing is pretty 
much what you just repeated.
    Mr. Halter. What I said was if we had the resources 
forthcoming in the past----
    Mr. Portman. No. I'm saying what you said is, ``Gee, if we 
had just had more money, this wouldn't be a problem.''
    Mr. Halter. We would have corrected this earlier.
    Mr. Portman. And I would challenge that, based on what I 
have heard. It is about setting priorities. You know, you have 
got a huge budget, and you have a lot of decisions to make----
    Mr. Halter. Absolutely.
    Mr. Portman. And you have got to focus on certain things 
and less so than others, and that is why I asked the earlier 
question about how to get a higher focus. But is the four-year 
time period one that you are comfortable with now that you have 
spent more time on this?
    Mr. Halter. Actually, let me walk through this because I 
would like to give you even more detail than that in terms of 
the timetable.
    Of the 14.2 million notices that GAO has come in and talked 
about, problems with 7 million of them will be resolved within 
two months.
    Mr. Portman. Almost half.
    Mr. Halter. Yes. Problems with 1.4 million of them should 
go away as a result of the passage already of the elimination 
of the retirement earnings test. In other words, we shouldn't 
have a problem with those notices. So now we are down to more 
than half that we are dealing with.
    In terms of the SSI notice with respect to the benefit 
award and also the benefit adjustment, the major issue, and the 
one that accounts for the bulk of the confusion, should be 
resolved by July of 2002 with the implementation of a worksheet 
that lays out for an individual how their SSI benefit is 
calculated or how an adjustment is made. For about 90 percent 
of those notices we should have a good workable solution by 
July 2002.
    For the remaining 10 percent of the SSI notices--and now we 
are getting into very low numbers of notices here--it is going 
to take until 2004. And the reason is that those are even more 
complex than some of the others that we can solve more quickly.
    So our expectation is that by September of 2004 the vast 
majority, in fact, I would argue that in effect, all of the 
problems that GAO has outlined here will be resolved. And, as I 
said, within two months, more than half will be resolved. By 
July of 2002 the vast majority of these will be handled.
    Mr. Portman. Thank you, Mr. Halter. My time is up, but I am 
glad you have some focus on it. I appreciate it.
    Mr. Halter. Thank you very much.
    Chairman Shaw. Mr. Hulshof.
    Mr. Hulshof. Thank you, Mr. Chairman.
    Mr. Halter, you think that whoever generated this letter 
actually read it before it went out?
    Mr. Halter. I could check, Congressman, but the likelihood 
is probably not.
    Mr. Hulshof. And I am not trying to get anybody--the 
individual who generated this letter into hot water, but I was 
interested in the dialog, colloquy you had with the Chairman, 
and if you compared your constituent service with what we do 
with constituent service, you know, it is certainly tempting to 
plug in the figures, do the spell check and send it out and get 
to the next letter, and yet, that is not really being 
responsive.
    I am also--let me follow up on something my friend from 
Ohio pointed out about funding. You know, this Subcommittee, I 
think Social Security Administration would agree, this 
Subcommittee has been extremely sensitive to trying to work 
with SSA, specifically going to bat for you--I am thinking of 
Ticket to Work, where we withheld or authorized the withholding 
of certain attorneys' fees so that SSA could have the money to 
make sure that these changes that were implemented--so I think 
the chairman has shown a great willingness to work with SSA. 
And so I am concerned with the comments that we have not been 
responsive. It is my understanding that SSA puts out a 
strategic plan each year which outlines your agency's goals and 
priorities for the coming years. So my question is: how many 
times has the strategic plan included initiatives aimed at 
improving notices?
    Mr. Halter. Very frequently, Congressman. I don't think you 
were here for the opening testimony. But the fact is we do 390 
million notices a year. Improving all of those notices, or 
making sure that in the beginning they are well written and 
then improving them over time has certainly been a priority and 
a key initiative for the organization.
    In 1993 the identification of problems indicated that 30 
percent of our notices needed simplification or needed work. 
Over the last 7 years, that number has been whittled down to 8 
percent, and as I mentioned in talking about what remains to be 
done, if you give us credit for what happens two months from 
now, knocking out 7 million out of these 14 million, that 
percentage will be reduced even further.
    We understand and have understood for a long time that 
providing clear and compelling notices are something that we 
should be doing, and we have devoted resources to it. So I 
appreciate the question, and I would point out to you that in 
our strategic plan, we have identified notices that we worked 
on.
    Mr. Hulshof. In light of that then, when has SSA approached 
Congress with a credible plan or specifically designated cost 
estimate so that we could plug that number in to help you fix 
the problem?
    Mr. Halter. When we present a budget to the Congress, we 
don't present line items for these particular initiatives. And 
the fact is, that over the last six years, the budget that 
Social Security has received has been 1 billion dollars in 
aggregate less than what the President requested for Social 
Security's administrative budget. When you balance all of those 
priorities----
    Chairman Shaw. I think the lady behind you has two fingers 
up, so I think it's two billion.
    Mr. Halter. No, it is actually one billion dollars over 6 
years. Over eight years it might be even higher.
    Mr. Hulshof. Let me, Ms. Bovbjerg, very quickly, this is a 
very compelling--and I know we are taking just this one single 
letter, but I think it does probably speak to the issue as you 
have walked us through it, so thank you for that example. Do 
you have any data at GAO to indicate if there has been really 
any adverse impact on beneficiaries as a result of confusing 
letters like this or not?
    Ms. Bovbjerg. There really isn't much information 
available. It is anecdotal. We know people write to their 
congressmen. We know that the 800 number does get calls on 
this. But it is my understanding that the categories that the 
800 number calls are put into are too broad to really narrow it 
down to these notices. So we don't have much data.
    Mr. Hulshof. Okay. Thank you. Thank you, Mr. Chairman.
    Chairman Shaw. Mr. Cardin?
    Mr. Cardin. Thank you, Mr. Chairman, and let me again thank 
our two witnesses.
    One thing is clear, and that is, whether it is one billion 
or two billion, that SSA has received less administrative 
support than the administration believed was necessary, and I 
would suggest that probably less than what Congress thought was 
necessary. But during those years we were fighting 
discretionary budget caps that required all agencies to receive 
less than was needed in order to meet our goals of a balanced 
Federal budget. Many of us thought it did not make too much 
sense to include the Social Security Trust Fund on budget for 
the purposes of calculating the deficit. And many of us think 
it doesn't make a lot of sense for your administrative budget 
to compete with the other appropriations within Labor-HHS-
Education, and you shouldn't be subject to discretionary budget 
caps. Now, it still means you will be subject to appropriation. 
There will still be oversight to make sure that it is an 
appropriate expenditure of public funds for every dollar you 
spend. But I was listening to you try to justify switching of 
priorities.
    And I would suggest, Mr. Chairman, that in many respects, 
that because you turn a spotlight on one problem, you might 
shift some resources, and that is just going to mean next year 
we are going to have to have a hearing on a different subject 
because of the resources being diverted from maybe 
determinations or redeterminations or other areas that we are 
going to start hearing from our constituents, and indeed we do.
    So I really do want to put a plug in for the bill that you 
have been working on, Mr. Chairman, and that is to remove the 
administrative budget of SSA from the discretionary budget 
caps. I don't think it makes any sense to do that--to subject 
it to it. I think that legislation should be enacted, and I 
hope that we can work together to get that done, and I think it 
would help. It is not the answer, but certainly again provides 
the necessary resources and tools, and then we can hold the 
agency accountable on a more straightforward way.
    The second point I would like to underscore is the point 
that you made a little bit earlier. And that is that a lot of 
the responsibility rests with Congress. If we pass laws that 
are difficult to interpret or difficult to understand--for good 
reason--we have done that in the tax code and we have done it 
in Social Security code--we need to take a look at that, and we 
need your recommendations as to where we can simplify policy to 
make it easier. I don't think we did the earnings test to 
simplify your job. We did it because we thought it was right. 
But it did simplify your job.
    Mr. Halter. Absolutely.
    Mr. Cardin. And we should look for ways in which we can 
help you, and improve the policy as we go along, and I would 
encourage you to be very bold in recommending those changes to 
us.
    The one question I want to ask that has not been raised 
yet, and that is the language barrier, as to how you deal, or 
what information you found in your study, that part of the 
problem is the difficulty of our constituents to understand the 
communication because of the language in which it is 
communicated. I know you have made a real effort for Spanish, 
but there are many other languages that my constituents feel 
comfortable with, and I am just interested as to whether this 
is a significant problem, and what you are doing to deal with 
it.
    Mr. Halter. I appreciate the question, Congressman Cardin. 
In fact, we are very proud of what we have done in the way of 
making sure that American citizens calling in, but not speaking 
the English language, have the possibility of talking with a 
Social Security employee in the language that they prefer.
    In fact, this past year, just as one example, over a third 
of our new hires are bilingual, which is an incredible 
percentage when you compare it to the rest of the workforces 
that are out there.
    We have also, as you noted, done a number of notices in 
Spanish. We have also offered translation services in over 16 
different languages, and I would be happy to provide that list 
of languages for the record that our staff have capability of 
interacting with a constituent on.
    Mr. Cardin. That would be helpful.
    Mr. Halter. We will be happy to do that. But it is 
definitely a diverse workforce, but it is something that we 
will have to continue to devote efforts to.
    [The following was subsequently received:]

    Notices are routinely issued in English and Spanish. Also, 
local offices create come-in notices in additional languages 
that are heavily used in a particular neighborhood, such as 
Chinese for San Franciscoand New York's Chinatown offices.
    Public Information materials have been created in languages 
beyond English and Spanish. Materials have been developed in 
Korean, Chinese, Polish, Russian, Haitian Creole, Arabic, 
Armenian, Cambodian, Lao, Portuguese, Punjab, Spanish, 
Vietnamese, Farsi, Greek, Italian, Hmong, and Tagalog. These 
publications are available from field offices, through FAX on 
Demand, and through the Internet. Local offices may translate 
materials into languages heavily represented in their service 
areas.
    SSA will provide interpreters and conduct interviews in the 
customer's preferred language for all languages. Our policy is 
to use bilingual employees whenever possible within an office 
for interpretations and translations, and within a region for 
translations. Beyond these boundaries, our policy is to provide 
interpreter and translation services through outside 
contractors.
    SSA has over 6,000 bilingual public contact employees. The 
top 10 languages spoken by bilingual public contact employees 
are:
    <bullet> Spanish
    <bullet> French (including French Creole or Haitian)
    <bullet> Tagalog or other Philippine Dialects
    <bullet> Chinese (various dailects)
    <bullet>  Vietnamese
    <bullet> German
    <bullet> Italian
    <bullet> Russian or Ukraine
    <bullet> Hmong, Cambodian or Lao
    <bullet> Portuguese
    If bilingual employees are not available SSA has the 
ability to obtain translation and/or interpreterservices in 97 
languages.
      

                                <F-dash>


    Mr. Cardin. I am wondering whether part of the problem is 
the constituents or the beneficiaries' difficulty in 
understanding the language. I mean, is that part of the problem 
we have here?
    Ms. Bovbjerg. That was not the problem that we looked at in 
this particular evaluation. We looked at English. And asked 
writing consultants, who are accustomed to looking at all the 
basics of effective communication to evaluate these notices.
    I think that it was in the back of our minds that the 
people who are getting these notices may not be very well 
educated. SSI is a welfare program. Beneficiaries may not have 
a very good command of English. We did not review whether a 
translation worked, but instead were concerned that even in 
English not all of notices are very effectively communicated.
    Mr. Cardin. And, of course, the primary responsibility is 
to make sure that it is understandable in English, but then I 
would just urge that--we have to make sure that people who are 
entitled to these notices can comprehend and understand what is 
involved here. So you have to take it to the next level.
    Ms. Bovbjerg. Yes, I agree.
    Mr. Cardin. Thank you, Mr. Chairman.
    Chairman Shaw. Mr. Collins?
    Mr. Collins. Thank you, Mr. Chairman. Bill, good to see you 
again.
    Mr. Halter. Nice to see you, Congressman.
    Mr. Collins. This is a computer generated letter; is that 
right? And somebody has to put this language in that computer 
for it to generate the letter.
    Mr. Halter. Yes, sir. What happens, Congressman, is we 
fashion paragraphs that are then mixed and matched by the 
computer, depending upon the individual circumstances of that 
particular beneficiary. And there is a software program that 
determines the order in which those paragraphs are put in.
    Mr. Collins. Maybe we should send on to the computer. You 
know, how many pages is this letter? Three?
    Ms. Bovbjerg. Eight.
    Mr. Collins. How many?
    Ms. Bovbjerg. Eight.
    Mr. Collins. Eight pages.
    Mr. Halter. Congressman, we don't actually have the letter, 
and this is the first time I have seen this, so I can't tell 
you about the actual letter.
    Mr. Collins. Well, you talk about a lot of other letters 
that need to be revamped. Have you seen those?
    Mr. Halter. I have definitely seen samples, yes, sir, but 
as you know, we send out 390 million forms, notices, letters a 
year, so I only reviewed a sample.
    Mr. Collins. They're not 390 million different messages 
though. How many letters does that actually come down to be a 
minimum of?
    Mr. Halter. Well, with respect to SSI, I think what has 
been indicated here is we are talking in the range of about 
4\1/2\ to 5 million.
    Mr. Collins. Well, you have got a letter for this, a letter 
for this, a letter for that. Are there 20 letters? Are they 
different letters? Are there five different letters, ten 
different letters?
    Mr. Halter. Actually, a much larger number than that, 
Congressman, when you put it all together.
    The key thing is that for this particular category of 
letters that GAO is presenting to us here today, let us assume 
that it is around 5 million that are different letters in this 
category, that there are literally thousandsof different 
permutations and combinations of that one letter, depending 
upon the individual circumstances of the beneficiary. There are 
literally hundreds of different variables that can affect the 
way the letter is put together in the automated system, and 
that is the complexity that we are trying to deal with.
    And as the Chairman mentioned, and as Congressman Cardin 
mentioned, a lot of that is driven by the complexity of the 
program, and we have no choice administering the program and 
putting together the benefits for that individual person. It 
depends upon the circumstances and the variations are 
variations that are written into the law.
    Mr. Collins. Well, whoever put this software together 
should have known, had better sense or more common sense than 
to put an eight-page letter in that thing to be kicked out. You 
know, if I received this letter, and it tells me right up front 
that I am--this notifies me I am eligible for Social Security 
income--it says payments--I think it ought to be subsidy, 
because that is what it is, it is a subsidy. And then I look 
down here and I see some numbers of how much a month. Then I 
see another paragraph that follows it that says I am going to 
receive a check for $3,367. I would quit reading there and go 
to the mailbox. And I would stand by that mailbox, and when 
that $3,367 ran out, I might pick the letter up and read 
further in it, or I would pick up the phone and call the office 
and find out why I am not getting any more money.
    You know, this just doesn't make good common sense, Bill. I 
mean, I don't know who put this together, but you need to go 
pull those folks into your office this afternoon when you get 
back over there, and say, ``Look, this is dumb.'' And, Bill, I 
am going to tell you one other thing, one other thing.
    Mr. Halter. Okay. Let me just respond to that real quick, 
because I want you to know, Congressman, I have already pulled 
them into my office, and we have had a conversation about it 
and----
    Mr. Collins. It shouldn't take three, four years to rewrite 
something like this. You know, scrap this software thing and 
start writing some common sense letters.
    And I am going to tell you something else, I don't think 
you need any more money. I think you could better use the money 
you already have. This is a waste of folks' money, writing 
letters like this. This is just not good common sense.
    Mr. Halter. Well, let me respond to that, because you know 
we have a great working relationship, and I just want to talk a 
little bit about what would happen if we decided not to use an 
automated system, but in fact went back and, as you say, put 
some good common sense to it, and then generated individual 
letters. You would be talking about an incredible use of 
people's time to put together 5 million individually put 
together letters.
    Mr. Collins. I didn't say that.
    Mr. Halter. Well, but that is the implication.
    Mr. Collins. I didn't say that, Bill. I mean, we all get 
thousands of letters a year too, and we have letters that 
answer specific issues. And if we had to wait four or five 
years to write a letter to answer, you know, tell our computer, 
``Spit this letter out, wait four years'', because it is going 
to take us that long to come up with an answer, we wouldn't be 
here after two years to come up with an answer.
    Mr. Halter. Well, I appreciate that.
    Mr. Collins. It is just that you need to review these 
letters. Somebody needs to review them, and I think it ought to 
go right on up to the top and come up with some good common 
sense approach to tell somebody why they are eligible, why they 
are not eligible, because they are not going to read this. They 
are not going to read eight pages. I wouldn't read it. I can 
tell, I would see the first two or three paragraphs, and I 
would go stand by the mailbox and wait for my money, and I 
would enjoy it when I got it. But this is just not good 
business.
    Mr. Halter. You know I take to heart your personal 
recommendations, and I want you to know that your first 
recommendation has already happened, that the meeting that you 
wished to happen, happened long ago, and in fact, the proposals 
that are being put forward here to you today, do reflect 
anincrease in the speed with which we as an organization are 
dealing with this, and so that meeting that you described has 
already happened.
    Now if you are recommending to me that we go back and have 
another meeting, I am happy to do that too. But the fact is--
and I would also, Congressman, be happy to spend some time with 
you directly and talk through some of the complications of 
this, because this is not an easy thing, and I think you and I 
could come to a pretty good joint understanding of what is 
going on with this particular set of issues.
    This is not something--I just have to say--this is not 
something that we look at as a non-problem. We recognize that 
this is a problem, and we are working on it.
    Mr. Collins. Well, Bill, you recognized that in 1990. You 
didn't, but somebody did.
    Mr. Halter. Well, I appreciate you pointing that out.
    Mr. Collins. That is ten years.
    Mr. Halter. I understand, and as you know, I have been 
there ten months, but the fact is----
    Mr. Collins. I think you have addressed everything that I 
have known you to address in a very fashionable and appropriate 
manner, but this one you need to address too. And I think if 
you do, you concentrate on this, you will come up with a 
solution that makes a whole lot more sense than this stuff.
    Mr. Halter. Well, that is our goal, Congressman, and I hope 
by the end of it, that you will look back and say that that is 
exactly what we accomplished.
    Mr. Collins. Well, draft your letter and send me a copy of 
it, and I will tell you how it sounds. [Laughter.]
    Mr. Halter. I tell you what, I will send you ten.
    Mr. Collins. Ten different ones.
    Mr. Halter. Ten different ones.
    Mr. Collins. You can send 20 if you want to.
    Mr. Halter. Okay.
    Mr. Collins. Don't make them eight pages long though.
    Mr. Halter. Well, now, this is something I have got to 
respond to
    Mr. Collins. Because I will send them back to you unread.
    Mr. Halter. Now, with respect to this program we are under 
court order to have particular information in these letters and 
that lengthens these letters. I mean, we are under a court 
order that tells us particular language that has to be in 
there. And part of what we are working on, in terms of 
thetimetable--and we have expedited it from what GAO initially 
believed--is in fact a response to a court case, and a court 
agreement, and so we are complicated in our response by that as 
well.
    Mr. Cardin. Mr. Chairman, could I ask unanimous consent 
that the entire letter be put in our record?
    Chairman Shaw. Without objection, I think that is a good 
idea.
    [The information was subsequently received:]

                     Social Security Administration

Supplemental Security Income Notice of Award
Date: October 13, 1999
Claim Number

*Application Filed--February 22, 1999
*Type of Payment--*Individual--Disabled

    This is to notify you that you are eligible to receive Supplemental 
Security Income payments under the provisions of Title XVI of the 
Social Security Act. The rest of this letter will tell you more about 
our decision.

How Much We'll Pay


------------------------------------------------------------------------
                                                      *Monthly Amount
       *Beginning*               *Through*               Payable*
------------------------------------------------------------------------
February 22, 1999         February 28, 1999       $.00.
------------------------------------------------------------------------
March 01, 1999            October 31, 1999        $420.92.
                                                  This includes $87.58
                                                   from the State of
                                                   Massachusetts.
------------------------------------------------------------------------
November 01, 1999         Continuing              $.00.
------------------------------------------------------------------------
------------------------------------------------------------------------


Information About Your Payments

    We are sending you a check for $3,367.36. This is money due 
you for March 1999 through October 1999. No further payments 
will be sent to you.
    You should receive the check no later than October 16, 
1999.

Your SSI Is Based On These Facts

    <bullet> You met all the rules to be eligible for SSI 
beginning February 22, 1999. However, we cannot pay SSI until 
the month after you first meet the rules. In addition, we 
cannot pay you any SSI for months after that because of the 
reason or reasons given below.
    <bullet> You were disabled in February 1999 on.
    <bullet> You were living in the State of Massachusetts for 
February 1999 on.
    <bullet> The amount of money we pay you from the State of 
Massachusetts depends on the State's rules.
    <bullet> You are living in someone else's home for March 
1999 on.
    <bullet> You have monthly income which must be considered 
in figuring your payment as follows:

        <bullet> Your Social Security benefits--before deductions for 
        Medicare if any--of $812 for November l999.
        <bullet> The food and shelter you got in someone else's home or 
        apartment. We value that food and shelter at $166.66 for 
        February 1999 through November 1999.

    <bullet> We must count the full amount of any benefit 
listed above as income even though all or part of a benefit 
shown is being withheld to recover an overpayment.
    <bullet> Because of your income, you are not eligible to 
receive Supplemental Security Income payments for November 1999 
on.

Information About Your Back Payments

    We are sending you a Supplemental Security Income check for 
$3,367.36 in October 1999. We will not count the part of this 
money which was due for back payments as your resource for 6 
months. If the money is not spent before May 0l, 2000, we will 
count any money left over as part of your resources. Butthings 
bought--with this money may count as resources the month after 
they are bought. Your Social Security office can tell you which 
things count as resources. You cannot get SSI if the resources 
we count have a value of more than $2000.00.

Information About Medicaid

    Since you are not eligible now for SSI you are also not 
eligible now for Medicaid based on SSI. However, if you need 
help with medical bills, you may still be eligible for medical 
assistance. Also, you may be eligible for Medicaid for the 
months we paid you SSI.
    Contact the nearest Massachusetts Division of Medical 
Assistance office for information about your State's medical 
assistance programs and your eligibility for Medicaid. When you 
visit that agency; please take this letter with you. It will 
help the people there answer your questions.

Things To Remember

    <bullet> Your 551 payments may change if your circumstances 
change. Therefore, you are required to report any change in 
your situation that may affect your SSI. For example, you 
should tell us if:

        <bullet> you move
        <bullet> anyone else moves from or into your household
        <bullet> your marital status changes
        <bullet> income or resources for you or members of your 
        household change
        <bullet> your medical condition improves
        <bullet> you go to work

    This will help us pay you correctly.
    Please read the booklet ``When You Get SSI-What You Need To 
Know'' carefully for additional information about this 
requirement.
    <bullet> Because we believe that your health may improve, 
we will review your case in about 3 years. We will send you a 
letter before we start the review. Based on that review, your 
SSI will continue if you are still disabled, but will end if 
you are no longer disabled.
    <bullet> This decision refers only to your claim for 
Supplemental Security Income payments.
    <bullet> If at any time in the future you think you qualify 
for payment, please contact us immediately about filing a new 
application. The earliest month for which we can pay you is the 
month after you file a new application.
    <bullet> The application you filed for SSI was also a claim 
for Social Security benefits. We looked into this, and decided 
you can't get any Social Security benefits except the benefit 
you are already getting. If you disagree with the decision, you 
have the right to appeal. A case review, described later in 
this letter, is the only kind of appeal you can have regarding 
Social Security benefits.
    <bullet> Would you like to work? If so you should know 
about special Supplemental Security Income (SSI) rules. These 
rules can help you keep Medicaid and may help you keep getting 
some SSI even though you are working. The enclosed fact sheet 
tells you more about special SSI rules for people who work.

If You Disagree With The Decision

    If you disagree with the decision, you have the right to 
appeal. We will review your entire case, even the parts you 
agree with. We also will consider any new facts you have and 
then will make a new decision. The new decision could be more 
favorable to you than the one you already have. But, keep 
inmind that the new decision also could be the same as or less 
favorable than the decision you already have.

    <bullet> You have 60 days to ask for an appeal.
    <bullet> The 60 days start the day after you receive this letter. 
We assume you got this letter 5 days. after the date on it unless you 
show us that you did not get it within the 5-day period.
    <bullet> You must have a good reason for waiting more than 60 days 
to ask for an appeal.
    <bullet> To appeal, you must fill out a form called ``Request for 
Reconsideration.'' The form number is SSA-561. To get this form, 
contact one of our offices. We can help you fill out the form.

How To Appeal

    There are two ways to appeal. You can pick the one you want. If you 
meet with us in person, it nay help us decide your case.
    <bullet> Case Review. You have a right to review the facts in your 
file. You can give us more facts to add to your file. Then we'll decide 
your case again. You won't meet with the person who decides your case. 
This is the only kind of appeal you can have to appeal a medical 
decision.
    <bullet> Informal Conference. You'll meet with the person who 
decides your case. You can tell that person why you think you're right. 
You can give us more facts to help prove you're right. You can bring 
other people to help explain your case.

If You Want Help With Your Appeal

    You can have a friend, lawyer or someone else help yon. There are 
groups that can help you find a lawyer or give you free legal services 
if you qualify. There are also lawyers who do not charge unless you win 
your appeal. Your local Social Security office has a list of groups 
that can help you with your appeal.
    If you get someone to help you, you should let us know. If you hire 
someone, we must approve the fee before he or she can collect it.

If You Have Any Questions

    If you have any questions you may call us toll-free at 1-800-772-
1213, or call your local Social Security office at 1-617-282-4159. We 
can answer most questions over the phone. You can also write or visit 
any Social Security office. The office that serves your area is located 
at: Social Security, 2nd Floor, 540 Gallivan Blvd., Dorchester, MA 
02124.
    If you do call or visit an office, please have this letter with 
you. It will help us answer your questions. Also, if you plan to visit 
an office, you may call ahead to make an appointment. This will help us 
serve youmore quickly when you arrive at the office.
    We are sending you a pamphlet which contains important information 
you should know. The pamphlet is called ``When You Get SSI-What You 
Need to Know.'' We are also enclosing additional information about 
rules that can help you if you are working or if you decide to work.

                                           Kenneth S. Apfel
                                    Commissioner of Social Security

Enclosures: SSI Rules That Help You Work

                      SSI RULES THAT HELP YOU WORK

    We want to tell you about some special Supplemental 
Security Income (SSI) rules that can help you while you are 
working or if you begin working. These rules can help you get 
or keep Medicaid and may help you keep getting some SSI even 
though you are working.

How Your SSI May Change If You Work

    If you work full-lime or part-time and make $65 or less 
each month, your SSI will usually not change. As the money you 
earn from your job goes up, your SSI will go down. However, if 
you have no other income (money or support), you can earn up to 
$1,313.77 a month and still get at least $1 in SSI.

If You Stop Working or Start Earning Less

    If you stop working or start earning less, please let us 
know right away. We can increase your SSI check, or start your 
SSI and Medicaid again if they have stopped. You may not even 
have to file a new application.

Medicaid

    If you get Medicaid, it will usually continue as long as 
you get SSI. If your SSI stops because you begin earning too 
much money, you can often keep getting Medicaid as long as the 
following are true:

        <bullet>  You continue to be disabled or blind under our rules; 
        and
        <bullet> You can't pay your medical bills without Medicaid.
We Don't Count Some of Your Earnings Used for Work Expenses

    The earnings you use for some of your working expenses may 
not count as income. For example, we sometimes don't count 
earnings used to pay for transportation to and from work. Also 
we don't count the cost of special equipment that helps you to 
work.
A Plan Can Help

    You may be able to keep more of your SSI if you develop a 
special plan to support yourself. We call this a plan to 
achieve self-support(PASS). This plan lets you set aside money 
for a certain amount of time for a work goal. For example, you 
may set aside money to start a business, go to school, or get 
training for a job.
    We don't count what you set aside when we figure your SSI. 
This can help keep you on SSI or help you get more SSI. A PASS 
may also help someone you know qualify for SSI.

If You Need Help Finding a Job

    We can ask someone who offers vocational rehabilitation 
services to help you find a job or give you training.

If You Want To Know More

    If you want to know more about these rules, contact any 
Social Security office and ask to speak to someone about work 
incentives.
      

                                <F-dash>


    Mr. Collins. Well, you just brought another interesting 
comment up, and it adds to the problem, because there is a lack 
of a lot of common sense when it comes to the courts too. But I 
think the answer, even to the courts, is to come up with 
something that makes sense, simple, to the point, the old KISS 
theory. But this is just so confusing, complex and ridiculous 
that it is not even worth the effort and the time and the money 
it costs to mail it out. Thank you, Bill.
    Mr. Halter. Thank you very much, Congressman.
    Chairman Shaw. How much of the courts' orders that you are 
complying with have to do with due process, and how much has to 
do with the wording of the legislation or interpretation of 
legislation?
    [The information was received and is answered on page 48.]
    Mr. Halter. Mr. Chairman, I would have to get back to you 
with an answer on that, a precise answer on that.
    Chairman Shaw. I would like you to go beyond that issue if 
you would. If you would just summarize to us the requirements 
that you see the letter has to have pursuant to the statute and 
pursuantto the court order. It may be that the court order has 
gone too far, and that might be able to be corrected by 
statute, and I think we ought to take a look at it, because, 
again, I think, certain information has to be given. And I 
understand that. But if you give too much information, it is 
lost and Mr. Collins isn't going to read that eight-page 
letter, and I think that needs to be--really needs to be 
reviewed, particularly when you are dealing with the education 
level that most of these people have that are receiving these 
funds.
    Mr. Halter. We will be delighted to do that, Mr. Chairman.
    Chairman Shaw. Ms. Bovbjerg, I believe she is the one that 
said that you all are going to have to make a correction in 
paragraph ``F'' up there, and that a new application would not 
be necessary in this particular instance. What is involved in 
making that correction and why couldn't that correction be done 
system wide?
    Mr. Halter. My understanding, Mr. Chairman, with respect to 
that particular item, is that it is going to be corrected in 
the month of October, but I want to ask our folks to confirm 
that. That in fact is going to happen in less than 30 days.
    Chairman Shaw. Well, then the question is: why can't some 
of this other stuff be addressed within the next 30 days? I 
think we need to take a whole assessment of what is going on.
    Mr. Halter. I would partition the answer, Mr. Chairman, in 
that there are some things that if it is just a language 
change, we can make those very expeditiously, but if
    Chairman Shaw. I think what we have here is an excess of 
language.
    Mr. Halter. Well, let me--as I partition this, I think it 
will become clear what I am talking about. If it is simply 
changing the words in a particular paragraph that is in the 
system, we can do that very quickly. If, on the other hand, 
what you are talking about is changing the software that mixes 
and matches those paragraphs--and that is really the root of 
this problem--that takes much longer for us to do, and that is 
the real complication. So with respect to paragraph ``F'' and 
paragraphs like that, where it is simply the case that we need 
to change the actual language in the text, we can do that very 
straightforwardly. If, on the other hand, you are talking about 
the sequencing between paragraphs A, B, C, D, E and F, that is 
much more complicated, and that is what is driven by all the 
variables that we have been talking about with respect to the 
program.
    Chairman Shaw. But you could certainly--am I correct on 
this? And again, I am asking for information on it. I don't 
understand how these programs work. But if you took that 
paragraph ``F'' and put a period right after ``immediately'', 
and just struck the rest of that paragraph, it seems to me that 
that would work.
    Mr. Halter. And, Mr. Chairman, I believe that the change 
that will be forthcoming here in the next few days or the next 
few weeks will in fact be something like that. But I would like 
to confirm that and get back to you with that particular thing.
    [The following was subsequently received:]

Change in language to an SSI paragraph

    The language in the paragraph referred to by Mr. Shaw will 
be corrected effective October 2, 2000. The replacement 
language will be: ``If you think you may be eligible for SSI 
again, please contact us. If you do not contact us before [fill 
in appropriate month and year], you may have to file a new 
application. If you have to file a new application, the 
earliest month for which we can pay you is the month after you 
file.''
    The revised language clarifies when a new application is 
needed.
      

                                <F-dash>


    Chairman Shaw. I don't think you have to put that last 
sentence, ``The earliest month for which we can pay you is the 
months after''--well, you won't have a new application--but I 
don't know whether any further information is necessary. I 
think that is really what you have to really look at, is how 
much information are you required to give, because it looks to 
me that this is just totally confusing.
    Mr. Halter. Right.
    Chairman Shaw. Ben, do you have anything else?
    Mr. Cardin. No.
    Chairman Shaw. Well, I want to thank you both. Now, you are 
going to follow up and give me the information that we have 
requested?
    Mr. Halter. Yes, sir.
    Chairman Shaw. Setting forth statutory requirements and the 
requirements of the court. And if you could have your legal 
counsel also to advise us as to whether this court required 
information is under dueprocess or as to the statutory 
interpretation. Then we will have to look at it and see if we 
see a way that we can
    Mr. Halter. Mr. Chairman, I would be delighted to do that, 
and we will follow up with you on those.
    [The following was subsequently received:]

What the law requires to be in Social Security Notices

    We are required to by Section 205(b)(1) (title II) and 
Section 1631(c)(1)(A) (title XVI) to ``make findings of fact, 
and decisions as to the rights of any individual applying for a 
payment under this title.'' We include all the information in 
our notices to satisfy these sections. When the courts find our 
notices legally insufficient, it is usually because they 
determine we have not included enough information, or not 
stated the information clearly, to explain our findings of fact 
and an individual's appeal rights.
    Listed below are other specific citations that discuss 
notice requirements.

Specific Notice Requirements

    Section 205(s) (title II) and section 1632(o) (title XVI) 
require SSA notices be written in ``simple and clear 
language,'' and include a local social security office address 
and telephone number.
    Section 205(j)(2)(E)(ii) (title II) and section 
1631(a)(B)(xii) (title XVI) give notice requirements to explain 
that a representative payee will receive benefits on behalf of 
an individual. The notice must be clearly written in easily 
understandable language, identify the person chosen, and 
explain the right to appeal that a representative is needed, 
appeal who the representative is, and review the evidence we 
used to make our decision.
    Section 205(b)(3)(B) (title II) and section 
1631(c)(1)(B)(ii) (title XVI) require, in an adverse situation, 
SSA include the effect on possible eligibility for payments of 
choosing to reapply rather than appeal the decision.
    Section 206(a)(2)(D) (title II) and section 1631(d)(2)(A) 
(title XVI) require a notice about a fee agreement to include: 
the past-due amount, past-due amount payable to the claimant, 
amount of the maximum fee that can be charged, and explanation 
of review procedures.
    Section 206(c) (title II) and section 1631(d)(2)(B) (title 
XVI) require the notice to tell the beneficiary he/she can have 
an attorney help with an appeal and that qualifying individuals 
can get legal services free of charge.
    Section 1631(k) (title XVI) requires notification of blind 
and/or disabled individuals about the potential eligibility 
under section 1619 at the time of the award, when income is 
$200 or more for a month, and periodically afterwards as long 
as the individual's income is $200 or more for a month.
    Section 1631(l) (title XVI) requires SSA to provide 
individuals applying for or receiving benefits because of 
blindness the following notice options: receive a supplementary 
notice by telephone within 5 working days after SSA mails the 
initial notice; receive the initial notice by certified mail; 
or receive notification by some alternative way established by 
SSA and agreeable to the individual. Title II notices also 
follow this requirement.
    Sections 205(b)(1) and 1631(c)(1)(A) of the Social Security 
Act require the Commissioner of Social Security to ``make 
findings of fact, and decisions as to the rights of any 
individual applying for a payment under this title'' (either 
title II or title XVI). If a decision involves a determination 
of disability and is partially or wholly unfavorable to the 
individual, the notice describing the determination must 
contain a statement of the case, in understandable language, 
setting forth a discussion of the evidence and stating the 
determination and the reason or reasons upon which the 
determination is based.

              Court Cases That Specify Notice Requirements

    *We have annotated the cases where due process was an 
issue.
    Mullane v. Central Hanover Bank & Trust Co., 339 U.S. 306, 
314 (1950). When government action threatens the deprivation of 
an individual's property, due process requires that the 
individual receive notice that is reasonably calculated, under 
all circumstances, to apprise the individual of the action 
taken and afford him or her an opportunity to present 
objections. Due process.
    Goldberg v. Kelly, 397 U.S. 254, 267-68 (1970). The Supreme 
Court held that before welfare benefits can be terminated, due 
process requires ``that a recipient have timely and adequate 
notice detailing the reasons for a proposed termination, and an 
effective opportunity to defend by confronting any adverse 
witnesses and by presenting his own arguments and evidence 
orally.'' Due process.
    Cardinale v. Mathews, 399 F. Supp. 1163 (D.D.C. 1975). The 
court applied the holding in Goldberg v. Kelly to reductions, 
suspensions, and terminations of SSI benefits. As a result, 
SSA's notices explaining intended reduction, suspension, or 
termination of SSI benefits must explain that the individual 
has the right to a review of SSA's determination and that the 
individual may choose a case review, informal conference, or 
formal conference. Due process.
    Califano v. Yamasaki, 442 U.S. 682 (1979). The Supreme 
Court held that title II beneficiaries who request waiver of 
collection of an overpayment are entitled to the opportunity 
for a prerecoupment oral hearing. Consequently, SSA must inform 
individuals whose waiver request cannot be granted based on the 
written request of their opportunity for an oral hearing. Based 
on the language of section 204(b) of the Social Security Act.
    Benson v. Schweiker, 652 F.2d 406 (5th Cir. 1981). The 
court determined that the notice of the right to be represented 
by counsel must include an explanation of the fee limitations 
in sections 206 and 1631(d) of the Social Security Act, of the 
possibility of representation by a private attorney on a 
contingent fee basis, and of the possibility of free 
representation if the claimant cannot afford a lawyer. See also 
Holland v. Heckler, 764 F.2d 1560 (11th Cir. 1985). Based on 
statutory language.
    Wall v. Califano, (N.D. Cal. July 6, 1982). In a settlement 
agreement, the Secretary agreed to simplify the language 
describing the three ways to appeal SSI post-eligibility 
reduction, suspension, and termination decisions. The 
settlement agreement set forth specific readability and content 
standards. Settlement agreement.
    Muir v. Schweiker, (D. Or. February 24, 1983). In a class 
action settlement agreement, the Secretary agreed to include on 
the SSI notice of the decision to recover an overpayment a 
statement advising recipients that ``appearing in person may 
help the person deciding your case to make a decision.'' The 
settlement agreement applied nationwide. Settlement agreement.
    Ellender v. Schweiker, 575 F. Supp. 590, 600 (S.D.N.Y. 
1983). To be constitutionally adequate, SSI overpayment notices 
must explain to the beneficiaries the time periods during which 
overpayment arose, the amount of overpayment in each time 
period and in total, the amount of any prior repayments, the 
reason for overpayment, that the recipient has a right to 
appeal and/or reconsideration, and that under specified 
conditions the recipient may have the right to a waiver of 
repayment of the overpayment. Due process.
    Buffington v. Schweiker, No. 734-73C2, (W.D. Wash. Feb. 7, 
1983). The court established standards for notifying a title II 
beneficiary about the scheduling of a personal conference on 
the issue of waiver of the overpayment when an initial paper 
review regarding waiver is adverse. The written notice must 
contain: all the necessary information about date, time, place, 
the procedure for reviewing the file prior to the hearing, the 
procedure for seeking a change in the scheduled date or time or 
place, and all other information deemed necessary by the 
Commissioner to fully inform the claimant about the personal 
conference. Due process.
    Page v. Heckler, No. 82-1388 slip op. (M.D. Pa. July 2, 
1984). In this State-wide Pennsylvania class action, the court 
agreed to a proposal to have SSA follow the same waiver of 
overpayment procedures under title XVI as were required in 
Buffington for title II overpayments and waivers. The 
Commissioner is required to send a notice of a personal 
conference, which meets the standards announced by the 
Buffington court to overpaid SSI recipients seeking waiver. Due 
process.
    Powell v. Heckler, 789 F.2d 176 (3d Cir. 1986). The court 
held that the Appeals Council cannot review an entire case when 
the claimant appeals only part of the decision unless the 
Council gives the claimant notice of its intention to do so 
within 60 days of the ALJ decision. Due process.
    Gonzalez v. Sullivan, 914 F.2d 1197, 1203 (9th Cir. 1990). 
The court held that SSA's initial notice of an adverse 
determination violated Fifth Amendment due process because it 
did not clearly explain the difference between appealing the 
denial and filing a new application. The notice did not clearly 
indicate that if no request for reconsideration is made, the 
determination is final. Due process.
    Ford v. Apfel, No. CV-94-2736 (E.D.N.Y. January 13, 2000). 
After negotiations between the parties, the court required that 
SSA revise its automated SSI financial eligibility notices 
(e.g., denial, change in payment amount) to better explain the 
financial calculations that affect eligibility and payment 
amount. Among other things, the court required that SSA include 
in the notices information regarding the individual's right to 
review his or her claim and how the appropriate legal citations 
can be obtained from SSA. Due process.
    Greenawalt v. Apfel, No. 99-CV-2481 (E.D.N.Y. December 26, 
1999). In a nationwide class action settlement agreement, the 
Commissioner agreed to extend the practices and procedures 
followed in Pennsylvania pursuant to Page in all SSI 
overpayment cases where the recipient seeks waiver. Notices 
must comply with the standards used in Buffington and Page. 
Settlement agreement. Challenge was based on due process and 
equal protection.
      

                                <F-dash>


    Chairman Shaw. And, Ms. Bovbjerg, can you do an assessment? 
Are you all prepared to give us an assessment as to what 
funding would be necessary in order to write new programs? You 
said you are not a systems operator, and I am certainly not. Do 
you have the expertise at the General Accounting Office to take 
a look at what their plan is for doing this over four years and 
see if you can see a way that it can short-circuited and 
whether new funding would be required?
    Ms. Bovbjerg. I believe someone at the General Accounting 
Office has that expertise.
    Chairman Shaw. Okay. Well, take a shot at it.
    Ms. Bovbjerg. But you were correct it wouldn't be me doing 
systems work.
    Chairman Shaw. Take a shot at it, please. Thank you very 
much. The hearing is adjourned.
    [Whereupon, at 11:41 a.m., the hearing was adjourned.]
    [Submissions for the record follows:]

                           Bilingual Services Working Group
                                                    October 6, 2000

The Honorable E. Clay Shaw, Jr.
Chairman, Social Security Subcommittee
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington, D.C. 20515

Dear Representative Shaw:
    Thank you for the opportunity to submit written comment for the 
hearing record on the very important issue of the quality and 
effectiveness of Social Security notices. Although the Social Security 
Administration (SSA) has put some effort into notice improvement, many 
notices remain unintelligible to the public, who are being held 
increasingly responsible through the various anti-fraud initiatives for 
understanding and responding appropriately to the complex rules and 
reporting responsibilities in the benefit programs administered by the 
agency. As the agency moves forward with its programs to encourage 
disability benefit recipients to work, it is critical for the agency's 
notices to clearly explain the rules and recipient responsibilities in 
the work incentive programs, as well as the effect of work on benefits. 
Understanding the agency's notices is an especially difficult problem 
for those with cognitive limitations, mental impairments, low 
educational levels, and for those who do not speak English or have 
limited English proficiency.
    Because I write on behalf of the Bilingual Services Working Group, 
I will confine the remainder of this statement to issues involving SSA 
customers with limited English proficiency. The Bilingual Services 
Working Group is a national group of Social Security and SSI advocates 
who have been working for several years with SSA to increase access to 
SSA's services for persons with limited English proficiency.
    The pressing issue for persons with limitations in English is the 
need to receive notices in a language they will understand. In order to 
make that happen, SSA must develop the capability to identify the 
language spoken by each of its customers. Currently, the only language, 
other than English, in which the agency even attempts to provide 
written notices in Spanish. However, even this limited attempt is not 
well executed because SSA does not, at present, determine and capture 
the language spoken by its customers, except for new claims.
    As you know, the President recently issued an Executive Order on 
``Improving Access to Services for Persons with Limited English 
Proficiency.'' 65 Fed. Reg. 50119 (Aug.16, 2000). The Executive Order 
requires each agency administering a Federally conducted program to 
develop and implement a plan consistent with the compliance standards 
established for the States by the Department of Justice Office of Civil 
Rights. 65 Fed. Reg. 50123 (Aug.16, 2000). This order will go far to 
ensure equal access to services. It will also enhance program 
efficiency and integrity. Unfortunately, the Executive Order makes 
clear that it cannot be enforced against Federal agencies.
    If the OCR standards were applied to SSA, the agency would clearly 
be required to identify the languages spoken by its customers and 
provide written notices in many different languages. It is unlikely 
that any other benefit agency in the nation serves as a great number of 
recipients who are limited in English proficiency. The eligibility 
rules for the Supplemental Security Income (SSI) program are 
particularly complex, requiring frequent contact with and many notices 
from the agency, and the percentage of aged SSI recipients who are 
limited in English proficiency continues to grow each year. Yet, the 
agency is woefully behind in providing notices in a language the 
benefit recipient understands.
    SSA needs to provide written notices in the languages spoken by its 
customers and must place the highest priority on identifying the 
languages spoken by all SSI recipients. Until SSA has the capability of 
capturing the language spoken by its customers, it is unable to send 
notices in a language the customer understands. It is also unable to 
provide timely and effective service with interpreters when it does not 
know the language the customers speaks. SSA must undertake the 
necessary systems changes now to identify and capture language 
preference to avoid an even larger workload later on and further delays 
in providing these critical services.
    SSA has made great strides over the past few years in the 
development and implementation of its excellent policy with regard to 
the provision of interpreters for conducting SSA business. It now needs 
to make similar progress on the provision of written notices in the 
customer's language. There are highly dedicated individuals within the 
agency who participate in a work group for improving services to 
individuals with limited English proficiency. Further progress will be 
hampered, however, unless and until the agency has the ability to 
capture the languages spoken its customers.
    SSA undoubtedly sends out more notices to the public on issues of 
vital importance than any other Federal or State agency. It should set 
the example when it comes to providing notices in the languages of its 
customers. I urge the Committee to determine what needs to be done to 
enable the agency to meet the written notice standards set forth in the 
exemplary OCR policy guidance. The Executive Order should not be 
ignored simply because it is unenforceable against SSA. Its spirit 
should be followed because it is good public policy for the reasons 
stated above.

            Respectfully submitted,

Linda L. Landry, Esq.
Disability Law Center, Boston, MA
Gerald McIntyre, Esq.
National Senior Citizens Law Center, Los Angeles, CA
Gillian Dutton
Northwest Justice Project, Seattle, WA
Edwin Soto-Lopez
Greater Upstate Law Project, Rochester, NY
Christopher Bowes, Esq.
Cedar, New York, NY
      

                                <F-dash>


                Center for Disability Advocacy Rights, Inc.
                                         New York, NY 10003
                                                    October 9, 2000

The Honorable E. Clay Shaw, Jr.
Chairman of the Subcommittee on Social Security
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington, D.C. 20515

Dear Representative Shaw:
    I am writing to submit these comments for inclusion with the 
September 26, 2000 hearing record on the issue of the quality of the 
Social Security Administration's (SSA) benefit notices and the status 
of SSA's actions to address notice improvement. At the outset, let me 
state how appreciative I am to the Committee for addressing these 
problems and for holding this hearing to place pressure on SSA to 
remedy the notice problems that remain essentially unchanged despite 
over 8 years of promises to correct them.
    My name is Christopher J. Bowes and I am the Executive Director of 
CeDAR, the Center for Disability Advocacy Rights. CeDAR is a not for 
profit poverty law office providing legal advice and representation to 
poor persons with disabilities and older persons before the Social 
Security Administration. Through our daily work, CeDAR's staff has a 
wealth of experience dealing with the problems created by SSA's poorly 
drafted Supplemental Security Income (SSI) and Social Security 
Disability (SSD) benefit notices. CeDAR's attorneys are also co-counsel 
for eight of the thirteen named plaintiffs and the plaintiff class in 
Ford, et. al. v. Apfel, 87 F. Supp. 2d 163 (E.D.N.Y 1999), the 
nationwide SSI class action that successfully challenged the adequacy 
of SSI notices mentioned in the GAO's report.
    I hope that the Committee will consider incorporating the entire 
Ford decision with the record of this hearing as the findings contained 
therein provide a careful analysis of the issues before the Committee, 
including SSA's failure to make any significant headway with respect to 
Notice improvement since September 1992 when the Office of the 
Inspector General issued a report harshly critical of SSI financial 
notices. Moreover, while I know that the Committee has heard testimony 
severely critical of the quality of SSA's notices, I believe that the 
Ford decision provides additional detail regarding the harm visited to 
over 6.5 million SSI recipients.

Highlights of the Court's Decision in Ford

    The Court found that SSA's SSI notices violated due process because 
the notices fail to convey essential factual and legal information 
necessary to inform the reader. The Court found that the risk of 
erroneous deprivation was great given that SSI recipients already 
subsist on the edge of poverty. Finally the Court held that SSA would 
not be unduly burdened if required to correct the SSI notices.

    <bullet> The Notices Fail to Convey Underlying Factual and Legal 
Assumptions

    The Court noted that it was common knowledge that SSA's SSI notices 
failed to contain the factual and legal premises with which a person 
can make a decision as to the correctness of the notice. The Court 
cited the Office of Inspector General's September 1992 report 
recommending the addition of abenefit worksheets itemizing gross 
payment and all applicable deductions. The Court also cited the 1994 
General Accounting Office's (GAO) report finding that even GAO staff 
with an accounting background and years of Social Security program 
knowledge had difficulty determining or verifying specific 
pointscontained in the SSI notices. Several of the named plaintiffs 
testified to the fear caused by the SSI notices that they could not 
understand, leaving them upset and humiliated.

    <bullet> The Likelihood of Erroneous Deprivation is Great

    Next the Court considered the likelihood that a confusing SSI 
notice would erroneously deprive an SSI recipient of desperately needed 
cash assistance. Each recipient of a potentially erroneous SSI notice 
is either elderly or suffering from severe mental and/or physical 
disability. SSA's own witnesses testified that SSI claimants are often 
intimidated simply by the fact they have received a government letter. 
It is to this audience that the inadequate SSI notices are sent, and 
the recipient is placed in the position of tryingto first ascertain 
whether a negative determination has been made against them, and 
secondly whether it is factually and legally proper. Although SSA 
provides for a 60-day appeal period, the notice recipient must in fact 
make a decision whether to appeal within 10 days in order to maintain 
their benefits at the status quo. While SSA has an 800 telephone number 
where a claimant can call toll free for information, that system 
requires that the caller be on SSA's MSSICS computer system. As it 
turns out, only twenty percent of all SSI recipients have their 
information stored on MSSICS, making a call to the 800 number an 
inadequate solution for the vast majority of SSI recipients. Moreover, 
there is a dearth of trained poverty law attorneys available to assist 
these individuals.\1\

    \1\ I am aware that this Committee has recently heard testimony 
regarding a possible amendment to the Act that would allow withholding 
of past due SSI benefits for payment of attorneys fees. While this 
proposed amendment is likely to encourage more private attorneys to 
represent SSI claimants seeking disability benefits, the amendment will 
not help SSI claimants who seek clarification of their SSI notices for 
the simple reason that SSI financial notice cases typically do not 
result in an award of past due benefits.
---------------------------------------------------------------------------
    <bullet> Revising the Notices Will Not be Unduly Burdensome on SSA

    Finally, the Court considered whether notice improvement would be 
unduly burdensome for SSA. SSA provided testimony that notice 
improvement would require substantial modification to its computer 
systems. The Court considered the testimony of Charles Wood, Associate 
Commissioner of the Office ofSystems and Design and Development, who 
testified that it would take six months for three to four computer 
programmers to test and debug the proposed changes and two years to 
fully implement the changes sought by the plaintiffs. Other SSA experts 
testified that SSA would have to buy additional computers to handle the 
additional workload imposed by improved notices. On the other hand, 
SSA's witnesses testified that improved notices would reduce SSA's 
workload because clear notices result in fewer inquires to SSA by 
recipients seeing notice clarification. Overall, the Court held that 
notice improvement would not unduly burden the SSA.

The Glacial Pace of SSI Notice Improvement

    We are obviously concerned regarding the slow pace of SSA's 
proposed implementation, particularly given Associate Commissioner 
Wood's testimony at trial that all the changes sought by the Ford 
plaintiffs could be completed in two years. We are therefore surprised 
to hear that it may take 10 years to fully implement all of the 
changes. It has also come to our attention that SSA has no intention of 
issuing any worksheets in so-called ``very complex'' cases 
(representing three percent of all notices) because it would be too 
difficult. SSA's timeline and the scope of implementation should be 
revisited and scrutinized so that all SSI financial notices include 
worksheets and that this is done as soon as possible, not at a pace 
that is administratively convenient.
    We are also vexed at the suggestion mentioned in the GAO report 
that SSA held off on SSI notice improvement pending the outcome of the 
Ford litigation. Because this is prominently stated twice in the GAO 
report, it should be noted that this statement is not supported by 
fact. Throughout the course of this litigation, the Court repeatedly 
urged the parties to settle and assigned a magistrate judge to preside 
over the proceedings. Plaintiffs would have been more than happy if SSA 
had agreed to implement the worksheet and other changes suggested in 
1992 by the OIG and in 1994 by the GAO. At trial, it was established 
that SSA opposed the OIG and GAO suggestions regarding worksheets 
because such changes were perceived by SSA to be too costly and 
burdensome.
    Lastly, I must bring to the Committee's attention problems with 
SSA's intention to increasingly rely on the Internet as a means of 
disseminating program information to SSI and SSD recipients. See 
September 26, 2000 Testimony of Deputy Commissioner William Halter 
regarding the Online Notice Retrieval System (ONRS). While this may 
generally be a worthwhile endeavor, with respect to the SSI population, 
the unstated assumption that SSI recipients are computer literate and 
have ready access to computers is unfounded. To the contrary, the 
technological ``digital divide'' is a tremendous obstacle to the 
effective use of the ONRS. See Falling Through the Net, July 8, 1999 
and revised in November 1999. The July 1999 report is available on the 
Internet at http://www.ntia.doc.gov/ntiahome/fttn99/contents.html; see 
also www.digitaldivide.gov. It is noted that ``[w]hile a significant 
majority of Americans (58.9 percent) making over $75,000 frequent the 
Internet from any location, many fewer persons (16.0 percent) at the 
lower end of the payscale ($5,000$10,000) use the Internet.'' A quick 
overview of this report will debunk any assumption that the poor are 
computer literate and with ready access to the Internet.
    Thank you again for considering these comments and for tackling 
this difficult issue. Please feel free to contact me if you have any 
questions regarding this letter or the status of the Ford case.
            Respectfully submitted,

                                    Christopher James Bowes
                                                 Executive Director

[An attachment is being retained in the Committee files.]
      

                                <F-dash>


Statement of Gerald R. Tarutis, National Alliance for the Mentally Ill, 
Arlington, VA

    Chairman Shaw, Representative Matsui and members of the 
Social Security Subcommittee, I am Gerald R. Tarutis of 
Seattle, Washington. In addition to serving on the Board of the 
National Alliance for the Mentally Ill (NAMI), I am also an 
attorney in private practice. I am pleased to have the 
opportunity to share NAMI's views regarding ongoing problems 
with the Social Security Administration's letters to 
beneficiaries with disabilities and their families.
    In over 25 years of practicing law, I have represented many 
clients with severe disabilities who have been claimants for 
Social Security cash benefits. While some of my clients' cases 
before Social Security were dealt with in a fair and 
straightforward manner, many others found the experience of 
endlessappeals, examinations and bureaucratic delays 
frustrating and in many cases, humiliating. This is especially 
true for adults with severe mental illnesses and other 
disabilities that are not readily apparent to the staff of the 
Social Security Administration (SSA) field offices.
    Too many adults with severe mental illnesses, and their 
families, find their dealings with the SSA on matters ranging 
from appeals for denial of eligibility, to reporting wages, to 
seeking a straight answer regarding an alleged overpayment to 
be intimidating. Nowhere is this process more frustrating than 
in trying to interpret and understand the letters that 
claimants and beneficiaries receive from the agency. It would 
be difficult for me to overstate the confusion and aggravation 
that NAMI members feel when theyreceive important 
correspondence from SSA regarding eligibility, benefit 
adjustments and overpayments with conflicting and confusing 
information.
    For adults with serious brain disorders including 
schizophrenia, manic-depression, major depression and severe 
anxiety disorders both SSI and SSDI serve as a critical Federal 
safety-net program that is essential to meeting the most basic 
needs for food, clothing and shelter. In NAMI's view, it is 
critically important that these most vulnerable Americans, and 
their families, get clear information from SSA about 
eligibility and benefits. The receipt of confusing or 
conflicting information about eligibility and benefits canhave 
disastrous consequences particularly for individuals who work 
part-time under SSA's limited employment programs, i.e. 1619 
for SSI beneficiaries and the trial work period (TWP) for SSDI 
beneficiaries. As these programs expand under the Ticket to 
Work and Work Incentives Improvement Act (P.L. 106-170), it 
will be all the more important for beneficiaries to get clear 
and precise information from SSA about where they stand.
    In fact, TWWIIA itself points to the frustration that 
individuals with disabilities have had over the years with 
SSA's letters. As an aside, NAMI would like to again thank you 
Chairman Shaw, and all the members of this Subcommittee on both 
sides of the aisle, for your leadership in passing this 
historic legislation to help adults with severe mental 
illnesses and other disabilities go to work. As you know, 
Congress included a provision in TWWIIA authorizing a new 
``benefits counseling and assistance'' program to assist 
beneficiaries in their decisions regarding employment. What is 
most noteworthy about this initiative is that Congress insisted 
that these benefits planning programs be independent of SSA 
largely because of the low level of confidence among 
beneficiaries and their families about the accuracy of the 
information they receive from Social Security. While some of 
this may be caused by past histories of overpayments (which too 
often results from confusing or out of date information given 
by SSA field office staff), it is surely also a result of 
confusing and difficult to understand letters from SSA itself.
    An examination of the General Accounting Office's (GAO) 
recent report on SSA's longstanding problems with its letters 
to the public illuminates why beneficiaries and their families 
are so frustrated. GAO reviewed several categories of letters, 
including those awarding and adjusting SSI benefits. In 
analyzing these letters, NAMI understands that the GAO used a 
team of writing consultants (including English teachers) to 
assess whether the letters communicated clearly and to verify 
the types of problems that regularly occur with these letters.
    The GAO's findings are remarkable. The majority of the 
letters in every category (including SSI eligibility and 
adjustments) did not clearly communicate on at least one of the 
following: 1) SSA's actual decision on the claimant's action, 
2) the basis for SSA's decision, 3) the financial recourse of 
SSA's decision on the beneficiary, or 4) the recourse available 
to the beneficiary. Among the factors noted by GAO and their 
consultants were illogically sequenced information, incomplete 
or missing information, contradictory information and confusing 
numerical information.

    The GAO report notes that:

    <bullet> An unclear explanation of the basis for SSA's 
decision was the most widespread problem cited by the GAO, i.e. 
80 percent of sampled letters were described as unclear, 
principally because the cover sheet failed to disclose all of 
the decisions contained in the attachments.
    <bullet> 100 percent of the sampled SSI award letters do 
not explain the relationship between program rules and the 
amount of the actual SSI benefit (86 percent of SSI benefit 
adjustment letters failed to explain this as well).
    <bullet> More than half of the surveyed SSI benefit 
adjustment letters lacked a clear statement of timing or the 
amount of change in benefits.
    <bullet> Letters sent to SSI beneficiaries who are eligible 
for a previous, but not a future, month's benefit, were unclear 
in communicating all of the criteria.
    <bullet> A startling 95 percent of award letters for Social 
Security benefits (including those to SSDI claimants) fail to 
detail how to appeal the decision.
    In its report, GAO noted that while SSA acknowledges many 
of these problems, changes have been slow in coming. Both GAO 
and SSA appear to acknowledge that comprehensive revision of 
the language used in beneficiary letters is needed, as well as 
an overhaul of the computer software used to generate these 
letters. NAMI is hopeful that this process will be accelerated 
as a result of a 1999 Federal court order for SSA to develop a 
comprehensive plan to improve its SSI letters. Unfortunately, 
GAO reports that SSA has ``not placed a priority on improving 
its letters to the public, and it will be years before 
improvements are completed to most of these letters, even if 
there are no more delays and SSA adheres to its current 
plans.''
    Because so many people with the most severe and disabling 
mental illnesses rely on SSI and SSDI for basic support to live 
in the community, NAMI believes that SSA should take the steps 
necessary to ensure that information regarding eligibility and 
benefits is understandable. NAMI would concede that the 
complicated nature of SSA's disability cash benefit programs 
and their interaction with health care programs does not make 
this task easy. However, the GAO report makes clear that 
improving the content of letters to beneficiaries has not, this 
far, been a high priority at SSA.
    What needs to be done? NAMI recommends that Congress direct 
the Commissioner to put in place acomprehensive plan to improve 
SSI benefit award and adjustment letters. As the GAO 
recommended in its report, such a system should include 
performance measures that hold SSA accountable, with 
specifictimetables and outcomes to assess progress.
    Moreover, SSA should invest in training for field office 
staff to help these officials better understand severe mental 
illness and the unique challenges that they (and their 
families) face in becoming eligible forSSI and SSDI. The 
overriding experience of too many NAMI members is that the 
stigma associated with severe mental illness, and the lack of 
understanding among field office staff has served as a barrier 
to getting quick, accurate and fair decision from the agency. 
On August 21, SSA completed work on revised criteria for 
``Evaluating Mental Disorders.'' These new criteria revise SSA 
``adult neurological listings.'' SSA is now in the process of 
training field office staff and State disability determination 
offices on these criteria. NAMI believes that this provides a 
unique opportunity for SSA to educate field office staff and 
State determination agencies on how to more effectively serve 
claimants and beneficiaries with severe mental illnesses.
    Mr. Chairman, thank you for the opportunity to present 
testimony on this important issue for NAMI's consumer and 
family membership.
      

                                <F-dash>


Statement of Charles Robert, Robert, Lerner & Robert, Rockville Centre, 
NY

    Thank you for the opportunity to present testimony to be 
placed in the Record of the Hearing on Improving Social 
Security Notices. Since the 1974 beginning of the Supplemental 
Security Income (SSI) program implemented by President Nixon to 
replace State welfare programs providing benefits to theaged, 
blind, and disabled, I have represented SSI recipients 
appealing incomprehensible SSI denial and reduction Notices.
    Chairman Shaw's Opening Statement accurately highlights the 
importance of the accurate and comprehensible Notices for SSI 
recipients. ``The amount of their Social Security or SSI check 
may be the difference between paying the monthly bills or 
not.''

    A. The clandestine SSA nonacquiescence policy as a root 
cause of the incomprehensible SSI Notices.

    In the past two decades of legal representation, almost all 
of my SSI clients' appeals have included a challenge the SSA 
nonacquiescence policy whereby the SSA has denied or reduced 
SSI benefits because of a standard established by Executive 
Branch counsel and not as established in a duly promulgated SSA 
regulation. See Glasgold v. Califano, 558 F. Supp. 129 (E.D. 
N.Y. 1982), aff'd sub. nom. Rothman v. Schweiker, 706 F. 2d 407 
(2nd Cir. 1983), cert. den. sub. nom. Guigno v. Schweiker, 464 
U.S. 984 (1983). Ruppert v. Bowen, 671 F.Supp. 151 (E.D.N.Y. 
1987), aff'd in part, rev'd in part, Ruppert v. Bowen, 871 F. 
2d 1172 (2d Cir. 1989), Gordon v. Shalala, 55 F. 3d 101 (2d 
Cir. 1995), cert. den. 116 S. Ct. 1317 (1996).
    As a result of the HHS and SSA nonacquiescence policy, the 
SSA Commissioner has not equally applied SSI standards in all 
50 States as intended by the Congress. This is one of the root 
causes of the incomprehensible SSI Notices.
    The survival of this clandestine nonacquiescence policy 
into 2000, has been in large part because of the continued use 
of the indecipherable SSA Notices which do not explain the 
standard applied or cite to the applicable law. Over the past 
decades HHS General Counsel Juan del Real, SSA Chief Counsel 
Donald Gonya, and SSA General Counsel Fried knew that if they 
had explained the ``nonacquiescence'' policy in the SSI 
Notices, then even the legally defenseless aged, blind, and 
disabled SSI recipients would have intuitively known that 
something was wrong when a different standard was used to 
compute monthly SSI benefits for SSI recipients who lived in 
different States in a Federal program established by the 
Congress to apply a uniform Federal standard.
    As explained in more detail in the Sections discussing 
Solicitor General Waxman's courageous decision to withdraw the 
Ford appeal, the accuracy of SSA General Counsel Fried's May 
22, 1997 sworn Congressional testimony, the implementation of 
the Jackson nonacquiescence policy, and SSA GeneralCounsel 
Fried's decision not to acquiesce to Christensen v. Harris 
County, SSA General Counsel Fried has known that when an 
``acquiescence'' decision was made to limit the application of 
Circuit Court decision to that Circuit's States, the SSA 
computer was not reprogrammed. Thus, SSA General Counsel Fried 
has always cynically known that there was no practical 
difference between the pre-June 3, 1985 ``nonacquiescence'' 
policy of HHS General Counsel del Real and the post-June 3, 
1985 ``acquiescence'' policy of SSA General Counsel Fried 
because other than the named litigants in an ``acquiescence'' 
case, the SSA Notices sent to all other similarly situated SSI 
recipients within that Circuit and in all other Circuits was 
the ``incorrectly'' decided Executive Branch counsel's 
interpretation of the SSA statute and implementing regulations 
that the unappealed Circuit Court had rejected.
    When the new President appoints the new SSA Commissioner, 
that new SSA Commissioner's duty will be to comply with Judge 
Sifton's Ford decision and construct ``Ford'' Notices that cure 
the present due process violations. The new SSA Commissioner 
will have to program the SSA computer to explain the standard 
that Congress intended to be applied equally in all 50 States. 
If the same legal standards are applied in all 50 States, then 
the new SSA Commissioner will have de facto ended SSA General 
Counsel Fried's clandestine nonacquiescence policy.
    If the new SSA Commissioner's staff provides him/her with 
accurate information, then the new SSA Commissioner will learn 
that for decades incorrect standards had been used to deny and 
reduce six million SSI recipients benefits based on the legal 
opinions of HHS General Counsel del Real, SSA Chief Counsel 
Gonya, and SSA General Counsel Fried. If the SSA staff provide 
accurate information, then the new SSA Commissioner will also 
learn that these Executive Branch counsel believed that they 
had the extraordinary authority to be de facto Supreme Courts 
and in effect ``overrule'' Circuit Court decisions by not 
changing the standards used in all 50 States. The new SSA 
Commissioner will also learn that in order to prevent any case 
from percolating to the Supreme Court, that these Executive 
Branch counsel had made the critical litigation decisions not 
to appeal what they believed to have been the ``incorrectly.'' 
decided District and Circuit Court decisions. See 20 C.F.R. 
Sec. 416.1485 Application of Circuit Court Law. Hence, the 
critical timing of this Subcommittee's Hearing prior to the 
appointment of the new President's new SSA Commissioner who 
will have the immediate duty to construct new SSI ``Ford'' 
Notices to comply with Judge Sifton's now unappealed Ford v. 
Apfel certified nationwide class decision. Therefore, the 
Chairman should consider raising the SSI Notice issue at the 
confirmation hearing of the new President's SSA Commissioner 
and inquire of the new SSA Commissioner whether he/she will be 
implementing SSA General Counsel Fried's nonacquiescence policy 
whereby the SSI standards have not been equally applied to six 
millions aged, blind, and disabled SSI recipients.

    B. Solicitor General Waxman's courageous decision to 
withdraw SSA General Counsel Fried's Ford appeal

    On September 11, 2000, Solicitor General Waxman 
courageously withdrew SSA General Counsel Fried's Second 
Circuit appeal of Judge Sifton's Ford v. Apfel, 87 F. Supp. 2d 
163), decision which certified a nationwide class of SSI 
recipients whose due process rights were violated because the 
SSI Notices did not explain the standards applied or cite to 
the applicable law. Upon information and belief, the key reason 
why Solicitor General Waxman withdrew the appeal was because 
Solicitor General Waxman, the ``people's lawyer'', apprehended 
the impossibility of defending SSA General Counsel Fried's 
clandestine nonacquiescence policy when ``Ford'' Notices would 
have to explain the same standards to be applied in all 50 
States and cite to the same Federal regulations duly 
promulgated pursuant to the SSACommissioner's compliance with 
the Administrative Procedure Act (APA).
    In Ford, Judge Sifton discussed the plight of SSI 
recipients who did not the reasons why the benefits were denied 
by citing to Gray Panthers v. Schweiker, 652 F. 2d 146, 168-169 
(D.C. Cir. 1980):
    Unless a persons is adequately informed of the reasons for 
the denial of a legal interest, a hearing serves no purpose--
and resembles more a scene from Kafka than a constitutional 
process. Without notice of the specific reasons. . .a claimant 
is reduced to guessing what evidence can or should be submitted 
in response and driven to responding to every possible 
argument. . .at the risk of missing the critical one 
altogether. . . .Id. at 181.
    Judge Sifton's harsh conclusion was based in part on SSA 
Commissioner Apfel's own SSA computer experts trial testimony 
which revealed the problems with the SSA computer and the 
limitations in the SSI Notices that were sent to six million 
legally defenseless aged, blind, and disabled citizens. That 
trial testimony revealed that when an ``acquiescence'' decision 
was made by Executive Branch counsel, the SSA computer was not 
reprogrammed with the new ``acquiescence'' standard. As a 
result, the old ``nonacquiescence'' standard continued to be 
applied in all cases except for the litigants in the 
``acquiescence'' case. This was not an innocent mistake of an 
overburdened Federal agency with an outdated computer, but the 
cold calculating intentional decision of Executive Branch 
counsel to clandestinely implement a nonacquiescence policy. 
See City of New York v. Bowen, 106 S. Ct. 2023 (1986).
    As discussed in more detail regarding the Jackson 
nonacquiescence policy, upon information and belief, Solicitor 
General Waxman apprehended that the ``Ford'' Notices will have 
to be constructed with explanations of the same legal standards 
applied and cite to the same regulation to be equally applied 
in all 50 States. If SSA General Counsel Fried's clandestine 
nonacquiescence policy continues unabated, then the ``Ford'' 
explanation of the SSA standard and the citation to the 
applicable law will result in evenmore incomprehensible Notices 
as the new SSA Commissioner will have to explain General 
Counsel Fried's reasons why the same standards are not to be 
applied in each Circuit.
    Given that the Solicitor General represents the citizens of 
the United States and not the client agency, the courageous 
Solicitor General Waxman has had to confront the toxic legacy 
of the continuation of the pre-June 3, 1985 nonacquiescence 
policy of HHS General Counsel del Real that on July 25, 
1985Members of Congress had been advised had ended on June 3, 
1985. Since that July 25, 1985 sworn Congressional testimony 
had not been accurate, Solicitor General Waxman knew that he 
could no longer ratify the clandestine implementation of the 
nonacquiescence policy of HHS General Counsel del Real, SSA 
Chief Counsel Gonya, and SSA General Counsel Fried when the 
``Ford'' Notices were constructed and sent to six million SSI 
recipients in all 50 States.
    Upon information and belief, Solicitor General Waxman 
apprehended that contrary to the sworn July 25, 1985 
Congressional testimony, the nonacquiescence policy did not end 
on June 3, 1985 because the HHS-SSA computer had not been 
reprogrammed when HHS General Counsel del Real, SSA Chief 
Counsel Gonya, and SSA General Counsel Fried made their 
subsequent ``acquiescence'' decisions. Upon information and 
belief, Solicitor General Waxman apprehended that SSA General 
Counsel Fried's May 22, 1997 sworn Congressional testimony was 
not accurate because the same legal standards have not been 
applied at all levels of SSA adjudication. Upon information and 
belief, Solicitor General Waxman has determined that AG Reno's 
DOJ should end its implementation of SSA General Counsel 
Fried's Constitutionally suspect ``co-ordinate Branches of 
Government'' theory that Executive Branch counsel has equal 
authority to the Judiciary to interpret the intent of Congress.
    Thus, Solicitor General Waxman's courageous litigation 
decision to withdraw SSA General Counsel Fried's Ford appeal 
was based on his realization that the new ``Ford'' Notices will 
have to explain the samestandard in all 50 States and cite to 
the same regulatory standards that the Congress intended were 
to be equally applied by the SSA Commissioner in all 50 States. 
Therefore, because the Ford appeal has been withdrawn, whomever 
the new President appoints as the new Attorney General, the new 
AG will have to instruct the client agency to cure the due 
process violations as determined by Judge Sifton in his now 
unappealed Ford decision.

    C. SSA General Counsel Fried's sworn May 22, 1997 
Congressional testimony that the nonacquiescence policy had 
ended in the June, 1985 and that the same legal standards were 
applied at all levels of SSA adjudication

    On May 22, 1997, Social Security Administration General 
Counsel Arthur Fried testified before the Committee on 
Judiciary Subcommittee on Commercial and Administrative Law and 
advised Members of Congress under oath that the Social Security 
Administration does acquiesce to Circuit Court decisions 
andthat the nonacquiescence policy had ended in June, 1985. SSA 
General Counsel Fried also testified that the same legal 
standards were applied at all levels of SSA adjudication. Copy 
of the May 22, 1997 sworn Congressional testimony is attached 
as Exhibit A.

    SSA General Counsel Fried explained the SSA 
``acquiescence'' policy:

        When a U.S. Circuit Court of Appeals publishes a decision on a 
        claim for Social Security Benefits, or Supplemental Security 
        Income (SSI) payments, and that decision conflicts with our 
        national policy, we either issue an Acquiescence Ruling, change 
        our national policy, or, in rare cases, seek review by the 
        Supreme Court. We never ignore these decisions. This has been 
        our policy since 1985, and the publication of our current 
        policies in regulations in 1990 essentially ended criticism by 
        the courts in this area. Emphasis Added.

    General Counsel Arthur Fried testified that the 
nonacquiescence policy had ended in June, 1985. This was prior 
to the July 25, 1985 sworn House Subcommittee testimony of 
Acting SSA Commissioner Martha Mc Steen, Deputy Attorney 
General Carolyn Kuhl, and SSA General Counsel Donald Gonya 
testified that the pre-June 3, 1985 nonacquiescence policy of 
HHS General Counsel del Real had ceased:

        This is not the first hearing before the subcommittee on 
        administrative law concerning this issue. Back in 1985, SSA 
        testified about the change in our policy from nonacquiescence 
        to acquiescence. Prior to that point, when a circuit court 
        decision was inconsistent with our interpretation of the law 
        and regulations, SSA's practice had been to apply the decision 
        only to named litigants in that particular case. In June of 
        1985, however, reacting to criticism in both Congress and the 
        courts, we announced a new policy wherein we would apply 
        circuit court decisions at the hearings level, following an 
        Acquiescence Ruling, in adjudicating claims in the circuit. No 
        legislation was enacted at that time. Since then, we have gone 
        even farther--we acquiesce to circuit court decisions at all 
        levels of administrative adjudication.

    SSA General Counsel Arthur Fried advised how national 
policy is made in collaboration with the Department of Justice 
when there are no regulations promulgated pursuant to the 
Administrative Procedure Act by the application of a ``careful 
scrutiny'' test by ``SSA officials'' and the Office of 
GeneralCounsel:

        Instead, the interpretation of a circuit court's decision and 
        its consistency with SSA policy is appropriately made with 
        careful scrutiny by SSA officials who have a broad 
        understanding of national policy and who work closely with 
        Department of Justice attorneys in this effort. If an ALJ or 
        other decisionmaker believes that a particular circuit court 
        decision conflicts with SSA policy, the decisionmakers can 
        provide input to the Office of the General Counsel through the 
        appropriate channels about either appealing the case or issuing 
        an Acquiescence Ruling.

    SSA General Counsel Arthur Fried, apparently sincerely, 
emphasized that it is the Social Security Commissioner who 
makes all the rules in order to have uniformity throughout the 
Social Security Administration:
    Nonetheless, it remains the Commissioner's responsibility 
to decide what Agency rules are. This is vital in order to 
maintain decisional consistency not only within a particular 
adjudicatory level, but cross levels as well--a key goal in our 
process unification efforts to obtain similar results in 
similar cases at all levels of SSA adjudication. There is no 
other way to ensure that constitutional and statutory 
requirements are properly and consistently applied and that the 
Agency can be held accountable for any failure to do so. 
Emphasis Added.
    However, then SSA General Counsel Arthur Fried admits to 
the implementation of the nonacquiescence policy that occurs 
when a circuit court renders its decision that conflicts with 
the national policy. He advises that the Social Security 
Administration does not comply with the APA and amend the 
policy by rulemaking, but rather, issues an Acquiescence Ruling 
regarding that particular circuit:

        As I stated before, whenever any circuit court decision 
        conflicts with our national policy, SSA's published regulations 
        require us to issue an Acquiescence Ruling if we are not 
        changing national policy unless it is one of the rare occasion 
        that we appeal. It is the Agency's responsibility to tell our 
        decisionmakers how to implement a conflicting holding when we 
        do not appeal, but we do not arbitrarily reject circuit court 
        decisions.

    Needless to say, SSA General Counsel Fried did not inform 
the Members of the House Subcommittee that he knew that the SSA 
computer was not reprogrammed when an ``acquiescence'' decision 
was made. SSA General Counsel Fried also did not inform the 
Members of the House Subcommittee that regulations were not 
applied equally in all 50 States notwithstanding his 
representation that the same legal standards were applied at 
all levels of SSA adjudication.
    The ``smoking gun'' evidence of that fact SSA General 
Counsel Fried's May 22, 1997 Congressional testimony was not 
accurate is found in the sworn Ford trial testimony of SSA 
Commissioner Apfel's SSA computer experts and in SSA General 
Counsel Fried's implementation of the April 21, 1986 
``Jackson'' regulation, 20 C.F.R. Sec. 416.1130 (b) , that is 
only applied in the Seventh Circuit States of Indiana, 
Illinois, and Wisconsin. The Chairman should consider reading 
that Ford trial testimony and the Jackson regulation to 
determine for himself whether the May 22, 1997 sworn 
Congressional testimony of SSA General Counsel Fried was 
accurate.

D. The Jackson intra-circuit and inter-circuit nonacquiescence 
policy

    Perhaps, the best evidence of how the SSA Notices have been 
intentionally deceptive, is SSA General Counsel Fried's 
implementation of the Jackson nonacquiescence policy. Given the 
Ford nationwide class, SSA Commissioner Apfel will now have to 
decide whether the ``Ford'' Notices willexplain the SSI income 
standard that is to be applied when an SSI recipient, who 
cannot afford to pay the rent with the SSI monthly payment that 
is set below the poverty level, receives a private rent subsidy 
to avoid eviction. The history of the Jackson regulation 
reveals the importance of compliance with the APA in order for 
SSI recipients and the public be advised of the standards 
applied in a national program which Congress intended to have 
the uniform standards applied by SSA in all 50 States.
    On January 6, 1984, fourteen years prior to the Christensen 
decision, Chief Judge Sharpe in Jackson v. Heckler, 581 F. 
Supp. 871 (N.D. Ind. 1984), ordered Secretary Heckler to 
promulgate an SSI in-kindincome regulation in order to comply 
with the Seventh Circuit's unappealed 1982 Jackson remand 
order:

        As an initial matter, the court will consider the parties' 
        dispute over whether the Secretary must amend the relevant 
        regulation or simply modify internal operation procedures and 
        manuals. The plaintiff argues that the relief mandated by the 
        court of appeals will be effectively implemented only if SSI 
        claimants and their representatives or advocates have access to 
        the modifications throughout the regulations found in the 
        Federal Register and the Code of Federal Regulations. 
        Otherwise, persons using the normal research tools will find 
        nothing but the regulation which found inadequate by the court 
        of appeals and will have no indication that it has been 
        modified. While instructions and guidelines in internal 
        operating manual and policy statements may be effective means 
        of informing social security administration personnel it is not 
        an effective means of informing claimants and their 
        representatives. There is simply no basis for assuming internal 
        operational manual are generally available. Furthermore, the 
        Secretary has not advanced any compelling reason why the 
        regulation should not be amended. Therefore, this court will 
        require and amendment to the challenged regulation. Emphasis 
        Added.

    On July 25, 1985, Acting Commission Martha Mc Steen, DOJ 
Deputy Assistant Attorney General (DAAG) Carolyn Kuhl, and SSA 
Chief Counsel Donald Gonya advised a House Subcommittee 
considering legislation to end the HHS nonacquiescence policy 
that the nonacquiescence policy of HHS General Counsel del Real 
had ended on June 3, 1985 and that Jackson was not a 
``nonacquiescence case.'' They announced the establishment of a 
Policy and Review Committee (PRC), that would be reviewing all 
court decisions:

        . . .recommend to the Commissioner which issues and cases 
        should be relitigated in order to obtain a definitive ruling 
        from the appropriate Court of Appeals of the Supreme Court. For 
        those cases in which relitigation is not recommended, the 
        Committee will address what changes, if any, in SSA policies 
        and procedures need to be made. Acting Commissioner Mc Steen's 
        June 24, 1985 Implementation of Acquiescence Policy attached as 
        Exhibit B.

    On October 10, 1985, Judge Sharpe issued a Jackson order 
requiring publication of the amendment to the SSI in-kind 
income regulation to comply with the Seventh Circuit's order in 
Jackson v. Schweiker, 683F. 2d 1076 (7th Cir. 1982). However, 
contrary to the July 25, 1985 Congressional testimony, 
Secretary Heckler limited the proposed regulation to only the 
State of Indiana.
    On December 3, 1985, Judge Bua in the unappealed Beckless I 
v. Heckler, 622 F. Supp. 715 (D.C. Ill. 1985), certified an 
Illinois class of SSI recipients and applied the Jackson to 
Illinois SSI recipients:

        However, it is not clear from the Jackson decision whether the 
        Secretary is refusing completely to comply with the Seventh 
        Circuit's decision. The Secretary has not issued a policy of 
        non-acquiescence as was done in Lopez, and without further 
        evidence, it is unclear whether the Secretary has failed to 
        perform her duties as a public official. Id. at 719. Emphasis 
        Added.

    On March 27, 1986, based on the unappealed Jackson v. 
Schweiker Seventh Circuit decision, Secretary Bowen certified a 
proposed amendment to the SSI regulation, 20 C.F.R. 
Sec. 416.1130. However, without explanation, Secretary Bowen 
limited the regulation's application to only SSI recipients who 
resided in the Seventh Circuit States of Indiana, Illinois, and 
Wisconsin. See 51 FR 13487 (April 21, 1986). This limitation 
was also contrary to the July 25, 1985 sworn testimony of 
Acting Commissioner McSteen, DAAG Kuhl, and SSA Chief Counsel 
Gonya that the pre-June 3, 1985 nonacquiescence policy had 
ended and that Jackson was not a nonacquiescence case.
    Because the SSA computer was not reprogrammed within the 
Seventh Circuit States, a decade later the Jackson intra-
circuit nonacquiescence policy was explained in the unappealed 
Beckless II v. Chater, 909 F.Supp. 575 (N.D.Ill. 1995). Judge 
Bucklo noted how SSA Chief Counsel Gonya's interpretation of 
Jackson had eviscerated the Seventh Circuit Jackson holding:

        The defendant essentially argues that the ``Exception'' 
        applicable to the Seventh Circuit should be read out of section 
        416.1130(b). Opposition def. br. 10. By its words, the 
        exception does not confine a business arrangement to payment of 
        full rent charged by a landlord. Rather, a business arrangement 
        exists ``when the amount of monthly rent required to be paid 
        equals or exceeds the presumed maximum value. . . .'' Id. at n. 
        4, p. 580. Emphasis Added.

    Notwithstanding his sworn May 22, 1997 Congressional 
testimony, SSA General Counsel Fried continued to implement the 
clandestine Jackson nonacquiescence policy. In the unappealed 
Ragsdale v. Apfel, 999 F. Supp. 814 (E. D. Vir. 1998), Judge 
Payne echoed Judge Bua's 1985 admonishment of Secretary Heckler 
in Beckless I and Judge Bucklo's 1995 admonishment of Secretary 
Shalala in Beckless II, and admonished SSA Commissioner Apfel 
for not to applying the Jackson standard to Virginia SSI 
recipients:

        This litigation need never have occurred. And, that it did, 
        reflects poorly on the Agency which elected not to seek review 
        of the decisions issued by the Second or Seventh Circuits and 
        then put the Ragsdales to the needless task of establishing the 
        obvious: that the decisions of the Second and Seventh Circuit 
        were correct. Citizens residing in the Fourth Circuit should 
        not be required needlessly to incur costs and fees in order to 
        achieve the rights already enjoyed by those individuals 
        residing in the Second and Seventh Circuit. It may be that the 
        Agency's conduct is not sanctionable in this case, but it must 
        be hoped that the Agency will not, in the future, pursue the 
        course which it has followed here. Id. at 824. Emphasis Added.

    However, notwithstanding SSA General Counsel Fried's sworn 
May 22, 1997 Congressional testimony, based on the advice of 
his counsel, SSA Commissioner Apfel has continued to defy Judge 
Payne's' Ragsdale admonition. Fortunately, Solicitor General 
Waxman decided not to defy Judge Payne's Ragsdale admonition. 
Hence, the litigation stage is now set for the new SSA 
Commissioner to construct ``Ford'' Notices to be sent to SSI 
recipients, like the Ragsdales, who reside in all 50 States and 
will now be provided the basic due process rights of 
explanations of the standards applied to deny and reduce their 
benefits with the new SSA Commissioner citing to the applicable 
law.

E. SSA General Counsel Fried's decision not to acquiesce to the 
Supreme Court's Christensen decision

    On May 1, 2000, the Supreme Court decided Christensen v. 
Harris County, 120 S. Ct. 1655 (2000). Justice Thomas clarified 
the Chevron deference standard:

        Here, however, we confront an interpretation contained in an 
        opinion letter, not one arrived at after, for example, a formal 
        adjudication or notice-and-comment rulemaking. Interpretations 
        such as those in opinion letters-like interpretations contained 
        in policy statements, agency manuals, and enforcement 
        guidelines, all of which lack the force of law--do not warrant 
        Chevron-style deference. Id. at 1662. Emphasis added.

    However, quite incredibly, SSA General Counsel Fried has 
determined not to acquiesce to Justice Thomas' Christensen 
decision because he does not want to cite to the duly 
promulgated regulations in the ``Ford'' Notices. Rather, SSA 
General Counsel intends to continue to use the multi-volumed 
POMS as the ``law'' to which the ``Ford'' Notices will cite. 
Upon information and belief, SSA General Counsel Fried 
recommended to SSA Commissioner Apfel that the ``Ford'' Notices 
inform the SSI recipients to surf the internet and to ``call 
up'' the cited POMS on the work-in-progress SSA home page to 
learn the reason why their SSI benefits were denied or reduced.
    SSA General Counsel Fried knows that if the SSA 
Commissioner acquiesces to Christensen, then this will be the 
de facto end to his clandestine implementation of the SSA 
nonacquiescence policy because the ``applicable law'' will be 
properly promulgated regulations and not the Executive Branch 
counsel created POMS. Hence, the importance of the new 
President's SSA Commissioner acquiescing to Christensen when 
constructing the ``Ford'' Notices and programming the SSA 
computer. The Chairman now has an extraordinary October, 2000 
opportunity to assist six million legally defenseless SSI 
recipients by inquiring of SSA General Counsel Fried the basis 
of his decision not to acquiesce to Christensen and not to 
include in the ``Ford'' Notices citations to the ``law'' which 
is the duly promulgated regulations. It is most respectfully 
submitted that if the Chairman asks SSA General Counsel Fried 
whether the proposed ``Ford'' Notice will be citing to the 
``Jackson'' regulation that will be provided to the millions of 
SSI recipients in all 50 States who cannot afford to pay their 
rent without a private rent subsidy, then SSA General Counsel 
Fried will inform the Chairman that in his legal opinion, as 
Executive Branch counsel, he has the Constitutional authority 
not to heed the admonition of Judge Payne in his unappealed 
Ragsdale decision.
    The Chairman and the Committee are now witnesses to SSA 
General Counsel Fried's extraordinary expansion of HHS General 
Counsel del Real's and SSA Chief Counsel Gonya's 
nonacquiescence policy which they applied to District and 
Circuit Court decisions. That nonacquiescence policy has now 
become SSA General Counsel Fried's Constitutionally defying 
policy and practice not to acquiesce to a decision of the 
United States Supreme Court. Hence, the importance of this 
Committee warning the new SSA Commissioner of the expectation 
that the SSA Commissioner will acquiesce to Justice Thomas' 
Christensen holding and in the ``Ford'' Notices cite to 
applicable duly promulgated regulations.

Summary

    Please excuse the harshness of the comments which have 
evolved over two decades of tortuous litigation challenging the 
HHS-SSA nonacquiescence policy notwithstanding the sworn 
Congressional testimony that the nonacquiescence policy had 
ended in June, 1985. However, as Judge Sifton has determined, 
after taking trial testimony from SSA Commissioner Apfel's own 
expert witnesses, SSA Commissioner Apfel's present 
administration of the SSI program as to SSI recipients is a 
Kafkaesque procedure whereby SSA Commissioner Apfel does not 
explain in simple English the standards that he has used to 
deny and reduce benefits to legally defenseless aged, blind, 
and disable SSI recipients.
    The present incomprehensibility of the SSA Notices is not 
because of the enabling statute or duly promulgated 
regulations, but rather is a result of an expansion of 
Executive Branch power based on the nonacquiescence policy and 
SSA General Counsel Fried's ``co-ordinate Branches of the 
Government'' Constitutional theory. Thus, the seemingly simple 
issue of the production of readable SSI Notices masks a more 
fundamental issue of the Executive Branch not only providing 
inaccurate information in sworn Congressional testimony, but 
now usurping the Constitutional authority of the Supreme Court. 
Hence, theimportance of this Committee's bi-partisan Report 
regarding Improving Social Security Notices becoming a 
Constitutional challenge to the new Congress and the new SSA 
Commissioner.
    Thank you for considering these comments and considering 
the suggestion that the Chairman inquire of SSA General Counsel 
Fried whether he has recommended to SSA Commissioner Apfel that 
the SSA Commissioner should acquiesce to Christensen when the 
``Ford'' Notices are constructed by citing to the duly 
promulgated regulations in order that six million aged, blind, 
and disabled legally defenseless citizens will understand the 
Notices that result in the reduction and denial of benefits 
upon which their very lives depend. SSA General Counsel Fried's 
answer to the Chairman's Christensen inquiry could be an 
excellent bright line standard for the new President's new SSA 
Commissioner to evaluate prior to the SSA Commissioner's 
confirmation hearing.
    [Attachments are being retained in the Committee files.]
      

                                <F-dash>


                              South Brooklyn Legal Services
                                         New York, NY 11201
                                                    October 6, 2000

Congressman E. Clay Shaw, Jr.
Chairman, Subcommittee on Social Security
Committee of Ways and Means

A.L. Singleton, Chief of Staff
Subcommittee on Social Security
Committee of Ways and Means
U.S. House of Representatives
1102 Long worth House Office Building
5Washington, D.C. 20515

Re: Social Security Notices

Dear Congressman E. Clay Shaw, Jr., and Mr. A.L. Singleton,
    In response to your September 19, 2000 notice soliciting comments, 
I write to complain about a notice used by Social Security's 
administrative appellate board, the Appeals Council. I am a legal 
services attorney who represents indigent persons seeking Supplemental 
Security Income (``SSI'') and Social Security Disability (``SSD'') 
benefits. These comments are submitted on behalf of these clients. 
Included as part of these clients are Mitzie Girvan and Rosa Calderon, 
both of whom could not understand the Appeals Council's notice and 
therefore missed their statutory deadlines with which to file their 
appeals in Federal court.
    The notice in question is used to deny a request for review of an 
unfavorable Administrative Law Judge decision, and typically bears the 
heading ``ACTION OF APPEALS COUNCIL ON REQUEST FOR REVIEW.'' (The text 
of the notice is typed at pages 7-8 of these comments, while an 
original copy is attached as exhibit A). The notice is impossible to 
understand unless you have 15 and a half years of education (the 
equivalent of three and one half years of college.) In fact, according 
to a common yardstick used by courts and writers to assess the 
readability of a document, a typical applicant for Supplemental 
Security Income (``SSI'') or Social Security Disability (``SSD'') 
benefits is better able to understand Lincoln's ``Gettysburg Address'' 
or the 1040 EZ tax instruction form than the contents of this notice. 
The notice is sent annually to about 75,000 persons \1\ who have had 
crucial Social Security and SSI benefits denied, terminated or reduced. 
Congress requires that Social Security notices be written in ``simple 
and clear language.'' 42 U.S.C. Sec. Sec. 405(s); 1383(o). While Social 
Security is well aware that the notice is statutorily defective, See 
e.g. Mosley v. Apfel, 98-CV-6652 (E.D.N.Y),\2\ it has not re-written 
the notice. Accordingly, I ask that this sub-committee require Social 
Security to change its Appeals Council notice.
---------------------------------------------------------------------------
    \1\ SSA Key Workload Indicators, Hearings--Appeals--Civil Actions, 
Attorney Fees, for fiscal years 1997 and 1998 respectively reveal that 
69,369 and 78,991 requests for review to the Appeals Council were 
denied resulting in the issuance of the appended notice.
    \2\ Mosley was a class action challenging the language in the 
Appeals Council notice in question. It was dismissed as moot after the 
defendant waived the 60 day time limit for the named plaintiff to seek 
judicial review.
---------------------------------------------------------------------------
    The Appeals Council notice at issue is not written in simple or 
clear language as statutorily required. Rather it is laced with 
legalese, long sentences, and difficult words. For example, when 
describing a persons's right to file an appeal, the notice does not use 
simple language such as ``if you want to file an appeal'' or ``if you 
think this decision is wrong''. Rather, the notice states:

        if you desire court review of the Administrative Judge's 
        Decision you may commence a civil action by filing a complaint 
        in the United States District Court for the judicial district 
        in which you reside within sixty (60) days from the date of the 
        receipt of this letter. . . .

    (Emphasis supplied on difficult or poor word choice.)
    Nor does the Appeals Council notice have any useful headings as in 
the Commissioner's other notices, such as ``Your Right to Appeal'' or 
``If You Disagree with the Decision.'' Nor does it give the address of 
the Federal court where the appeal could be filed, or the address of a 
local Social Security office (as required by 42 U.S.C. 
Sec. Sec. 405(s); 1383(o)) where one could obtain instructions 
regarding how and where to file an appeal in Federal court.
    Further, an analysis of the word choice used in the appended 
Appeals Council notice indicates that one needs 15.41 years of 
education (the equivalent of three and a half years of college) to 
understand itsmeaning.\3\ This means that the Appeals Council notice is 
harder to understand than either Lincoln's ``Gettysburg Address'' or 
the instructions to a 1040 EZ tax form.\4\
---------------------------------------------------------------------------
    \3\ To obtain a measure of the readability of the Appeals Council 
notice, I typed the text of the notice into my computer and ran the 
Grammatik program on my WordPerfect 7.0 program. The Grammatik's 
analysis of the Appeals Council notice placed it at the 15.41 grade 
level on the Flesch-Kincaid index for readability. Courts have used the 
Flesch-Kincaid index to assess the readability of notices. Pereira v. 
Shalala, 841 F. Supp. 323 (C.D. Cal. 1993).
    \4\ The Grammatik's program on readability places Lincoln's 
``Gettysburg Address'' at the 12.9 grade level and the 1040 EZ 
instructions at the 10.5 grade level.
---------------------------------------------------------------------------
    Documents written for a general audience should be written at a six 
to eighth grade level.\5\ Indeed, a typical SSA notice containing the 
appeal rights of a person denied SSI at the initial level is written at 
the nine and one half grade level.\6\ Clearly, Social Security knows 
how to make a notice readable when it wants to.
---------------------------------------------------------------------------
    \5\ See definition of Flesch-Kincaid Grade Level, in ``help'' box 
of Grammatik. Corel (WordPerfect) Corporation 1996. See also David v. 
Heckler, 591 F. Supp. at 1037 (documents at 12-14th grade level ``defy 
understanding by the general populace''); Pereira v. Shalala, 841 F. 
Supp. at 327 (documents at 13-15th grade level ``likely to confuse and 
deceive areasonable claimant'').
    \6\ See September 12, 1995 notice (form SSA-L444) which scored 9.5 
on the Flesch-Kincaid Grade Level. It is appended in full at the end of 
these comments (pgs 8-9) and attached as exhibit B.
---------------------------------------------------------------------------
    The consequences of not using simple language and not providing the 
address of the court house where the appeal could be filed, or a social 
security office where additional information could be obtainedabout how 
to file a Federal court appeal, are serious. First, if you do not file 
your appeal, your case is finished and, generally, cannot be reopened. 
Here, the appended Appeals Council notice does not state the 
consequences of its decision or of not filing an appeal in Federal 
court. Rather it vaguely states in rather difficult prose that ``your 
request [for review of the Administrative Law Judge's decision] is 
denied and the Administrative Law Judge's decision stands as the final 
decision of the Commissioner of SocialSecurity in your case.''
    Second, if you do not file your Federal court appeal on time, the 
Commissioner will move to dismiss it (and generally will win, thereby 
precluding any further appeal). This is true even if you filed the 
appeal pro se, have a marginal education, and state you did not 
understand the notice. Indeed, this happened to two of my clients, Ms. 
Calderon and Ms. Girvan. Ms. Calderon, a woman with a seventh grade 
education, missed her deadline to file her Federal court appeal by a 
few weeks.\7\ The pro se clerk suggested that she explain why she was 
late. With the aid of her daughter, she wrote that she ``was unable to 
comprehend the notice given to me,'' and still Social Security sought 
to dismiss her complaint as untimely. Similarly, Ms. Girvan, who reads 
and writes only marginally well, filed her appeal 19 days late because 
the Appeals Council notice ``didn't state where to go. I never know 
[sic] where to go or who to ask.'' \8\ The Federal court judge 
nevertheless dismissed Ms. Girvan's complaint.\9\
---------------------------------------------------------------------------
    \7\ Calderon v. Apfel, Eastern District of New York (CV-99-5157), 
The Commissioner later waived its jurisdictional defense for reasons 
other than it's defective notice.
    \8\ Girvan  v. Apfel, Eastern District of New York (CV-99-5649).
    \9\ Her case is presently prending at the Court of Appeals, Second 
Circuit, Girvan v. Apfel, 00-6242.
---------------------------------------------------------------------------
    Finally, the incomprehensibleness of the Appeals Council's notice 
robs low income persons of crucial benefits that often are obtained by 
appealing to Federal court.\10\ The Federal reporters are filled with 
cases in which Social Security's decision denying benefits are 
overturned. Indeed, a review of this office's docket for 1999 and 2000 
indicates that of the 13 Federal court appeals we obtained from 
litigants who appeared pro se before administrative law judges, three 
were reversed for payment of benefits by Federal judges while eight 
were remanded for de novo hearings.
---------------------------------------------------------------------------
    \10\ The notice also deprives city and State welfare agencies of 
``interim assistance'' payments that might be obtained if the applicant 
appealed to Federal court and ultimately prevailed.
---------------------------------------------------------------------------
    In conclusion, Social Security must change its Appeals Council 
notice in order to comply with its statutory obligations that it be 
written in ``simple and clear language.'' 42 U.S.C. Sec. Sec. 405(s); 
1383(o). Its failure to do so results in tens of thousands of persons 
failing to pursue crucial benefits to which they often are entitled. 
Changing the language would not be hard. As a starter, I would change 
the fifth paragraph from:

        [i]f you desire a court review of the Administrative Law 
        Judge's decision, you may commence a civil action by filing a 
        complaint in the United States District Court for the judicial 
        district in which you reside within sixty (60) days from the 
        date of the receipt of this letter. . .

    to

        If you think this decision is wrong, you may file an appeal at 
        the Federal court house located at [insert address of Federal 
        court house]. You must go there and file the appeal soon. If 
        you do not go in the next 60 days your case will be over and 
        you will not be allowed to appeal any further. If you have 
        questions about this letter, you can ask for help at your local 
        social security office. Your local Social Security office is 
        located at [insert address and phone number].

    Thank you for considering these comments. Please feel free to 
contact me if further information is needed.
            Sincerely,

                                     Johnson M. Tyler, Esq.
                                                  SSI Unit Director
cc: Kenneth Apfel, Commissioner, Social Security Administration Arthur 
Fried, Chief Counsel, Social Security Administration
      

                                <F-dash>


Social Security Administration

Refer to: TAHB5
                             Office of Hearings and Appeals
SS# ###-##-###
                                Falls Church, VA 22041-3255
                                                      June 22, 1999

            Action of Appeals Council on Request for Review

Ms. Mitzi Girvan
416 Rockaway Parkway,
Apt. 17B
Brooklyn, NY 11212

Dear Ms. Girvan,

    The Appeals Council has considered the request for review of the 
Administrative Law Judge's decision issued on September 22, 1997.
    Social Security Administration regulations provide that the Appeals 
Council will grant a request for review where: (1) there appears to be 
an abuse of discretion by the Administrative Law Judge; (2) there is an 
error of law; (3) the Administrative Law Judge's action, findings, or 
conclusions are not supported by substantial evidence; or (4) there is 
a broad policy or procedural issue which may affect the general public 
interest. The regulations also provide that where new and material 
evidence is submitted with the request for review, the entire record 
will be evaluated and review will be granted where the Appeals Council 
finds that the Administrative Law Judge's actions, findings, or 
conclusion is contrary to the weight of the evidence currently of 
record (20 CFR 416.1470).
    The Appeals Council has concluded that there is no basis under the 
above regulations for granting your request for review. Accordingly, 
your request is denied and the Administrative Law Judge's decision 
stands as the final decision of the Commissioner of Social Security in 
your case. In reaching this conclusion, the Appeals Council has 
considered the applicable statutes, regulations, and rulings in effect 
as of the date of this action.
    If you desire a court review of the Administrative Law Judge's 
decision, you may commence a civil action by filing a complaint in the 
United States District Court for the judicial district in which you 
reside within sixty (60) days from the date of the receipt of this 
letter. It will be presumed that this letter is received within five 
(5) days after the date shown above unless a reasonable showing to the 
contrary is made. The complaint should name the Commissioner of Social 
Security as the defendant and should include the Social Security 
number(s) shown at the top of this notice. The right to court review is 
provided for in section 1631(c)(3) of the Social Security Act (42 
U.S.C. 1383(c)(3)).
    If you cannot file your complaint within 60 days, you may ask the 
Appeals Council to extend the time in which you may begin a civil 
action. However, the Council will only extend the time if you provide a 
good reason for not meeting the deadline. Your reason(s) must be set 
forth clearly in your request.
    If a civil action is commenced, the Commissioner must be served by 
sending a copy of the summons and complaint by registered or certified 
mail to the General Counsel, Social Security Administration, Room 611, 
Altmeyer Building, 6401 Security Boulevard, Baltimore, MD 21235. (See 
rules 4(c) and (i) of the Federal Rules of Civil Procedure). In 
addition, you must serve the United States Attorney for the district in 
which you file your complaint and the Attorney General of the United 
States, as provided in the FederalRules of Civil Procedure.
            Sincerely yours,

                                            Susan C. McNabb
                                                    Appeals Officer

Supplemental Security Income Notice

       Department of Health and Human Services, Social Security 
                            Administration.

Social Security Number:
                                                   John Doe
xxx-xx-xxxx
                                         Brooklyn, NY 11231
                                                      Sept. 12 1995

    We have determined that you cannot get supplemental security income 
payments based on the claim that you filed. The attached page explains 
why we decided that you are not disabled or blind. However, you may 
appeal this determination if you still think you are disabled or blind.
    The determination on your claim was made by an agency of the State. 
It was not made by your own doctor or by other people or agencies 
writing reports about you. However, any evidence they gave us was used 
in making this determination. Doctors and other people in this State 
agency who are trained in disability evaluation reviewed the evidence 
and made the determination based on Social Security law and 
regulations. The law is explained on the second page of this letter.

                          Your Right to Appeal

    If you think we are wrong, you can ask that the determination be 
looked at by a different person. This is called a reconsideration. IF 
YOU WANT A RECONSIDERATION, YOU MUST ASK FOR IT WITHIN 60 DAYS FROM THE 
DATE YOU RECEIVE THIS NOTICE. IF YOU WAIT MORE THAN 60 DAYS, YOU MUST 
GIVE US A GOOD REASON FOR THE DELAY. Your request must be made in 
writing through any Social Security office. Be sure to tell us your 
name, Social Security number and why you think we are wrong. If you 
cannot write to us, call a Social Security office or come in and 
someone will help you. You can give us more facts to add to your file. 
However, if you do not have the evidence yet, you should not wait for 
it before asking for a reconsideration. You may send the evidence in 
later. We will then decide your case again. You will not meet with the 
person who will decide your case. Please read the enclosed leaflet for 
a full explanation of your right to appeal.
    There are groups that can help with your appeal. Some of these 
groups may be able to give you the name of a lawyer who will help you 
for free. Contact any Social Security office if you want the names of 
these groups.

New Application

    You have the right to file a new application any time, but filing a 
new application is not the same as appealing this decision. If you 
disagree with this decision and file a new application instead of 
appealing you might lose some benefits, or not qualify for any 
benefits. So, if you disagree with this decision you should file an 
appeal within 60 days.
    This determination refers only to your claim for supplemental 
security income payments. You will be notified separately if you also 
filed a claim for Social Security benefits.
    If you have any questions, call, write, or visit, any Social 
Security office. Most questions can be handled by telephone or mail. If 
you visit a Social Security office, please take this notice with you.

                 Disability and Blindness Requirements

    To get Supplemental Security Income payments:
    You must be unable to work due to a medical condition which has 
lasted or will last for at least 12 months in a row. The condition bust 
be severe enough to keep you from working not only at your usual job, 
but in any other substantial gainful work. We look at your age, 
education, training and work experience when we decide whether you can 
work. Children under age 18 must be found disabled based only on a 
severe physical or mental condition.
                                   Or
    Your eyesight must be no better than 20/200 in the better eye with 
the use of a correcting lens or your visual fields must be restricted 
to 20 degrees or less.

                      Other Important Information

    Definitions of disability are not the same in all government and 
private disability programs. Government agencies must follow the laws 
that apply to their own disability programs. A finding by a private 
organization or other government agency that a person is disabled does 
not necessarily mean that the person meets the disability requirements 
of the Social Security Act.
    [Additional attachments are being retained in the Committee files.]

                                              Form SSA L444
      

                                <F-dash>


                             Law Offices of Vollmer & Tanck
                                        Uniondale, NY 11553
                                                    October 9, 2000

The Honorable E. Clay Shaw
Chairman, Subcommittee on Social Security
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
5Washington, D.C. 20515

Dear Congressman Shaw:
    Thank you for the opportunity to submit this written comment for 
the hearing record on the topic of the quality and effectiveness of 
Social Security notices. In your opening statement, you noted that 
Social Security Administration (``SSA'') notices ``are confusing, 
illogical [and] contradictory,'' and referred to ``a recent court case 
[ruling] that certain [Social Security] letters are. . . 
`constitutionally defective' because they violate the principles of due 
process.'' I am one of the attorneys of record in that court case.
    In Ford v Apfel, 87 F.Supp.2d 163 (E.D.N.Y. 1999), Robert Ford, a 
disabled recipient of Supplemental Security Income (``SSI''), 
challenged the constitutional adequacy of financial eligibility and 
benefit notices sent by SSA to 6.5 million elderly, blind and/or 
disabled SSI claimants nationwide. Mr. Ford did not challenge the 
readability of the SSI notices (that is, the level of comprehension of 
the language used), but rather the substantive content and accuracy of 
those notices (that is, whether the notices and SSI benefit payment 
amounts were based on complete information and were correctly 
calculated).
    I submit this letter to request that the text of the Ford decision 
be included in its entirety in the record of this hearing. I also write 
to provide your Subcommittee with historical information obtained 
through discovery and at trial about SSA's non-compliance with SSI 
notice improvement recommendations made in the 1992 and 1994 Reports of 
the Office of the Inspector General of the United States Department of 
Health and Human Services (``OIG'') and the United States General 
Accounting Office (``GAO'').
    During her testimony on September 26, 2000, Barbara D. Bovbjerg, an 
Associate Director of the GAO, summarized the key findings of a newly 
released GAO report which updated your Subcommittee on the extent to 
which SSA adopted and/or implemented the notice improvements that OIG 
and GAO recommended more than 8 years ago.
    Regrettably, Ms. Bovbjerg testified that ``SSA has not made 
comprehensive improvements to [SSI award notices or SSI benefit 
adjustment notices] and has only recently begun developing action plans 
for improving them.'' She reported that SSI award and benefit 
adjustment notices still do not adequately explain the basis for the 
decision, the relationship between program rules and benefit amounts, 
or a decision's effect on the claimant's SSI payment precisely the same 
deficiencies identified by IOG in 1992 and by GAO in 1994.
    When GAO inquired why SSA had not undertaken comprehensive 
corrective action over the last 8 years, Ms. Bovbjerg, citing Ford in a 
footnote, reported to the Subcommittee that

        . . .SSA officials told [GAO] that they postponed plans to 
        improve SSI award and benefit adjustment letters pending the 
        outcome of a recently decided court case [finding] that SSA's 
        letters denied [SSI] recipients due process because the letters 
        did not adequately explain the basis for SSA's decisions.

    If this recitation of SSA's position is accurate, then SSA, having 
failed to revise its SSI notices as pledged, now seeks to revise 
history instead. Contrary to SSA's portrayal, the pendency of this 
litigation did not postpone SSA's plans to improve its SSI notices 
consonant with GAO and OIG recommendations because no such plans 
existed. Nor did SSA formulate such plans when plaintiffs repeatedly 
offered to settle the litigation if SSA stipulated to implement those 
recommendations.
    From October, 1995 through December, 1998, United States Magistrate 
Steven M. Gold presided over multiple settlement conferences in a 
concerted effort to avoid trial and expedite the notice modifications 
that were eventually won by plaintiffs after trial. I personally 
attended every settlement conference on behalf of plaintiffs. 
Throughout these negotiations, plaintiffs offered to settle the case if 
SSA agreed to implement the GAO and OIG recommendations.
    Specifically, plaintiffs demanded that SSA include a budget 
worksheet with SSI notices which summarized how the benefit amount was 
calculated. Plaintiffs also sought limited textual revisions to the SSI 
notices to enable SSI claimants to ascertain how their benefit amount 
was determined, why their SSI applications were denied, what legal 
authority supported the intended action, and how they could access and 
review their case files for further information.
    SSA made only two counterproposals. In March, 1997, SSA offered to 
include generic notice language inviting SSI claimants to ``contact 
[SSA]. . .if you have any questions about how [SSA] made these 
decisions [or] to review [SSA] records with you.'' This fell far short 
of the GAO and OIG recommendations and was rejected by plaintiffs.
    In February, 1997, SSA agreed to include boilerplate notice 
language which recited that the SSI claimant had the right to review 
and obtain free copies of his/her SSA records, but rejected every other 
notice modification because ``SSA is virtually unable to produce 
routine notices with the amount and type of information which plaintiff 
seeks.'' Again, this fell far short of GAO and OIG recommendations and 
was rejected by plaintiffs.
    SSA never engaged in serious settlement discussions to implement 
the GAO and OIG recommendations. Had they done so, the matter could 
have been resolved at any point in time from the 1994 filing of this 
litigation through the entry of final judgment after trial in January, 
2000.
    By Judgment and Order dated January 13, 2000, the Honorable Chief 
Judge Charles P. Sifton directed SSA to

        . . .expeditiously prepare and implement a plan. . .that 
        modifies [SSA's] automated SSI financial eligibility notices so 
        as to provide information required in order to understand the 
        reasons for the award, modification, termination or denial of 
        SSI benefits in such detail as is necessary to permit a 
        reasonable person to understand the basis for the agency's 
        action. . .

    The Court directed SSA to implement an array of notice 
modifications so SSI claimants could obtain ``information and 
explanation'' about their living arrangement category (a key factor in 
computing the actual monthly SSI benefit payment), permissible resource 
levels, the right to review case files and the legal authority for the 
intended action. Reflecting the import of the OIG and GAO reports that 
were introduced at trial, Chief Judge Sifton also ordered SSA to 
include ``benefit computations in worksheetform.''
    The Court retained jurisdiction for the purpose of enforcing 
compliance, and directed SSA to submit an implementation plan with its 
time line for the completion of the notice modifications within 120 
days and to update the Court on progress every successive 120 days 
until implementation was complete.
    In her testimony, Ms. Bovbjerg stated that ``SSA plans to add the 
[budget] worksheet to the SSI [notices] by July 2002,'' but ``SSA 
officials estimated that it could take 10 years to implement the full 
range of planned improvements.'' If SSA is permitted to proceed at its 
present pace, it will take longer for SSA to implement SSI notice 
improvements than it took NASA to land men on the moon.
    The addition of another decade to SSA's timeline hardly constitutes 
``expeditious'' implementation, and is especially troubling given SSA's 
historical propensity to pledge one thing and do another.

        In September, 1992, OIG recommended that SSA

        . . .include a worksheet with all award and postentitlement 
        [SSI] notices. This worksheet should itemize the gross payment, 
        all deductions, the net payment amount, and the payment 
        date.\1\

    \1\ See ``Office of Inspector General's Clarity of Supplemental 
Security Income Notices, September 1992,'' page 11.
---------------------------------------------------------------------------
    In her written response to OIG's recommendations, Gwendolyn King, 
then-Commissioner of SSA, assured OIG that SSA would ``take the 
suggestions into consideration. . .when we revise our notices [and] 
determine whether certain of the suggestions are technically 
feasible.'' \2\
---------------------------------------------------------------------------
    \2\ See ``Office of the Inspector General's Examples of revised 
Supplemental Security Income Notices, September, 1992,'' page A-4.
---------------------------------------------------------------------------
    Despite the former Commissioner's pledge to assess ``technical 
feasibility,'' plaintiffs established at trial that the worksheet 
recommendation was never brought to the attention of Charles Wood, 
SSA's Associate Commissioner of the Office of Systems Design and 
Development, George Schmittle, SSA's computer expert in charge of SSI 
notices, or Lorna Leigh, defendant's computer specialist in charge of 
SSI computational software. Ford, 87 F.Supp.2d at 171-172.

        In 1994, Joseph F. Delfico, then-Director of the GAO, testified 
        before this very Subcommittee that

        . . .GAO selected and read over 500 [notices] to get a sense of 
        how easy or difficult they were to understand. GAO staff with 
        an accounting background and years of Social Security program 
        knowledge had difficulty determining or verifying specific 
        points contained in the [notices].\3\

    \3\ Social Security Administration: Many Letters Difficult to 
Understand (GAO/T-HEHS-94-126, March 22, 1994).
---------------------------------------------------------------------------
        In its findings, GAO reported that

        . . .the purpose of [the notices is] not being clearly stated, 
        no information [is provided] on dollar amounts used by SSA to 
        adjust payments,. . .and the reader must] perform complex 
        analyses to reconstruct adjustments to benefits.

    At trial, Nancy Lloyd, SSA's program analyst in charge of 
operational aspects of the SSI program, testified that SSA decided to 
reject GAO's recommended inclusion of a budget worksheet with SSI 
notices because ``it was found to be too costly and too burdensome on 
[SSA].'' Donna Goon, a member of SSA's notice clearance and review 
staff, testified that SSA considered GAO's conclusions, but took no 
action to redress the problems identified by GAO. Instead, SSA made a 
policy decision to suspend improvements to SSI notices while SSA 
devoted its computer resources to other matters. Ford, 87F.Supp.2d at 
171-172.
    Although SSA now claims that implementation of the requisite notice 
improvements will require another decade, Charles Wood, SSA's Associate 
Commissioner of the Office of Systems Design and Development, and Lorna 
Leigh, defendant's computer specialist in charge of SSI computational 
software, both testified at trial the GAO's proposed budget worksheet 
would could be ``designed and debugged'' within six months. 
Commissioner Wood also testified that implementation of all forms of 
plaintiffs' relief (notice textual changes and budget worksheet) would 
take just two years under current staffing levels that assign just 13 
computer programmers to format and produce all SSI notices. Ford, 87 
F.Supp.2d at 163, 183. With the addition of additional staff, the 
requisite notice improvements could doubtless be completed in less than 
2 years.
    Despite the urgings of the OIG, GAO and a Federal court, SSA 
continues to balk at implementation of the requisite SSI notice 
improvements. Consider, for example, SSA's response to the inclusion of 
appropriate legal citation in the text of its SSI notices.

        Among his fact findings, Chief Judge Charles P. Sifton noted in 
        Ford that SSI notices

        . . .fail to identify the provision of Federal law, Federal 
        regulation or [SSA policy material] that has been applied to 
        make determinations to grant or deny, change or terminate 
        benefits. Without reference to such authorities (and most often 
        without other legal assistance), plaintiffs are deprived of any 
        meaningful way of correcting legal error by consulting such 
        legal texts as may be available in public libraries, regional 
        SSA offices or elsewhere. Ford, 87 F.Supp.2d at 180-181.

    In its current implementation plan, SSA intends to ``provide 
information regarding legal authorities via the Internet'' in lieu of 
inclusion of specific citation within the body of the SSI notices 
themselves. Instead, SSA intends to develop notice language ``referring 
the SSI individual to the website.''
    According to the National Telecommunications and Information 
Administration of the United States Department of Commerce, there is a 
growing ``digital divide'' that deprives low income households of 
internet access.\4\ According to that agency, only 6.1 percent of 
households with annual income equivalent to SSI income levels had 
internet access.\5\ Our nation's SSI population surely fall on the 
wrong end of this digital divide.
---------------------------------------------------------------------------
    \4\ See Falling Through the Net, a Report of the National 
Telecommunications and Information Administration of the United States 
Department of Commerce dated July 8, 1999, which is available via the 
internet at http.ntia.doc.gov/ntiahome/fttn99/contents.html.
    \5\ Id. at page 15, ChartI-21.
---------------------------------------------------------------------------
    In December, 1999, SSA provided SSI benefits to 6.5 million 
claimants nationwide.\6\ One in three is over age 65, and one in six is 
over age 75 \7\. One in every three suffer suffers from mental 
retardation orsome other mental disorder.\8\ While disability can also 
be a barrier to understanding written notices, Internet access also 
requires not only reading and comprehension skills, but a set of 
``computer literacy'' skills. Poverty, marginal education, blindness, 
mental impairments and advanced age surely impede Internet access for 
this vulnerable, low-income population. It is difficult to envision a 
classification of persons less suited to rely on the Internet than SSI 
claimants.
---------------------------------------------------------------------------
    \6\ See 1999 SSI Annual Statistical Report of the Social Security 
Administration, page 11.
    \7\ Id. at page 11, 32.
    \8\ Id. at page 36.
---------------------------------------------------------------------------
    Although the Court in Ford retained jurisdiction to oversee the 
implementation of SSA's notice improvements, courts are generally 
reluctant to micromanage the internal operations of a government 
agency. That supervisory function is reserved to the executive and 
legislative branches of government.
    In your opening statement, you expressed extreme disappointment 
that SSA had made little or no progress in improving its notices 
despite the agency's repeated pledges to make improvements. You 
correctly noted that SSA simply must accelerate corrective actions 
``before millions of baby boomers reach their peak disability years.'' 
I urge the Subcommittee to use its influence to encourage SSA to 
implement GAO's recommendations with all deliberate speed.
    In a slightly different context, former President Ronald Reagan 
once noted that it is important to ``trust, but verify.'' I 
respectfully submit that it is time for your Subcommittee to schedule 
annual hearings on this very important issue in order to verify that 
SSA does its utmost to implement these long-overdue notice improvements 
on behalf of our nation's most vulnerable constituency.
            Respectfully submitted,

                                        Peter Vollmer, Esq.

                                   - 

</pre></body></html>
